  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.



Acronyms

AFMC                  Air Force Materiel Command
AMC                   Army Materiel Command
AMCOM                 Aviation and Missile Command
BMDO                  Ballistic Missile Defense Organization
CAIV                  Cost as an Independent Variable
DAWIA                 Defense Acquisition Workforce Improvement Act
DCMC                  Defense Contract Management Command
DCMCP                 Defense Contract Management Command Philadelphia
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
IMMC                  Integrated Materiel Management Center
MCSC                  Marine Corps Systems Command
MDAP                  Major Defense Acquisition Program
MAIS                  Major Automated Information System
NAVSEA                Naval Sea Systems Command
NAVSUP                Naval Supply Systems Command
ONR                   Office of Naval Research
OSD                   Office of the Secretary of Defense
RDEC                  Research, Development, and Engineering Center
SPAWAR                Space and Naval Warfare Systems Command
SMDC                  Army Space and Missile Defense Command
                       Office of the Inspector General, DoD
Report No. D-2000-088                                                February 29, 2000
  (Project No. 9AE-5021)

       DoD Acquisition Workforce Reduction Trends and Impacts

                               Executive Summary

Introduction. In a general sense, DoD acquisition workforce reductions are part of the
overall downsizing of the Federal and Defense workforce. However, Congress has
singled out the DoD acquisition population for separate downsizing emphasis, even
while allowing the Secretary of Defense considerable latitude in implementing
reductions. Congress has defined the term “Defense acquisition and support
workforce” to include most military and civilian personnel employed by DoD
acquisition organizations, as specified in DoD Instruction 5000.58, “Defense
Acquisition Workforce,” January 14, 1992, and any other organizations that the
Secretary of Defense may determine to have a predominantly acquisition mission. The
Instruction identifies 21 DoD acquisition organizations, which contain the majority of
the acquisition workforce.

Objectives. The overall audit objective was to review the trends of DoD acquisition
workforce and workload reductions and to evaluate the potential impact of further
acquisition and support workforce reductions on the DoD ability to support acquisition
workload requirements. To accomplish the objective, we interviewed and collected
information from senior personnel at 14 acquisition organizations.

Results. Using the congressional definition of the DoD acquisition workforce, DoD
reduced its acquisition workforce from 460,516 to 230,556 personnel, about
50 percent, from the end of FY 1990 to the end of FY 1999; however, the workload
has not been reduced proportionately. From FY 1990 through FY 1999, the value of
DoD procurement actions decreased from about $144.7 billion to about $139.8 billion,
about 3 percent, while the number of procurement actions increased from about
13.2 million to about 14.8 million, about 12 percent. The greatest amount of work for
acquisition personnel occurs on contracting actions over $100,000, and the annual
number of those actions increased from 97,948 to 125,692, about 28 percent, from
FY 1990 to FY 1999. The following impacts from acquisition workforce reductions
were identified:

       •   increased backlog in closing out completed contracts (3 organizations),
       •   increased program costs resulting from contracting for technical support
           versus using in-house technical support (7 organizations),
       •   insufficient personnel to fill-in for employees on deployment
           (1 organization),
       •   insufficient staff to manage requirements (9 organizations),
       •   reduced scrutiny and timeliness in reviewing acquisition actions
           (4 organizations),
       •   personnel retention difficulty (6 organizations),
       •   increase in procurement action lead time (1 organization),
       •   some skill imbalances (9 organizations), and
       •   lost opportunities to develop cost savings initiatives (2 organizations).
The 14 DoD acquisition organizations anticipated additional adverse effects on
performance if further downsizing occurs.

To improve the acquisition process, DoD implemented over 40 reform initiatives over
the last 5 years. The DoD acquisition organizations improved efficiency in contracting
through acquisition reform initiatives, such as using credit cards for processing
acquisitions of $2,500 or less, using simplified acquisition threshold procedures for
acquisitions of $100,000 or less, and using reengineered acquisition procedures for
acquisitions in general. These improvements helped offset the impact of acquisition
workforce reductions and may have increasing beneficial effect as time passes and they
are fine tuned. Nevertheless, concern is warranted because staffing reductions have
clearly outpaced productivity increases and the acquisition workforce’s capacity to
handle its still formidable workload.
Likewise, there is cause for serious concern in the likelihood of the DoD acquisition
workforce losing about 55,000 experienced personnel through attrition by FY 2005 and
in the overall disconnects between workload forecasts, performance measures,
productivity indicators, and plans for workforce sizing and training. The Department
has recently completed a study of some of these issues and additional action is likely
because of the emphasis on human capital in the President’s Budget and Priority
Management Objectives for FY 2001.

Management Comments. The Deputy Under Secretary of Defense (Acquisition
Reform), Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, generally concurred with the overall draft report and emphasized that DoD
strategic planning now provides for the formulation of appropriate indicators of the
effects of change. A discussion of the management comments is in the Audit Results
section of the report, and the complete text is in the Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                              i

Audit Results
     Background                                                               1
     Objectives                                                               3
     DoD Acquisition Workforce Reduction Trends and Impacts                   4

Appendixes
     A. Audit Process
           Scope and Methodology                                             37
     B. Summary of Prior Coverage                                            40
     C. DoD Acquisition Organizations                                        41
     D. Definitions of Technical Terms                                       42
     E. Acquisition Workforce Relationships as of November 1998              46
     F. Section 912(b) Methodology or Refined Packard Commission
           Approach                                                           47
     G. Acquisition Workforce Occupation Categories                           55
     H. Acquisition Workforce Organization Groups                             61
     I. Acquisition and Technology Workforce Functional Description           63
     J. Individual Contracting Action Report (DD Form 350) Categories         65
     K. Reform Initiatives                                                    70
     L. Effects of DoD Acquisition Workforce Reductions                       75
     M. Report Distribution                                                  119

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
       and Logistics Comments                                                121
Background
    Although DoD acquisition workforce reductions over the past decade are part of
    the overall downsizing of the Federal and Defense workforce, Congress has
    singled out this segment of the workforce for special emphasis. Congress has
    enacted legislation that defines the DoD acquisition workforce and requires
    major reductions. Partly as result of complying with the legislation, DoD has
    reduced the acquisition workforce from 460,516 in FY 1990 to 230,556 in
    FY 1999. The legislation allowed the Secretary of Defense wide latitude in
    implementing the reductions.

    Various DoD Acquisition Workforce Definitions. Over the years, DoD has
    used various definitions to identify the DoD acquisition workforce without
    achieving a consensus. DoD Instruction 5000.58, “Defense Acquisition
    Workforce,” Change 3, January 13, 1996, defines the acquisition workforce as
    permanent civilian employees and military members who occupy acquisition
    positions, who are members of an acquisition corps, or who are in acquisition
    development programs. In the Instruction, DoD identifies 21 DoD acquisition
    organizations whose missions include planning, managing, and executing
    acquisition programs in accordance with DoD Directive 5000.1, “Defense
    Acquisition,” March 15, 1996, and DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPs) and Major
    Automated Information System (MAIS) Acquisition Programs,” Change 4,
    May 11, 1999. Appendix C lists the DoD acquisition organizations and
    Appendix D provides definitions of technical terms used in this report.

    Section 912(a) of the National Defense Authorization Act for FY 1998 (the Act)
    defined the term “Defense acquisition personnel” as the military and civilian
    personnel, excluding civilian personnel employed at a maintenance depot, who
    are assigned to or employed in DoD acquisition organizations as specified in
    DoD Instruction 5000.58. Section 912(b) of the Act required DoD to report
    reductions in the DoD acquisition workforce, to define the term Defense
    acquisition workforce, and to apply the term uniformly throughout DoD. On
    December 18, 1997, the Secretary of Defense informed Congress that beginning
    October 1, 1998, DoD would uniformly identify members of the acquisition
    workforce using a methodology that is an update to the 1986 President’s Blue
    Ribbon Commission on Defense Management (Packard Commission) approach.
    The methodology uses occupational and organizational data to identify the
    workforce. DoD is still refining the Section 912(b) methodology as it proceeds
    towards full implementation. DoD has ongoing efforts to restructure the
    acquisition workforce manpower planning, programming, and budgeting to
    correspond with the Section 912(b) methodology. Appendix E shows the
    relationship in November 1998 between the Section 912(a) and 912(b)
    definitions1 of the DoD acquisition workforce.
    1
     Section 912(b) definition is shown as the “Future DAWIA [Defense Acquisition Workforce
    Improvement Act]/Key A&T [Acquisition and Technology] Workforce” in Appendix E. The
    appendix also shows the relationship of the workforce in acquisition organizations, including
    depots, to operational testing; logistics operations; maintenance depots, including “USMC [U.S.
    Marine Corps]; and S&T [Science and Technology].”


                                              1
Section 931(d) of the National Defense Authorization Act for FY 2000 (Public
Law 106-65) defines the term “Defense acquisition and support personnel” to
mean military and civilian personnel, excluding civilian personnel employed at a
maintenance depot, who are assigned to or employed in DoD acquisition
organizations as specified in DoD Instruction 5000.58 and any other
organizations that the Secretary of Defense may determine to have a
predominantly acquisition mission.

DoD Acquisition Workforce Reductions. Section 906(a) of the National
Defense Authorization Act for Fiscal Year 1996 (Public Law 104-106) required
a plan that, if implemented, would reduce the DoD acquisition workforce by
25 percent over the 5-year period beginning October 1, 1995, not counting
blue-collar depot level workers. Section 906(d) required a reduction of
15,000 persons in FY 1996. Section 902 of the National Defense Authorization
Act for FY 1997 (Public Law 104-201) amended Section 906(d) to require a
total reduction of 30,000 personnel in FYs 1996 and 1997 combined.

Sections 912 and 931 of the National Defense Authorization Acts for FY 1998
(Public Law 105-85) and for FY 1999 (Public Law 105-261), respectively,
required a reduction of 25,000 Defense acquisition personnel positions in
FY 1998 and again in FY 1999 from the Defense acquisition workforce. The
Acts gave the Secretary of Defense the authority to reduce that number to as few
as 10,000 under Section 912 and as few as 12,500 under Section 931 if he
determined and certified to Congress that further reductions would be
inconsistent with the cost-effective management of Defense acquisition programs
and would adversely affect military readiness. On June 1, 1998, the Secretary
of Defense notified Congress that the reductions in FY 1998 would be 20,096.
Section 922 of the National Defense Authorization Act for FY 2000 requires the
Secretary of Defense to reduce the Defense acquisition and support workforce in
FY 2000 by not less than the number that is programmed in the President’s
FY 2000 Budget.2 However, the Section gives the Secretary of Defense the
authority to reduce that number to no less than 90 percent of the number in the
President’s FY 2000 Budget.

Acquisition Reform Initiatives. In the past 5 years, DoD has introduced over
40 acquisition reform initiatives to improve the way DoD does business and to
enable the reduced acquisition workforce to accomplish its mission. The
initiatives included direction to implement the Federal Acquisition Streamlining
Act of 1994, concerning commercial content and practices, the Truth In
Negotiations Act, past performance, micro-purchases ($2,500 or less), and
simplified acquisition threshold procedures; the Federal Acquisition Reform Act
of 1995, concerning competitive streamlining, protest reform, and procurement
integrity reform; and Subdivision E of the Clinger-Cohen Act of 1996, formally
the Information Technology Management Reform Act of 1996, concerning
information technology resources. Acquisition reform initiatives encompass all
statutory, regulatory, and procedural changes undertaken by DoD to meet its

2
 The President’s FY 2000 Budget has a planned reduction of approximately 15,800 full-time
equivalents in the Defense acquisition workforce based on the definition in the National Defense
Authorization Act for FY 1999 (Public Law 105-261).


                                           2
     acquisition reform goals, which are to provide required systems responsively,
     efficiently, and smartly. To accomplish those goals, the acquisition reform
     initiatives attempt to overcome specific, systemic acquisition process problems
     that have historically inhibited commercial practices and contributed to extended
     cycle times, higher costs, and excessive oversight. Appendix K discusses
     acquisition reform initiatives resulting from the above Acts and DoD actions.

Objectives
     The overall audit objective was to review the trends of DoD acquisition
     workforce and workload reductions and to evaluate the potential impact of
     further acquisition and support workforce reductions on the DoD ability to
     support acquisition workload requirements. To accomplish the objective, we
     interviewed and collected information from senior personnel at 14 acquisition
     organizations. Appendix A discusses the scope and methodology used to
     accomplish the objective and Appendix B contains a summary of prior coverage
     related to the audit objective.




                                         3
               DoD Acquisition Workforce Reduction
               Trends and Impacts
               Using the congressional definition of the DoD acquisition workforce,
               DoD reduced its acquisition workforce by about 50 percent from the end
               of FY 1990 to the end of FY 1999; however, the workload has not
               decreased proportionately. There is cause for serious concerns related to
               mismatches between the capacity of the reduced workforce and its
               workload; adverse performance trends; implications of skills imbalance
               and projected high attrition; and disconnects in workforce planning.

DoD Acquisition Workforce Size Since FY 1990
    Section 912(a) Definition. Using the Section 912(a) definition, DoD has
    reduced its acquisition workforce from 460,516 to 230,556 personnel, about
    50 percent, from the end of FY 1990 to the end of FY 1999, as shown in
    Figure 1.


                                              Figure 1. Acquisition Workforce
         500


         450


         400


         350


         300


         250


         200


         150


         100

                        Acquisition Workforce (000)
         50


          0
                 1990          1991         1992      1993   1994         1995   1996   1997   1998   1999
                                                                 Fiscal Year




    If civilians in the maintenance depots are included in the Section 912(a)
    definition, DoD has reduced its acquisition workforce from 592,634 to
    303,849 personnel, or a reduction of about 49 percent, from FY 1990 through
    FY 1999. For the Army, the Navy, the Air Force, and other DoD
    organizations, the acquisition workforce reductions including maintenance depot
    civilian personnel were about 60, 54, 36, and 31 percent, respectively.



                                                             4
Table 1 shows the DoD acquisition workforce under the Section 912(a)
definition by DoD acquisition organizations as of the end of FY 1990 and
FY 1999 and the percentage change.

        Table 1. Section 912(a) DoD Acquisition Workforce by
                     DoD Acquisition Organization
                                          Personnel        Percentage
DoD Acquisition Organization         FY 1990      FY 1999    Change
Office of the Secretary of Defense
Office of the Under Secretary of Defense
  for Acquisition, Technology, and
  Logistics                                    0                    510           --
Defense Logistics Agency                  57,187                 38,635          (32)
Ballistic Missile Defense Organization       122                    328          169
Special Operations Command
  Acquisition Center                           5                     78        1460
     Subtotal                             57,314                 39,551         (31)
Department of the Army
Army Materiel Command                     88,076                 45,713          (48)
Army Information Systems Command3         38,194                      8         (100)
Army Space and Missile Defense
  Command                                  1,221                    866          (29)
Army Acquisition Executive                     0                  2,462           --
     Subtotal                            127,491                 49,049          (62)
Department of the Navy
Office of the Assistant Secretary of the
  Navy (Research, Development,
  Acquisition)                               120                    131            9
Naval Sea Systems Command                 41,760                 29,215          (30)
Naval Air Systems Command                 23,747                 17,125          (28)
Naval Supply Systems Command              26,237                  9,016          (66)
Naval Facilities Engineering Command      20,224                 15,791          (22)
Office of Naval Research                   5,216                  3,597          (31)
Space and Naval Warfare Systems
  Command                                 30,658                  6,404          (79)
Navy Strategic Systems Program Office          0                      0            0
Navy Program Executive Officer/
  Direct Reporting Program Manager
  Organization                             2,674                  2,749            3
Marine Corps Systems Command                 715                    763            7
     Subtotal                            151,351                 84,791          (44)



3
 Disestablished and merged with the Communications-Electronics Command, a subordinate
command of the Army Materiel Command.


                                        5
        Table 1. Section 912(a) DoD Acquisition Workforce by
                DoD Acquisition Organization (Continued)
                                            Personnel      Percentage
DoD Acquisition Organization         FY 1990       FY 1999   Change

Department of the Air Force
Office of the Assistant Secretary of
  the Air Force (Acquisition)                  393           395           1
Air Force Materiel Command                 123,947        56,726         (54)
Air Force Program Executive
  Organization                                  20            44        120
    Subtotal                               124,360        57,165        (54)
         Total                             460,516       230,556        (50)

A comparison of the DoD acquisition workforce under the Section 912(a)
definition by civilian occupational and military group as of the end of FY 1990
and FY 1999 and the percentage change is shown in Table 2.




                                       6
               Table 2. Section 912(a) DoD Acquisition Workforce by
                     Civilian Occupational and Military Group
                                                 Personnel        Percentage
         Civilian Occupational Group        FY 1990      FY 1999    Change

Social Science, Psychology, and Welfare   1,450                 1,084   (25)
Personnel Management and Industrial
   Relations                              6,184                 1,883   (70)
Administration, Clerical, and Office
   Services                              85,470                44,967   (47)
Biological Sciences                         359                   349   (3)
Accounting and Budget                    17,504                 6,432   (63)
Medical and Public Health                   795                   441   (45)
Veterinary Medical Services                   3                     5    67
Engineering and Architecture             69,535                46,042   (34)
Legal and Kindred                         1,192                 1,140    (4)
Information and Arts                      3,686                 1,597   (57)
Business and Industry                    35,494                21,334   (40)
Copyright, Patent, and Trademark             94                    81   (14)
Physical Sciences                         6,264                 4,227   (33)
Library and Archives                        790                   334   (58)
Mathematics and Statistics                6,103                 4,278   (30)
Equipment, Facilities, and Service        8,498                 3,799   (55)
Education                                 1,027                   867   (16)
Investigation                               240                   425    77
Quality Assurance, Inspection, and
   Grading                               12,117                 5,191   (57)
Supply                                   25,103                11,450   (54)
Transportation                            4,036                 1,954   (52)
Miscellaneous and Other                   9,677                 6,078   (37)
   White Collar Subtotal                295,621               163,958   (45)
   Blue Collar Subtotal4                 87,286                26,970   (69)
   Civilian Subtotal                    382,907               190,928   (50)

         Military Group4
Officer                                              21,675    12,606   (42)
Enlisted                                             55,934    27,022   (52)
  Military Subtotal                                  77,609    39,628   (49)
Total                                               460,516   230,556   (50)

Defense Contract Audit Agency Staffing. While not listed as one of the
Section 912(a) DoD acquisition organizations, the Defense Contract Audit
Agency staffing decreased from 7,030 work years in FY 1990 to 3,958 in
FY 1999, a reduction of about 44 percent. The Defense Contract Audit Agency
is included in the Section 912(b) list of DoD acquisition organizations.


4
    DoD did not breakout the Group by occupation.


                                           7
Section 912(b) Methodology. Using the Section 912(b) methodology or the
Refined Packard Commission approach, the DoD acquisition workforce had
146,071 military and civilian personnel as of September 30, 1998. Appendix F
discusses the process for identifying the DoD acquisition workforce using the
Section 912(b) methodology. Table 3 provides a breakout of the Section 912(b)
acquisition workforce by DoD Component.

               Table 3. Section 912(b) DoD Acquisition Workforce by
                                  DoD Component
                DoD Component                                  Personnel

           Department of the Army                                            41,241
           Department of the Navy                                            49,294
           Department of the Air Force                                       31,794
           Fourth Estate5                                                    23,742
             Total DoD acquisition workforce                                146,071

Table 4 shows the DoD acquisition workforce under the Section 912(b)
definition by civilian occupational and military group.

               Table 4. Section 912(b) DoD Acquisition Workforce by
                     Civilian Occupational and Military Group
                Civilian Occupational Group                    Personnel

           Engineers                                                         41,861
           Contracting                                                       18,777
           Management                                                        15,541
           Business and Industry                                             12,265
           Communications and Computers                                       9,240
           Administration and Programs                                        5,051
           Scientists                                                         4,480
           Financial Management                                               3,849
           Auditing                                                           3,584
           Mathematics and Statistics                                         2,618
           Purchasing                                                         1,988
           Supply Management                                                  1,697
           Miscellaneous                                                      8,667
             Civilian Total                                                 129,618

                 Military Group6

           Military                                                          16,453
             Total                                                          146,071
5
The Fourth Estate consists primarily of acquisition and technology personnel from the Defense
Logistics Agency; the Defense Contract Audit Agency; the Defense Information Systems
Agency; the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics; and the Ballistic Missile Defense Organization.
6
    DoD did not breakout the Group by occupation.


                                           8
    DoD Contracting Officers. As DoD implemented its acquisition workforce
    reductions and acquisition reform initiatives, the number of DoD contracting
    officers decreased. Contracting officers include procurement and various types
    of administrative contracting officers. The procurement contracting officer
    primarily enters into contracts and the administrative contracting officer
    primarily administers contracts. From FY 1994 to FY 1999, the total number
    of DoD contracting officers decreased from 7,465 to 6,505 or 12.9 percent, and
    in that total the number of DoD procurement contracting officers decreased
    from 6,087 to 5,309 or 12.8 percent.

    Relationship Between the Sections 912(a) and 912(b) Definitions. DoD will
    continue to compute the size of the DoD acquisition workforce using the
    Sections 912(a) and 912(b) definitions of the DoD acquisition workforce until
    transition to the Section 912(b) methodology or Refined Packard Commission
    approach is complete in FY 2000. Figure 2 shows the relationship between the
    two definitions of the DoD acquisition workforce using FY 1998 data.

         Figure 2. Relationship Between Section 912(a) and Section 912(b)
         Definitions of the DoD Acquisition Workforce Using FY 1998 Data


                                    Acquisition
                                    Organizations
                                          248,456                  Section 912(a)
                                                                      Definition
                                 Acquisition
                                 Technology
                                 Workforce
                                 146,071


    Section 912(b) Methodology
    (Refined Packard Commission
    Approach)                                       Some of the support personnel
                                                    are included in the acquisition
    Some of these people are not in                 and technology workforce.
    acquisition organizations, but do
    acquisition work, such as contracting.

DoD Acquisition Workload Since FY 1990
    As the DoD acquisition workforce was reduced about 50 percent from the end
    of FY 1990 through the end of FY 1999, the number of procurement actions
    increased from about 13.2 million to about 14.8 million and the dollar value of
    procurement actions decreased from about $144.7 billion to about
    $139.8 billion. Figures 3a and 3b show the number of Monthly Contracting
    Summary of Actions $25,000 or Less (DD Form 1057) and micro-purchases or
    credit card purchases, and the Individual Contracting Action Reports
    (DD Form 350), respectively. Figure 4 shows the value of DD Form 1057s,
    micro-purchases or credit card purchases, and DD Form 350s. The greatest

                                       9
amount of work for acquisition personnel occurs on contracting actions over
$100,000 (above the Simplified Acquisition Threshold), and the annual number
of those actions increased from 97,948 to 125,692, about 28 percent, from
FY 1990 to FY 1999.


                                                Figure 3a. Number of DD 1057 and Credit Card
                                                            Procurement Actions
                         16,000,000
                                        Credit Card
                                        DD 1057
                         14,000,000



                         12,000,000



                         10,000,000
     Number of Actions




                          8,000,000



                          6,000,000



                          4,000,000



                          2,000,000



                                   0
                                         1990         1991     1992     1993        1994          1995    1996    1997    1998    1999
                                                                                         Fiscal Year




                                              Figure 3b. Number of DD 350 Procurement Actions

                         350,000
                                       DD 350


                         300,000



                         250,000
   Number of Actions




                         200,000



                         150,000



                         100,000



                          50,000



                              0
                                       1990       1991       1992     1993        1994         1995      1996    1997    1998    1999
                                                                                    Fiscal Year




                                                                             10
                                                                  Figure 4. Dollar Value of Procurement Actions

                                            $160,000,000
                                                                                                                         Credit Card
                                                                                                                         DD 1057
                                            $140,000,000                                                                 DD 350



                                            $120,000,000
       Value of Procurement Actions (000)




                                            $100,000,000



                                             $80,000,000



                                             $60,000,000



                                             $40,000,000



                                             $20,000,000



                                                     $0
                                                           1990      1991   1992   1993   1994      1995   1996   1997     1998        1999
                                                                                            Fiscal Year




Competition Advocates
    Competition Advocate Responsibilities. Before 1994, competition advocates
    were responsible for promoting full and open competition, challenging
    requirements that were not stated in terms of functions to be performed, and
    challenging barriers to full and open competition. With the implementation of
    the Federal Acquisition Streamlining Act of 1994, competition advocates were
    also assigned responsibility for promoting the acquisition of commercial items.
    To perform their role as both the competition and commercial advocate, they
    needed to be knowledgeable of the regulatory and statutory requirements for
    market research and the techniques used to conduct market research.

    The Federal Acquisition Regulation, Part 7, “Acquisition Planning,” requires
    that agencies perform acquisition planning and conduct market research to
    promote and provide for:

                                               •      the acquisition of commercial items to the maximum extent
                                                      practicable and

                                               •      full and open competition to the maximum extent practicable.

    Further defining the requirements associated with market research is Federal
    Acquisition Regulation, Part 10, “Market Research,” that requires agencies to
    conduct market research appropriate to the circumstances before:


                                                                                     11
       •   developing and finalizing new requirements documents for any
           acquisition or procurement,

       •   soliciting offers for acquisitions with an estimated value in excess of
           the simplified acquisition threshold of $100,000, and

       •   soliciting offers for acquisitions with an estimated value less than the
           simplified acquisition threshold when adequate information is not
           available and the circumstances justify its cost.

Consequently, some form of market research is mandatory before developing
and finalizing any new requirements document and before soliciting offers for
any acquisition or procurement that is expected to exceed the simplified
acquisition threshold. To ensure that market research is being planned and
conducted properly, competition advocates are involved in the acquisition
planning process. They ensure that requirements are being defined in the least
restrictive manner possible, that appropriate plans for market research are being
developed, and that the market research is being properly executed.

Number of Competition Advocates. Generally, the DoD acquisition
organizations visited stated that the number of competition advocates did not
decrease significantly as a result of acquisition workforce reductions. However,
some stated that the role of the competition advocates was decreasing because of
commercial buying practices. Further, some stated that the staff supporting the
competition advocates was reduced significantly. The Defense Logistics
Agency, the Army, and the Air Force provided examples of competition
advocate reductions.

         Defense Logistics Agency. The Defense Logistics Agency (DLA) stated
that it decentralized the competition advocate program in FY 1995 by forming
commodity support teams and eliminated one level of management. Since 1995,
DLA has reduced the number of competition advocates commensurate with its
reduction in the number of field organizations. DLA consolidated six supply
centers into four and two distribution regions into one command, resulting in a
net reduction of three competition advocates.

        Army. The Army Materiel Command (AMC) stated that the number of
competition advocates declined from nine in FY 1990 to six in FY 1998 because
of the consolidation of major buying commands resulting from the Base
Realignment and Closure process. As a result of recent changes in regulations
allowing an Army buying command to appoint competition advocates at their
subordinate organizations, AMC has 11 competition advocates, only 4 of which
are full-time advocates with their own full-time staffs. The full-time staff
supporting competition advocates has declined from about 119 personnel in
FY 1990 to 21 in FY 1999, primarily because of continued overall personnel
reductions within the AMC. Because of the reductions in their full-time staffs,
the competition advocates depend upon matrix technical assistance from other
AMC organizations. With the merger of two subordinate commands in 1997 to
form the Aviation and Missile Command (AMCOM), the combined AMCOM
competition advocates support staff went from 69 to 8. The number of
competition advocates also went from two to one. The AMCOM competition

                                    12
    advocate did not consider the staff to be adequate and believed that the lack of
    staff limits his office’s ability to create competitive business opportunities, to
    promote the acquisition of commercial items, and to evaluate justifications for
    sole source procurements. However, another major command, the Army Space
    and Missile Defense Command stated that it only has one competition advocate,
    which is adequate for its requirements.

           Air Force. The Air Force Materiel Command stated that its competition
    advocates supporting staff at three Air Force Logistics Centers was reduced
    from 1,002 to 20 from FY 1990 to FY 1999. This reduction is the result of a
    major reorganization of the competition advocate function at the Air Force
    Logistics Centers, which included a transfer of the competition advocate
    function and staff to other divisions within the Air Force Logistics Centers.
    Value of Competed and Noncompeted Contracting. The value of competed
    versus noncompeted DD Form 350 contracting actions over $100,000 have
    decreased slightly, as shown in Figure 5. From FY 1990 to FY 1999, the value
    of competed and noncompeted DD Form 350 contracting actions over $100,000
    decreased from about $81.2 billion to about $75.3 billion and from about
    $43.1 billion to about $41.4 billion, respectively.


                                                Figure 5. Competed and Noncompeted Contracting Dollars
                                                           Over $100,000 Subject to Competition
                                  $90,000,000
                                                                                                                 Competed
                                                                                                                 Noncompeted
                                  $80,000,000


                                  $70,000,000


                                  $60,000,000
       Value of Contracts (000)




                                  $50,000,000


                                  $40,000,000


                                  $30,000,000


                                  $20,000,000


                                  $10,000,000


                                          $0
                                                  1990   1991   1992   1993    1994       1995   1996   1997   1998     1999
                                                                                 Fiscal Year




Changes in What DoD Buys
    DD Form 350 Contracting Actions. The contracting actions recorded on
    DD Form 350 are divided into three categories: research, development, test,

                                                                          13
and evaluation; other services and construction; and supplies and equipment.
These categories are further discussed in Appendix J. Using DD Form 350
contracting action data, Figure 6 shows the dollar value for all contracting
actions in the three categories from FY 1990 through FY 1999.



                                                Figure 6. DD 350 Values by Selected Categories

                               $160,000,000

                                                                                                            Supplies and Equipment
                                                                                                            Services
                               $140,000,000
                                                                                                            Research and Development


                               $120,000,000
  Amount of Categories (000)




                               $100,000,000



                                $80,000,000



                                $60,000,000



                                $40,000,000



                                $20,000,000



                                        $0
                                              1990   1991   1992      1993   1994       1995      1996   1997      1998      1999
                                                                               Fiscal Year




DD Form 350 Categories. As DoD reduced its acquisition workforce from
460,516 to 230,556 personnel at the end of FY 1990 and FY 1999, respectively,
for a reduction of 50 percent, the value of DD Form 350 categories exhibited
the following changes, as shown in Table 5.

                                          Table 5. DD Form 350 Category Percentage Change
                                                      From FY 1990 to FY 1999

                                                                    Dollar Value (Billions)                     Percentage
                         Category                                  FY 1990         FY 1999                       Change

Research, Development,
Test, and Evaluation                                                 $22.3                     $19.4                      (13)
Other Services and
Construction                                                          36.4                       52.0                 42.9
Supplies and Equipment                                                72.0                       53.6               (25.6)
  Totals                                                            $130.7                     $125.0                (4.4)



                                                                       14
    Other Transactions. In addition to contracting actions included in the
    DD Form 350, the DD Form 1057, and the credit card databases, DoD also
    uses other transactions to obtain research and prototypes from contractors that
    normally do not do business with DoD. Other transactions is a streamlined
    acquisition approach to stimulate, support, or acquire research or prototype
    projects and includes instruments other than contracts, grants, or cooperative
    agreements that Congress authorized to:

            •   reduce barriers to commercial firms in DoD contracting for research,

            •   contribute to a broadening of the technology and industrial base
                available to DoD, and

            •   foster new relationships and practices with commercial technology
                and industrial base firms that support national security.

    Other transactions remove many of the acquisition statutes and regulations
    normally established for contracts or grants, including the Federal Acquisition
    Regulation, Defense Federal Acquisition Regulation Supplement, and cost
    accounting principles. Other transaction totals show a single agreement for
    $4 million in FY 1990 and 106 agreements for about $4 billion7 in FY 1999.

Process for Reducing the DoD Acquisition Workforce
    DoD had an overall plan for accomplishing the congressionally mandated
    numerical reductions in the DoD acquisition workforce; however, it did not
    correlate those reductions with specific skill level requirements. Using the
    National Performance Review framework, DoD targeted the Section 912(a)
    workforce per congressional guidance and set a 3-year goal of 15 percent staff
    reductions with FY 1997 as the baseline and FY 2000 as the target with periodic
    updates. DoD is programmed in FY 2000 to exceed the 15 percent goal by
    4 percent. DoD achieved its acquisition workforce reductions through normal
    attrition, early buy-outs, reorganization, reengineering, and budget allocations.
    We have discussed the process for reducing the DoD acquisition workforce with
    personnel from 14 of the 21 DoD acquisition organizations listed in DoD
    Instruction 5000.58 and identified in Appendix A. As an example, the Army
    Materiel Command Headquarters allocated the authorized workforce positions to
    subordinate commands, such as the Aviation and Missile Command (the
    Command), through the Program Budget Guidance documentation. The
    Resource Management Directorate at the Command made recommendations to
    the Command’s Executive Steering Committee concerning the allocation of
    reductions among the Command’s organizations. When reductions occur, the
    affected organization determined what positions would be affected by the
    reductions. If the affected position was occupied, the Command preferred a

    7
     The amount includes two prototype agreements that the Air Force issued on October 16, 1998,
    for the Evolved Expendable Launch Vehicle Program that had FY 1998 agreement numbers with
    a DoD and contractor value of $3.0 billion.


                                            15
    voluntary separation for the affected employee through the use of voluntary
    early retirement authority or voluntary separation in pay over involuntary
    separation through reduction-in-force.

Current Impact of Reductions to the DoD Acquisition
  Workforce
    As DoD reduced its acquisition workforce over the years, the DoD acquisition
    organizations were impacted in various ways. We interviewed and collected
    information from senior acquisition personnel at 41 commands or offices within
    14 of the 21 DoD acquisition organizations listed in DoD Instruction 5000.58.
    We discussed with the senior acquisition personnel the current impact of DoD
    acquisition workforce reductions; however, we did not validate the data
    provided to us by those personnel. Table 6 designates a letter for each of the
    14 DoD acquisition organizations visited. Table 7 shows the primary current
    effects of the DoD acquisition workforce reductions that the 14 DoD acquisition
    organizations indicated they experienced and correlates those effects with the
    DoD acquisition organizations visited.

                  Table 6. Letter Designation for DoD Acquisition
                               Organizations Visited
                                                                     Letter
           DoD Acquisition Organization                            Designation
    Office of the Secretary of Defense
       Defense Logistics Agency                                          A
       Ballistic Missile Defense Organization                            B
    Department of the Army
       Army Materiel Command                                             C
       Army Space and Missile Defense Command                            D
       Army Acquisition Executive                                        E
    Department of the Navy
       Office of the Assistant Secretary of the Navy
         (Research, Development, Acquisition)                            F
       Naval Sea Systems Command                                         G
       Naval Supply Systems Command                                      H
       Office of Naval Research                                          I
       Space and Naval Warfare Systems Command                           J
       Marine Corps Systems Command                                      K

    Department of the Air Force
       Office of the Assistant Secretary of the
          Air Force (Acquisition)                                        L
       Air Force Materiel Command                                        M
       Air Force Program Executive Organization                          N

                                       16
                 Table 7. Current Effects of the Acquisition Workforce Reductions
                         for the 14 DoD Acquisition Organizations Visited

Effect of Acquisition                             DoD Acquisition Organizations Visited       Percent of
Workforce Reductions                     OSD8       Army             Navy           Air Force Occurrence9

Increased backlog in closing
   out completed contracts                          C D E                                         21
Increased program costs
   resulting from contracting
   for technical support versus
   using in-house
   technical support                                C     E          H I   J K        M           50
Insufficient personnel to
   fill-in for employees on
   deployment                                       C                                              7
Insufficient staff to manage
   requirements                          A          C D           G H I    J K            N       64
Reduced scrutiny and
   timeliness in reviewing
   acquisition actions                   A          C D             H                             29
Personnel retention difficulty           A B        C             G H                 M           43
Increase in procurement
   action lead time                                               G                                7
Some skill imbalances                    A B        C     E       G H      J       L M            64
Lost opportunities to develop
   cost savings initiatives                         C                H                            14


        A summary of the primary current effects of the acquisition workforce
        reductions for the DoD acquisition organizations visited follows with a more
        detailed discussion of the effects for each of the 14 organizations in Appendix L.
        Unless noted, the organizations did not provide data to support their comments.

        Increased Backlog in Closing Out Completed Contracts. Three of the
        14 DoD acquisition organizations stated that their contracting offices
        experienced an increase in the backlog in closing out completed contracts.
        Contracting personnel did not regularly perform contract close outs because the
        personnel lacked time for the work. One organization stated that the value of its
        missile contracts shipped complete but not closed increased from $14 billion to
        $17 billion between FYs 1995 and 1999, and the total value of aviation contracts
        shipped complete but not closed as of the end of FY 1999 was $13.8 billion.

        Defense Finance and Accounting Service accounting data showed that the
        number and obligation value of the open DoD contracts in the Mechanized
        8
            Office of the Secretary of Defense.
        9
         Percent of occurrence is the number of organizations that experienced the noted effect divided
        by 14, the number of DoD acquisition organizations visited.


                                                        17
Contract Administration Service increased up to FY 1998 and declined slightly
in FYs 1999 and 2000, as shown in Table 8. As of January 31, 2000, the
Defense Finance and Accounting Service had 116,954 contracts completed, but
not closed out.

                               Table 8. Open Contracts
                                                                 Obligation
                                                                   Value
          Fiscal Year*                 Number                    (millions)

             1993                      348,536                   $489,000
             1994                      378,400                    490,800
             1995                      376,048                    667,000
             1996                      387,401                    810,000
             1997                      395,486                    855,000
             1998                      384,861                    894,000
             1999                      339,712                    833,709
             2000                      329,121                    844,958
*
    The accounting data are as of different cutoff dates during the fiscal years.

Increased Program Costs Resulting from Contracting for Technical Support
Versus Using In-House Technical Support. Seven of the 14 DoD acquisition
organizations stated that reductions in in-house matrix support personnel
required the organizations to contract for additional services, such as
engineering and logistical analysis, that the Government once would have
provided. As a result, technical support costs increased because, in general,
obtaining contract support was more expensive than obtaining in-house matrix
support. For example, one organization stated that customers requested
141 more staff years than the organization’s on-board strength in FY 1999 and
that the organization was constantly turning down requests from customers for
Government support in many disciplines including configuration management,
production engineering, prototype development, and quality assurance. When
in-house matrix support is not available from the organization, the organization
must contract for the support. According to the organization, the contract labor
rates are significantly higher per staff year than rates the organization charged
for the same service performed by Government employees. The organization
stated that contract labor rates for various types of engineering support services
cost an additional $20,000 to $180,000 per staff year in FY 1999 and that it
contracted for 1,200 staff years of contract support to cover its own needs and
customer requirements.

Insufficient Personnel to Fill-In for Employees on Deployment. One of the
14 DoD acquisition organizations stated that insufficient personnel remained
on-hand to fill-in for military reserve employees detailed on operational
deployments. As a result, normal operations at the organization suffered and its
ability to respond to requisitions and transportation requests to support its
weapon systems was reduced.

Insufficient Staff to Manage Requirements. Nine of the 14 DoD acquisition
organizations stated that insufficient staff were available to manage

                                       18
requirements. Personnel were not available to accurately review assets for
disposal action in a timely manner, handle technical database updates to the
logistics system, review and respond to prime contractor test plans and test
reports, and witness contractor tests. For example, one organization stated that
workforce reductions have:

       •   increased employee workloads and negatively affected employee
           morale;

       •   resulted in program managers supervising multiple programs, thereby
           negatively impacting program management functions; and

       •   resulted in an inability of the Command to focus on future
           technologies and the integration of these technologies.
Reduced Scrutiny and Timeliness in Reviewing Acquisition Actions. Four of
the 14 DoD acquisition organizations stated they were able to process all
mission-critical actions; however, the amount of time and the level of scrutiny
put into responses were not sufficient to ensure accuracy and minimize risk.
For example, one organization commented that some contractors stated that
when the organization stopped performing inspections of all products, so did the
contractors. As a result of the lack of inspections and recent failures with
hardware in the Space Program, the organization is concerned that it may have
reduced its quality assurance program too much.

Personnel Retention Difficulty. Six of the 14 DoD acquisition organizations
stated that personnel retention rates were impacted because employees saw more
advancement opportunities in project offices and private industry. For example,
one organization stated that, because of a decreased workforce and an increased
workload, some of its employees lacked promotional opportunities, obtained
jobs with private industry, or worked uncompensated overtime. Another
organization stated that it was having problems filling mid-grade military officer
positions because too few of those officers were remaining in the military
service.

Increase in Procurement Action Lead Time. One of the 14 DoD acquisition
organizations documented that procurement action lead times increased for items
procured. The organization provided data showing a 63 percent increase
(67 days) in the procurement action lead time for contracts from FY 1993
through FY 1999. From FY 1995 through FY 1998, the organization’s
contracts division staff decreased 10 percent and the number of contract actions
greater than $25,000 increased 25 percent.

Some Skill Imbalances. Nine of the 14 DoD acquisition organizations stated
that acquisition workforce reductions contributed to the demographic distortion
of the organizations’ workforce and some program offices experienced skill
imbalances. The organizations’ acquisition workforces were skewed towards
older workers with skills that did not always match work load skill
requirements. The organizations were unable to hire younger workers with the
required skills because of ongoing reductions to the DoD acquisition workforce.
Specifically, one organization stated that it has a shortage of civilian engineers

                                    19
     among its activities near California’s Silicon Valley because Government
     engineer salaries are not competitive with the private sector. Another
     organization stated that it needed fewer general facility, equipment, and quality
     assurance specialists and no longer needed supply catalogue specialists.
     Consequently, the organization was retraining personnel in overstaffed and
     unneeded billets.

     Lost Opportunities to Develop Cost Savings Initiatives. Two of the 14 DoD
     acquisition organizations stated that they had not conducted studies or
     established a baseline to determine whether cost savings resulted from the
     acquisition workforce reductions. One organization stated that acquisition
     workforce reductions caused it to decrease efforts to evaluate parts control and
     management, conduct modeling and simulation projects, develop value
     engineering opportunities, and study the impact of the DoD acquisition
     workforce reductions on the organization. For example, the organization
     estimated that it lost an opportunity to achieve an estimated $20 million to
     $50 million in annual value engineering savings because of cut backs to its value
     engineering workshops from 10 or 12 per year to only one in FY 1999.

     Related Audit Coverage. A recently completed audit by the Inspector General,
     DoD, indicated that program and contracting offices did not define requirements
     or use available history to develop accurate cost information and award low-risk
     contracts for services. Further, contract surveillance was not adequate. This
     condition occurred, in part, because acquisition officials were not reassigning
     work when vacancies occurred, were inexperienced and, in some cases, were
     overburdened with other work. For example, one contract had no contracting
     officer assigned for the 6 month period before the audit visit. On another
     contract, the contracting officer and program office personnel were unable to
     show evidence that they were qualified or possessed the skills to make technical
     assessments on the adequacy of hours, labor mix, and other costs they deemed
     acceptable and reasonable. Further, as a result of downsizing within contracting
     offices, contracting personnel were assigned more work resulting in higher
     demands on time. For example, a program office technical monitor stated that
     he was responsible to perform surveillance on 43 contracts valued at
     approximately $621 million. These conditions, which will be discussed in a
     pending report, are in-line with statements that the 14 DoD organizations made
     to us during this audit concerning the effects of acquisition workforce
     reductions.

Acquisition Reform Initiatives
     To improve the acquisition process, DoD implemented over 40 acquisition
     reform initiatives over the last 5 years, some of which are listed in Appendix K.
     We discussed the implementation of these initiatives with senior acquisition
     personnel at 41 commands or offices within 14 of the 21 DoD acquisition
     organizations listed in DoD Instruction 5000.58. The organizations improved
     efficiency in contracting by using credit cards for processing acquisitions of
     $2,500 or less, using simplified acquisition threshold procedures for acquisitions
     of $100,000 or less, and using reengineered acquisition procedures for
     acquisitions in general as shown in Table 9. These improvements helped offset

                                         20
        the impact of acquisition workforce reductions. Table 9 shows the primary
        improvements associated with the acquisition reform initiatives that the 14 DoD
        acquisition organizations identified that improved efficiency in contracting and
        correlates those effects with the DoD acquisition organizations visited using the
        letter designations from Table 6.


             Table 9. Primary Improvements Associated with Acquisition Reform
             Initiatives Identified by the 14 DoD Acquisition Organizations Visited

                                            DoD Acquisition Organizations Visited           Percent of
  Improvement Description            OSD      Army            Navy           Air Force     Occurrence10

Improvement in processing
   transactions of $2,500 or
   less by using credit cards        A B      C D E          G H I     J           M            71
Improved efficiency and
   economy in contracting
   through the use of simplified
   acquisition threshold
   ($100,000 or less) and
   reengineered procedures
   (over $100,000)                   A B      C D E              H     J        L M N           71

        A summary of the primary improvements associated with acquisition reform
        initiatives identified by the DoD acquisition organizations visited follows with a
        more detailed discussion of the improvements for each of the 14 organizations in
        Appendix L. Unless noted, the organizations did not provide data to support
        their comments.

        Improvement in Processing Transactions of $2,500 or Less by Using Credit
        Cards. Ten of the 14 DoD acquisition organizations stated that the use of credit
        cards has streamlined their processing of transactions that were $2,500 or less.
        The credit card program shifted the workload for the small dollar, less complex,
        procurement actions, from the acquisition workforce to the operational
        workforce, which is generally part-time work for the cardholder. Since the
        implementation of the credit card program in FY 1994, the number of DoD
        credit cardholders has increased to 242,569, as of November 1999. For
        example, one organization provided statistics showing that procurement cycle
        times were reduced from an average of 11 months to about 6 weeks for
        processing its transactions of $2,500 or less by using credit cards.

        Improved Efficiency and Economy in Contracting by Using Simplified
        Acquisition Threshold ($100,000 or less) and Reengineered Procedures (over
        $100,000). Ten of the 14 DoD acquisition organizations stated that the use of
        simplified acquisition threshold ($100,000 or less) and reengineered procedures
        over $100,000 proved most helpful for acquisitions. For example, one

        10
         Percent of occurrence is the number of organizations that experienced the noted effect divided
        by 14, the number of DoD acquisition organizations visited.


                                                  21
    organization stated that it was able to significantly reduce quality assurance and
    technical billets as a result of using quantitative data analysis instead of strict
    product inspections. The organization also stated that it reduced its surcharge to
    users from 28.7 percent in FY 1996 to 19.8 percent in FY 1999 by
    implementing commercial buying practices.

Future Impact of Reductions to the DoD Acquisition
  Workforce
    As the DoD acquisition workforce, using the Section 912(a) definition,11
    decreases by another 16 percent from FY 1999 through FY 2005, as shown in
    Figure 7, the aggregate of DoD operations and maintenance; procurement; and
    research, development, test, and evaluation funds is projected to increase during
    that same period by 6 percent using constant FY 2000 dollars, as shown in
    Figure 8. Figure 8 also shows how the aggregate of those funds has increased
    since FY 1990.




    11
      The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics did
    not have data available that projected the Section 912(b) definition of DoD acquisition workforce
    from FY 1999 through FY 2005.


                                              22
                                                        Figure 7. Projected Acquisition Workforce Levels

                                   250,000



                                   240,000



                                   230,000



                                   220,000



                                   210,000



                                   200,000



                                   190,000



                                   180,000
                                                 1999              2000           2001              2002              2003           2004                 2005
                                                                                                 Fiscal Year




                                                               Figure 8. Total Obligational Authority

                                   $300,000

                                                                                                                                                   RDT&E
                                                                                                                                                   Procurement
                                                                                                                                                   O&M
                                   $250,000
Constant FY 2000 ($ in Millions)




                                   $200,000




                                   $150,000




                                   $100,000




                                    $50,000




                                        $0
                                              1990   1991   1992   1993   1994   1995    1996   1997   1998    1999   2000   2001   2002    2003   2004     2005
                                                                                                Fiscal Year




                                                                                         23
Total DoD Acquisition Workforce Average Age. The following figures, from
9 through 15, use the Section 912(b) DoD acquisition workforce definition for
civilian personnel as of September 1998. Based on discussions and data12 from
the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, the average age of the DoD acquisition civilian workforce is projected
to increase from about 46 years in FY 1999 to about 48 years in FY 2007, as
shown in Figure 9.



                Figure 9. Total DoD Acquisition Workforce Average Age
      55.00




      50.00




      45.00




      40.00




      35.00




      30.00




      25.00




      20.00
              1999    2000     2001     2002      2003       2004   2005    2006     2007
                                               Fiscal Year




12
 The acquisition workforce data consists of a baseline that uses the FY 1998 accession profile
and currently budgeted end strength targets.



                                          24
Total DoD Acquisition Workforce Average Years of Service. In conjunction
with an increase in the age of the DoD acquisition civilian workforce, the
average years of service of the DoD acquisition civilian workforce is projected
to increase from 18.64 years in FY 1999 to 19.81 years in FY 2001 and then
decrease to 18.15 years in FY 2007, as shown in Figure 10.



                    Figure 10. Total DoD Acquisition Workforce Average
                                      Years of Service

     25.00




     20.00




     15.00




     10.00




      5.00




      0.00
             1999       2000   2001    2002      2003       2004   2005   2006   2007
                                              Fiscal Year




                                        25
Total DoD Acquisition Workforce Percent Retirement Eligible. Similarly, as
the average years of service of the DoD acquisition civilian workforce varies
from FY 1999 through FY 2007, the percentage of the acquisition civilian
workforce eligible for retirement is projected to increase from 12.4 percent in
FY 1999 to 18.1 percent in FY 2005 and then decrease to 17.9 percent in
FY 2007, as shown in Figure 11.



                     Figure 11. Total DoD Acquisition Workforce Percent
                                      Retirement Eligible

     20.00%


     18.00%


     16.00%


     14.00%


     12.00%


     10.00%


      8.00%


      6.00%


      4.00%


      2.00%


      0.00%
              1999       2000    2001   2002      2003       2004   2005   2006   2007
                                               Fiscal Year




                                         26
Total DoD Acquisition Workforce Percent Under Age 31. As the percentage
of the DoD acquisition civilian workforce that is eligible for retirement increases
and then decreases from FY 1999 through FY 2007, the percentage of the
acquisition civilian workforce under age 31 is projected to decrease from
4.1 percent in FY 1999 to 2.9 percent in FY 2002 and then increase to
3.6 percent in FY 2007, as shown in Figure 12.



                    Figure 12. Total DoD Acquisition Workforce Percent
                                       Under Age 31

     4.50%


     4.00%


     3.50%


     3.00%


     2.50%


     2.00%


     1.50%


     1.00%


     0.50%


     0.00%
             1999       2000   2001    2002      2003       2004   2005   2006   2007
                                              Fiscal Year




Section 912(b) Projected Losses for Selected Occupational Series. Using the
Section 912(b) definition, the Office of the Under Secretary of Defense has
projected the resulting losses for selected occupational series in the current DoD
acquisition civilian workforce as the DoD acquisition workforce decreases from
FY 1999 through FY 2005. The projected losses exclude new hires from the
calculations. By FY 2005, the projected loss of 55,102 as shown in Figure 15
would be about 43 percent of the DoD acquisition civilian workforce of 129,618
shown in Table 4. Figures 13, 14, and 15 show the projected number of losses
from the current DoD acquisition civilian workforce by occupational series,
projected percentage of losses from the current DoD acquisition workforce by
occupational series, and projected cumulative losses from the current DoD
acquisition workforce, respectively. The occupational series in the figures are
also identified in Appendix G.




                                        27
                                                                                                          Percentage                                                                                                                                                                                                             Number of Losses

                                                          11                                                                                                                                                                                                                  11
                                                             02




                                                                                   0.0%
                                                                                          10.0%
                                                                                                  20.0%
                                                                                                              30.0%
                                                                                                                       40.0%
                                                                                                                                 50.0%
                                                                                                                                                    60.0%
                                                                                                                                                                                                                                                                                 02




                                                                                                                                                                                                                                                                                                       0
                                                                                                                                                                                                                                                                                                           2,000
                                                                                                                                                                                                                                                                                                                         4,000
                                                                                                                                                                                                                                                                                                                                      6,000
                                                                                                                                                                                                                                                                                                                                              8,000
                                                                                                                                                                                                                                                                                                                                                      10,000
                                                                                                                                                                                                                                                                                                                                                               12,000
                                                                                                                                                                                                                                                                                                                                                                        14,000
                                                                                                                                                                                                                                                                                                                                                                                    16,000
                                                                  (C                                                                                                                                                                                                                  (C
                                                                    on                                                                                                                                                                                                                  on
                                                                       tra                                                                                                                                                                                                                 tra
                                                                           ct
                                                                             )                                                                                                                                                                                                                 ct
                                                                                                                                                                                                                                                                                                 )
                                                     80                                                                                                                                                                                                                  80
                                                       0                                                                                                                                                                                                                   0




                                                                                                                        37.5%
                                                                                                                                                                                                                                                                                                                                              7,240
                                                            (E                                                                                                                                                                                                                  (E
                                                                 ng                                                                                                                                                                                                                  ng
                                   34                              in                                                                                                                                                                                  34                              in
                                     6                               ee                                                                                                                                                                                  6                               ee
                                           (L                          rin                                                                                                                                                                                     (L                          rin
                  34                          og                          g)                                                                                                                                                          34                          og
                     3                          ist                                                                                                                                                                                      3                          is
                                                                                                                                                                                                                                                                                              g)
                          (M                          ic                                                                                                                                                                                      (M                      t
                                                        s                                                                                                                                                                                                                 ics




                                                                                                                         38.1%
                            an                              M
                                                                                                                                                                                                                                                                                                                                                                                 14,691




                                                                                                                                                                                                                                                an                              M
                              ag                                an                                                                                                                                                                                ag                                an
                                em                                ag                                                                                                                                                                                em                                ag
                                  en                                em                                                                                                                                                                                en                                em
                                    t/P                                    en                                                                                                                                                                           t/P                                    en
                                        r      oc                            t)                                                                                                                                                                             r      oc                            t)
                                                 ur                                                                                                                                                                                                                  ur
                                                    em
                                                                                                                                                                                                                                                                                                                              3,679




                                                                                                                                         50.5%
                                                                                                                                                                                                                                                                        em
                                                            en                                                                                                                                                                                                                  en
                                                              tA                                                                                                                                                                                                                  tA
                                         33                          na                                                                                                                                                                                      33                          na
                                           4                           ly                                                                                                                                                                                      4                           lys
                                               (C                         st                                                                                                                                                                                       (C                         ts
                                                                            s)                                                                                                                                                                                                                  )
                                                    om                                                                                                                                                                                                                  om
                                                      pu
                                                                                                                                                                                                                                                                                                                          3,285




                                                                                                                                    48.6%
                                                                                                                                                                                                                                                                          pu
                                                        te                                                                                                                                                                                                                  te
                                                          rS                                                                                                                                                                                                                  rS
                                                                   pe                                                                                                                                                                                                                  pe




28
                                          19                         ci                                                                                                                                                                                       19                         ci
                                                                       al                                                                                                                                                                                                                  al
                                            10                           is                                                                                                                                                                                     10                           is
                                                 (Q                        t)                                                                                                                                                                                        (Q                        t)
                                                   ua                                                                                                                                                                                                                  ua
                                                                                                                                                                                                                                                                                                                         3,108




                                                                                                                                 47.1%
                             30                      lit                                                                                                                                                                                                                 lit
                               1                        y                                                                                                                                                                                        30
                                                                                                                                                                                                                                                   1                        y
                                   (A                           As                                                                                                                                                                                     (A                           As
                                        dm                         su                                                                                                                                                                                       dm                         su
                                          in                         ra                                                                                                                                                                                                                  ra
                                             is                        nc                                                                                                                                                                                     in                           nc
                                                                                                                                                                                                                                                                 is




     Job Series
                                                                                                                                                                                                                         Job Series
                                               tra                        e)                                                                                                                                                                                       tra                        e)
                      11                          tio                                                                                                                                                                                     11                          tio
                         01                           n                                                                                                                                                                                                                   n
                                                                                                                                                                                                                                                                                                                         3,090




                                                                                                                                                                                                                                             01




                                                                                                                                            51.7%
                              (G                            an                                                                                                                                                                                    (G                            an
                                en                            d                                                                                                                                                                                     en                            d
                                   er                             Pr                                                                                                                                                                                                                  Pr
                                                                       og                                                                                                                                                                              er                                  og
                                      al                                 ra                                                                                                                                                                               al                                 ra
                                         B     us                          m                                                                                                                                                                                 B                                 m
                                                 in                         )                                                                                                                                                                                      us
                                                                                                                                                                                                                                                                     in                         )
                                                    es                                                                                                                                                                                                                  es
                                                                                                                                                                                                                                                                                                                      2,609




                                                      s                                                                                                                                                                                                                   s




                                                                                                                                    49.0%
                                                            an                                                                                                                                                                                                                  an
                                                              d                                                                                                                                                                                                                   d
                                                                   In                                                                                                                                                                                                                  In
                                                                     du                                                                                                                                                                                                                  du
                  11                                                   st                                                                                                                                                             11                                                   st
                                                                         ry                                                                                                                                                                                                                  ry
                     06                                                    )                                                                                                                                                             06                                                    )
                          (P                                                                                                                                                                                                                  (P
                                                                                                                                                                                                                                                                                                              1,701




                                                                                                                                            52.1%
                            ro                              51                                                                                                                                                                                  ro                              51
                              cu                                                                                                                                                                                                                  cu
                                re                            1                                                                                                                                                                                     re                            1
                                  m                               (A
                                                                       ud                                                                                                                                                                             m                               (A
                                                                                                                                                                                                                                                                                           ud
                                   en                                                                                                                                                                                                                  en
                                     tC                                  iti                                                                                                                                                                             tC                                  iti
                                       le                                    ng                                                                                                                                                                            le                                    ng
                                                                               )                                                                                                                                                                                                                   )
                                                                                                                                                                                                                                                                                                                                                                                             Figure 13. Projected Losses from Current Workforce by
                                                                                                                                                                                                                                                                                                                                                                                             Occupational Series, FY1999-2005 (Excludes New Hires)




                                         rk                                                                                                                                                                                                                  rk
                                                      s                                                                                                                                                                                                                   s
                                                                                                                                                                                                                                                                                                            1,346




                                                                                                                      36.0%
                                                                                                                                                             by Occupational Series, FY1999-2005 (Excludes New Hires)
                                                          an                                                                                                                                                                                                                  an
                                                            d                                                                                                                                                                                                                   d
                                                                                                                                                            Figure 14. Projected Percent Losses from Current Workforce
                                                                 As                                                                                                                                                                                                                  As
                                                                    si                                                                                                                                                                                                                  si
                                                                      st                                                                                                                                                                                                                  st
                                                                         an                                                                                                                                                                                                                  an
                                                                           ts                                                                                                                                                                                                                  ts
                                                                             )                                                                                                                                                                                                                   )
                                                                                                                                                                                                                                                                                                            1,309




                                                                                                                                    48.6%
                     Figure 15. Projected Cumulative Losses from Current
                  Acquistion Workforce by Fiscal Year, FY1999-2005 (Excludes
                                          New Hires)

         60,000
                                                                                    55,102


         50,000                                                            48,540


                                                                  41,599
         40,000
                                                     34,194


         30,000
                                      26,369



         20,000              18,194



                   9,358
         10,000



             0
                    1999      2000     2001            2002        2003     2004     2005
                                                    Fiscal Year




Potential Future Impact of DoD Workforce Reductions
    As future reductions in the DoD acquisition workforce occur, the acquisition
    organizations believe that the reductions will adversely affect the ability of the
    commands to accomplish their missions. Generally, the acquisition
    organizations did not have studies or metrics to support their conclusions
    concerning the future impact of further reductions to the acquisition workforce.
    We discussed the future impact of DoD acquisition workforce reductions with
    personnel from 14 of the 21 DoD acquisition organizations listed in DoD
    Instruction 5000.58. Table 10 shows the primary future effects of DoD
    acquisition workforce reductions that the 14 DoD acquisition organizations
    believed they might experience and correlates those effects with the DoD
    acquisition organizations visited using the letter designations from Table 6.




                                               29
              Table 10. Potential Future Effects of Acquisition Workforce Reductions
                         for the 14 DoD Acquisition Organizations Visited

Potential Future Effect of                   DoD Acquisition Organizations Visited            Percent of
 Workforce Reductions                 OSD      Army             Navy          Air Force       Occurrence13

Impairment of ability to
   accomplish mission                 A B      C D E              H I     J K         M           71
Increased administrative and
   procurement lead times                      C D                H           K                   29
Impairment to workforce
   morale                             A B      C D E              H                   M N         57
Increase in backlog of
   contracts not closed out                    C D E                                              21
Reduction in contract oversight       A        C   E                  I                           29
Increased program costs and
   contracting for support            A        C D E              H       J           M N         57
Reduction in ability to do
   market research                             C                                                   7
Inability to hire and retain
   employees                          A        C      E       G H                 L       N       50


         The potential future effects of acquisition workforce reductions for the 14 DoD
         acquisition organizations visited as shown in Table 10 are summarized below
         with a more detailed discussion of the effects in Appendix L. Unless noted, the
         organizations did not provide data to support their comments.

         Impairment of Ability to Accomplish Mission. Ten of the 14 DoD acquisition
         organizations believed that future acquisition workforce reductions would impair
         their ability to accomplish their missions. One organization indicated that it
         could not sustain additional workforce reductions without more dollars to hire
         contractor support; otherwise, mission performance may be impaired. Further,
         the organization indicated that reductions in authorized positions forced the
         organization to contract for more system engineering and technical assistance
         work. In this regard, the organization is concerned that continued congressional
         reductions to funds for advisory and assistance service contractors will further
         reduce mission funds and impair the ability to accomplish its mission.

         Increased Administrative and Procurement Lead Times. Four of the
         14 DoD acquisition organizations stated that future reductions in authorized
         positions may lead to increasing administrative and procurement lead times.
         One organization stated that if the workload did not decrease or continues to
         increase as it has for the last 2 years, the lead time would lengthen to the



         13
          Percent of occurrence is the number of organizations that experienced the noted effect divided
         by 14, the number of DoD acquisition organizations visited.


                                                   30
point where the organization would not be able to effectively award contracts
within the time constraints imposed by the budget cycle and not be responsive to
the requirements of the active forces.

Impairment to Workforce Morale. Eight of the 14 DoD acquisition
organizations stated that pending acquisition workforce reductions and unclear
career paths may adversely affect workforce morale. For example,
one organization stated that continued actions to reduce the workforce would
have a demoralizing impact on the present workforce. The organization stated
that some personnel have vocalized reluctance or apprehension to become
members of the acquisition workforce if reductions continue. Further, the
organization stated that the increased workload and resulting overtime may have
an adverse impact on workforce morale.
Increase in Backlog of Contracts Not Closed Out. Three of the 14 DoD
acquisition organizations indicated that the workload is not projected to decrease
as their acquisition workforce decreases. As a result, they believe that even
more contracts will not be closed out in a timely manner. For example,
one organization stated that its staff is to be reduced from 678 authorized
positions in FY 1999 to 505 authorized positions in FY 2005, which will cause
the backlog of delivery complete but not closed-out contracts to increase. The
organization also stated that it had over $100 billion in active and delivery
completed contracts, as of August 1999, that will have to be closed out, and that
it will continue to award about $5 billion annually in new contracts.

Reduction in Contract Oversight. Four of the 14 DoD acquisition
organizations believed that less oversight will be placed on contracts for
administrative review as the organizations experience more workforce
reductions. For example, one organization stated that it would continue to
assume greater risk in surveillance areas, such as quality assurance. While
some DCMC functions such as contract payment and closeout might be
adequately staffed, other contract management functions, such as negotiations,
property, termination for convenience, and product inspection, might be
inadequately staffed. Further, the organization stated that some of its
contractors were concerned about the adequacy of future contract
administration, such as inspection of materials, undefinitized contractual actions,
contract close outs, and problem resolutions because of acquisition workforce
reductions.

Increased Program Costs and Contracting for Support. Eight of the 14 DoD
acquisition organizations believed that program costs will increase as the
number of DoD employees is reduced and the number of contractor employees
is increased. One organization stated that contracting for support services is not
a good option because it normally costs more than comparable in-house matrix
support, and increases program costs. Further, the organization stated that
customers can pay an additional $20,000 to $30,000 per contract work year for
production engineering journeyman level support and at least $50,000 per work
year extra for a project leader for production engineering. The organization
also commented that planning, coordination, direction, and



                                    31
    monitoring of technical management functions cannot be typically delegated to
    contractor personnel because of the inherently Government nature of these
    functions.

    Reduction in Ability to Do Market Research. One of the 14 DoD acquisition
    organizations stated that it will not be able to do market research to qualify more
    vendors for business with the Government if further reductions are made to the
    acquisition workforce. The organization further stated that, if it incurs further
    cuts, it will not be able to do market research needed to qualify more missile
    and aviation spare parts vendors. As a result, the organization believes that the
    vendor base for missile and aviation spare parts will shrink and prices for those
    spare parts may increase.

    Inability to Hire and Retain Employees. Seven of the 14 DoD acquisition
    organizations believed that reductions in the acquisition workforce will make it
    difficult for the organizations to hire and retain young people. The
    organizations also believed that further acquisition workforce reductions will
    result in fewer opportunities for promotions and consequently hurt personnel
    morale. For example, one organization stated that the average age of its
    workforce is 47 years and that it may lose core competencies, such as general
    business, industrial, production control, and program management specialists.
    The organization provided data indicating that 54 percent of its acquisition
    workforce is eligible to retire by the end of FY 2004. Further, the organization
    stated that it may be unable to hire sufficient employees to replace retirement
    eligible employees.

Future DoD Acquisition Workforce
    Human Capital. DoD employs a diverse and knowledgeable workforce, its
    human capital. Before DoD can establish a plan to further reduce its acquisition
    workforce, it must have a clear understanding of its human capital situation. In
    September 1999, the General Accounting Office issued a discussion draft report,
    No. GAO/GGD-99-179, “Human Capital: A Self-Assessment Checklist for
    Agency Leaders,” stating that, to attain the highest level of performance and
    accountability, Federal agencies depend on people, process, and technology. In
    addition, the report stated that, “The most important of these is people, because
    an agency’s people define its character and its capacity to perform.” The report
    further states that, during the 1990s, Congress responded to long-standing
    shortcomings in the way Federal agencies were managed by creating a
    framework for more businesslike and results-oriented management. The three
    major areas addressed were financial management, information technology
    management, and performance-based management. Although legislative
    consensus on another key concept, strategic human capital management, has yet
    to emerge, agency heads can still take practical steps to improve their human
    capital practices. First and foremost, an agency must have a clear and
    fact-based understanding of its human capital situation by conducting a
    self-assessment. The report’s approach to self-assessment is grounded in two
    principles:



                                        32
       •   investing to enhance the value of individual employees and the
           agency workforce as a whole; and

       •   clearly defining and communicating a shared vision, including
           mission, core values, goals, and strategies, and then aligning
           components and systems to support the shared vision.

The report outlines a self-assessment checklist, which is to be used to obtain
senior management’s views of its agency’s human capital policies and practices.

Workforce Management Metrics. The only acquisition reform goal and
performance measure DoD currently has related to human capital is one that
measures how fast the Department can downsize the acquisition workforce. In
the reports to the Vice-President’s National Reinvention Impact Center, DoD
claims credit for exceeding the downsizing goal of 11.1 percent of the
acquisition workforce in FY 1999, by achieving a reduction of 13.8 percent.
We question whether workforce reduction per se is an appropriate reform goal.
Improvements to acquisition practices that eliminate redundant, marginally
useful, or overly labor intensive activity may result in opportunities to reduce
staff without damaging mission effectiveness. Workforce reductions should not
be planned, however, merely to meet what may be arbitrary reduction goals that
bear no relationship to performance measurement data.

Future Acquisition and Technology Workforce Requirements. DoD has
established a senior steering group, in conjunction with a working group, to
describe the performance characteristics and training requirements of the future
acquisition and technology workforce and to outline action plans and the
requisite documentation, legislation, and other tools to support career paths for
transitioning to the DoD acquisition workforce of the 21st century.

Sections 912(c) and (d) of the National Defense Authorization Act for FY 1998
directed the Secretary of Defense to submit to Congress a report containing a
plan to streamline the DoD acquisition organizations, workforce, and
infrastructure and to conduct a review of the organizations and functions of DoD
acquisition activities and of the personnel required to carry out those functions.
In the implementation plan submitted to Congress, “Secretary of Defense Report
to Congress: Actions to Accelerate the Movement to the New Workforce
Vision,” April 1, 1998, the Secretary of Defense committed to specific
development initiatives to help ensure that the acquisition workforce has the
experience and competencies required to accomplish future acquisitions. The
Report identified and described an urgent need to re-skill the future workforce
to transition from a workforce of doers to a workforce that manages the work of
others. To support this urgent need, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued a memorandum, “The Future
Acquisition and Technology Workforce,” August 25, 1999, directing the
establishment of a senior steering group under the direction of the Director,
Systems Acquisition, to describe the knowledge, skills, and abilities that the
future acquisition workforce will need.

The working group, whose membership includes representatives from the Office
of the Secretary of Defense, the Military Departments, and the Defense

                                    33
    Agencies, developed a methodology for translating functions that the workforce
    will perform into key competencies that will be structured into outlines for
    career development plans. The working group considered near and far term
    acquisition workforce issues and was tasked to:

           •   assimilate projected changes to current acquisition and technology
               functions and processes to describe required future workforce
               functions;

           •   identify knowledge, skills, and abilities required to accomplish
               acquisition functions and the types of career development actions
               necessary to support that development;

           •   identify personnel, manpower, and information management issues
               that influence the transition of the workforce and the legislative,
               regulatory, or policy changes needed to support the transition; and

           •   provide an annotated action plan, including tasks, responsibilities,
               schedule, milestones, and remaining actions, for professional
               development and force shaping of the acquisition and technology
               workforce.

    In accomplishing the tasks, the working group examined projected trends in the
    size and composition of the acquisition and technology workforce as shown in
    current plans, programs, budgets, end strengths, and workloads; and reviewed
    emerging procedures for the acquisition of products, systems, and services. In
    addition, the working group developed a set of 27 universal managerial and
    leadership competencies for the acquisition and technology workforce. On
    December 21, 1999, the senior steering group briefed its findings and
    recommendations to the Under Secretary of Defense for Acquisition,
    Technology, and Logistics (the Under Secretary). The Under Secretary
    approved the briefing and recommendations. The senior steering group planned
    to complete coordination of a final report by March 1, 2000.

Conclusion
    In presenting the proposed budget for FY 2001, the President set forth
    24 Priority Management Objectives, one of which is to “align Federal human
    resources to support agency goals.” This is exactly what the DoD needs to do
    to “right-size” the acquisition workforce. Performing good long-range human
    resource planning in a dynamic environment is always challenging, and DoD is
    hampered considerably by the current lack of reliable and uniform data on
    requirements, performance, and the cumulative or individual impact of
    acquisition process changes on workload and productivity. It is vitally
    important that the Department undertake and sustain intensive analytical efforts
    to acquire a better understanding of the human resources implications of its
    mission and process changes. The adverse consequence of the acquisition
    workforce reductions through FY 1999, as well as the prospect of massive
    losses of experienced personnel in the near future, make it imperative that the
    likely impact of further cuts be carefully assessed.

                                        34
Management Comments on the Audit Results and Audit
Response
    The Deputy Under Secretary of Defense (Acquisition Reform), Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics,
    provided comments on the overall report and selected statements in the Audit
    Results section of the draft report. His comments and our responses follow.
    The complete text of those comments is in the Management Comments section
    of this report.

    Management Comments on the Overall Report. The Deputy Under Secretary
    stated that the report represents a very comprehensive and impressive effort and
    documented a number of impacts of downsizing the workforce in acquisition
    organizations. He noted that these impacts are matters of concern, particularly
    as the workforce at these organizations continues to downsize. He stated that
    current reform initiatives in the areas of contract closeout, competitive sourcing,
    priced based acquisitions, and inspection and acceptance will address some of
    the acquisition organization concerns. In conclusion, he stated that the report
    analysis, in conjunction with the Section 912(c) Future Acquisition and
    Technology Workforce Study, should prove to be most helpful in managing the
    future workforce to ensure that DoD has a high-quality, well-trained workforce
    for the 21st century. In addition, he emphasized that DoD is refining the
    Packard Commission methodology to proceed with full implementation of this
    uniform definition for the DoD acquisition and technology workforce.

    Even though the Deputy Under Secretary concurred with the report as a whole,
    he did not concur with specific statements in the draft report concerning the
    Price Fighter Program, increased program costs in contracting for technical
    support, and reduced scrutiny and timeliness in reviewing acquisition actions, as
    follows.

    Management Comments on the Price Fighter Program. The Deputy Under
    Secretary disagreed with the draft report statement that like-item pricing and
    parametric analysis are inferior to analysis of cost or pricing data.

    Audit Response. We agree that, under certain circumstances, pricing methods
    based on other than cost data can be an appropriate method of pricing goods and
    services. However, we determined that the draft report discussion of the Price
    Fighter Program was not sufficiently relevant to the audit objectives and deleted
    it entirely from the final version.

    Management Comments on Increased Program Costs. The Deputy Under
    Secretary commented that the draft report did not address the level of expertise
    acquired from the increase in contracting for technical support. He stated that
    the rapid pace of the changing technology of DoD products may be a cause for
    the increase in contracting for technical services rather than just workforce
    reductions.

    Audit Response. While the DoD acquisition organizations visited may have
    acquired a higher level of expertise than was previously available through

                                        35
in-house technical support, the senior acquisition officials at those organizations
did not indicate that the increase in contracting for technical support was to
achieve a higher level of expertise. Instead, they indicated that they contracted
for technical support because they did not have the in-house personnel needed to
perform technical support in areas such as engineering and logistical analysis.

Management Comments on Reduced Scrutiny and Timeliness. The Deputy
Under Secretary commented on the draft report statement concerning the quality
of products based on the reduction of Government inspections. He stated that
the reduction in Government oversight should not cause the contractor to reduce
inspections or to provide poor quality products. Further, he stated that the
acquiring of quality products and services is an underlining tenet of acquisition
reform that DoD is facilitating through increased use of past performance in
contractor selections.
Audit Response. We agree that the reduction in Government oversight should
not cause the contractor to reduce inspections or to provide poor quality
products; however, this condition is occurring. Senior acquisition officials at
one of the acquisition organizations visited commented that some contractors
stated that when the organization stopped performing inspections of all products,
so did the contractors.




                                    36
Appendix A. Audit Process

Scope and Methodology
    We conducted this audit from July through December 1999 and reviewed
    documentation dated November 1995 through December 1999. To accomplish
    the audit objective, we did the following:

           •   interviewed and provided questionnaires to senior acquisition
               personnel at 41 commands or offices within 14 of the 21 DoD
               acquisition organizations;

           •   discussed the issues relating to DoD acquisition workforce reduction
               trends and impacts with senior personnel from the 14 DoD
               acquisition organizations selected for review; however, we did not
               validate the data provided to us by those personnel;

           •   determined the DoD acquisition workforce size since FY 1990;

           •   determined the process for reducing the DoD acquisition workforce;

           •   determined the current and potential future impacts of reductions to
               the DoD acquisition workforce;

           •   discussed the implementation of DoD acquisition reform initiatives
               with senior personnel from the 14 DoD acquisition organizations
               selected for review; and

           •   determined the number and types of transactions that the DoD
               acquisition workforce has completed since FY 1990.

    In accomplishing the objective, we selected and visited the following 14 of the
    21 DoD acquisition organizations listed in DoD Instruction 5000.58.

           Office of the Secretary of Defense

                  •   Defense Logistics Agency
                  •   Ballistic Missile Defense Organization

           Department of the Army

                  •   Army Materiel Command
                  •   Army Space and Missile Defense Command
                  •   Army Acquisition Executive




                                       37
       Department of the Navy

               •
               Office of the Assistant Secretary of the Navy (Research,
               Development, Acquisition)
             • Naval Sea Systems Command
             • Naval Supply Systems Command
       Department of the Navy (Continued)

               •   Office of Naval Research
               •   Space and Naval Warfare Systems Command
               •   Marine Corps Systems Command

       Department of the Air Force
               •   Office of the Assistant Secretary of the Air Force
                   (Acquisition)
               •   Air Force Materiel Command
               •   Air Force Program Executive Organization

Auditing Standards. We conducted this economy and efficiency audit in
accordance with standards implemented by the Inspector General, DoD. Our
scope was limited in that we did not include tests of management controls.

Use of Computer-Processed Data. To achieve the audit objective, we relied
on data from computer-processed contracting reports relating to the procurement
of goods and services over $25,000 (DD Form 350) and $25,000 and below
(DD Form 1057). The audit did not establish the reliability of the data because
the scope was limited to identifying the number of procurement transactions
DoD acquisition organizations conducted between FY 1990 and FY 1999. Not
establishing the reliability of the data does not materially affect the results of the
audit because the results were used for trend analysis purposes.

Use of Technical Assistance. Technical experts from the Operations Research
Branch, Quantitative Methods Division of the Audit Followup and Technical
Support Directorate; and the Information Technology Services Division of the
Information Systems Directorate, Inspector General, DoD, assisted in the audit.
The experts assisted in determining the number of procurement transactions
DoD acquisition organizations conducted between FY 1990 and FY 1999.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available on request.

DoD-Wide Corporate-Level Government Performance and Results Act
Goals. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following corporate level goal, subordinate performance
goal, and performance measure.



                                     38
       FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
       future by pursuing a focused modernization effort that maintains U.S.
       qualitative superiority in key warfighting capabilities. Transform the
       force by exploiting the Revolution in Military Affairs, and reengineer the
       Department to achieve a 21st century infrastructure. (00-DoD-2)
       FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’
       needs smarter and faster, with products and services that work better and
       cost less, by improving the efficiency of the DoD acquisition processes.
       (00-DoD-2.4) FY 2000 Performance Measure 2.4.6: Reductions in
       the Acquisition Workforce (15 percent). (00-DoD-2.4.6)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following acquisition functional issue area
objective and goal.

       Objective: Internal Reinvention. Goal: Eliminate layers of
       management by streamlining processes while reducing the DoD
       acquisition-related workforce by 15 percent. (ACQ-3.1)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Defense Weapons Systems Acquisition high-risk area.




                                    39
Appendix B. Summary of Prior Coverage
   During the last 5 years, the General Accounting Office presented one testimony
   and issued seven reports that address the DoD acquisition workforce.

              •    General Accounting Office Report No. NSIAD-99-206 (OSD Case
                   No. 1856), “Best Practices: DoD Training Can Do More to Help
                   Weapon System Programs Implement Best Practices,” August 16,
                   1999.

              •    General Accounting Office Report No. NSIAD-98-127 (OSD Case
                   No. 1647), “Acquisition Management: Workforce Reductions and
                   Contractor Oversight,” July 31, 1998.

              •    General Accounting Office Report No. NSIAD-98-161 (OSD Case
                   No. 1628), “Defense Acquisition Organizations: Status of
                   Workforce Reductions,” June 29, 1998.

              •    General Accounting Office Report No. NSIAD-98-8 (OSD Case
                   No. 1549), “Defense Depot Maintenance: DoD Shifting More
                   Workload for New Weapon Systems to the Private Sector,”
                   March 31, 1998.

              •    General Accounting Office Report No. NSIAD-98-36R (OSD Case
                   No. 1470), “Defense Acquisition Organizations: Reductions in
                   Civilian and Military Workforce,” October 23, 1997.

              •    General Accounting Office Testimony No. T-NSIAD-97-140,*
                   “Defense Acquisition Organization: Linking Workforce Reductions
                   With Better Program Outcomes,” April 8, 1997.

              •    General Accounting Office Report No. NSIAD-96-102 (OSD Case
                   No. 1091), “Acquisition Management: Fiscal Year 1995 Waivers of
                   Acquisition Workforce Requirements,” April 15, 1996.

              •    General Accounting Office Report No. NSIAD-96-46 (OSD Case
                   No. 1026), “Defense Acquisition Organizations: Changes in Cost
                   and Size of Civilian Workforce,” November 13, 1995.




   *
       OSD case numbers are not assigned to testimonies.


                                               40
Appendix C. DoD Acquisition Organizations
   Office of the Secretary of Defense

          •   Office of the Under Secretary of Defense for Acquisition,
              Technology, and Logistics
          •   Defense Logistics Agency
          •   Strategic Defense Initiative Organization (renamed the Ballistic
              Missile Defense Organization)
          •   Special Operations Command Acquisition Center

   Department of the Army

          •   Army Materiel Command
          •   Army Information Systems Command (disestablished and merged
              with the Communications-Electronics Command, a subordinate
              command of the Army Materiel Command)
          •   Army Strategic Defense Command (renamed the Army Space and
              Missile Defense Command)
          •   Army Acquisition Executive

   Department of the Navy

          •   Office of the Assistant Secretary of the Navy (Research,
              Development, Acquisition)
          •   Naval Sea Systems Command
          •   Naval Air Systems Command
          •   Naval Supply Systems Command
          •   Naval Facilities Engineering Command
          •   Office of Naval Research
          •   Space and Naval Warfare Systems Command
          •   Navy Strategic Systems Program Office
          •   Navy Program Executive Officer/Direct Reporting Program Manager
              Organization
          •   Marine Corps Research, Development, and Acquisition Command
              (renamed the Marine Corps Systems Command)

   Department of the Air Force
          •   Office of the Assistant Secretary of the Air Force (Acquisition)
          •   Air Force Materiel Command (formed by combining the Air Force
              Systems Command and the Air Force Logistics Command)
          •   Air Force Program Executive Organization



                                      41
Appendix D. Definitions of Technical Terms
   A-76. The Commercial Activities Program, commonly referred to as the “A-76
   Program,” is a resource management tool that allows Government managers to
   compare the relative cost of performing commercial type work using
   Government employees versus contract services. Office of Management and
   Budget Circular No. A-76 (Revised), “Performance of Commercial Activities,”
   states that Government policy is to rely generally on private commercial sources
   for supplies and services if certain criteria are met while recognizing that some
   functions are inherently Governmental and must be performed by Government
   personnel. In addition, Government policy is to give appropriate consideration
   to relative cost in deciding between Government performance and contractors.
   In comparing the costs of Government and contractor performance, the Circular
   states that agencies will base the contractor’s cost of performance on firm
   offers.

   Acquisition Corps. The acquisition corps is a subset of a DoD Component’s
   acquisition workforce, composed of military officers, lieutenant commander or
   major and above; and civilian personnel, General Schedule 13 and above, who
   are acquisition professionals. Each Military Department and all other DoD
   Components, including OSD and the Defense Agencies, have an acquisition
   corps.

   Acquisition Development Program. An acquisition development program is a
   directed, funded effort designed to provide a new or improved materiel
   capability in response to a validated need.

   Acquisition Function. An acquisition function is a group of related acquisition
   workforce activities having a common purpose within the DoD acquisition
   system. DoD has seven acquisition functions: acquisition management;
   procurement and contracting; business, cost estimating and financial
   management; auditing; production; acquisition logistics; and science and
   engineering.

   Acquisition Organization. An acquisition organization is an organization,
   including its subordinate elements, whose mission includes planning, managing,
   and executing acquisition programs that are governed by DoD
   Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
   Programs (MDAPs) and Major Automated Information System (MAIS)
   Acquisition Programs,” Change 4, May 11, 1999. Appendix C lists the
   21 DoD acquisition organizations.

   Acquisition Positions. Acquisition positions include civilian positions and
   military billets that are in the DoD acquisition system, have acquisition duties,
   and fall in an acquisition position category established by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics.

   Acquisition Position Categories. Acquisition position categories are functional
   subsets of acquisition positions. DoD has 14 acquisition position categories:
   program management; program management oversight; communication-

                                       42
computer systems; contracting, including contracting for construction;
purchasing, including procurement assistant; industrial property management;
business, cost estimating, and financial management; auditing; quality
assurance; manufacturing and production; acquisition logistics; systems
planning, research, development, and engineering; test and evaluation
engineering; education, training, and career development.

Acquisition Workforce. The acquisition workforce is the personnel component
of the acquisition system. The acquisition workforce includes permanent
civilian employees and military members who occupy acquisition positions, are
members of an acquisition corps, or are in acquisition development programs.

Algorithm. An algorithm is a procedure for solving a mathematical problem in
a finite number of steps that frequently involves repetition of an operation.
Competition Advocate. A competition advocate is a duly appointed
Government official whose duties are to promote competition and commercial
practices in Government acquisitions.

Contracting Actions. A contracting action includes any written action
obligating or deobligating funds in connection with the purchasing, renting, or
leasing of supplies, services, or construction. The term does not include grants
or cooperative agreements. The term includes, but is not limited to:

       •   definitive contracts, including notices of award;

       •   letter contracts;

       •   purchase orders;

       •   orders under existing contracts or agreements; and

       •   contract modifications.

Defense Acquisition and Support Personnel. Defense acquisition and support
personnel are military and civilian personnel, excluding civilian personnel
employed at a maintenance depot, who are assigned to or employed in DoD
acquisition organizations as specified in DoD Instruction 5000.58 and any other
organizations that the Secretary of Defense may determine to have a
predominantly acquisition mission.

Defense Acquisition Workforce Improvement Act. The Defense Acquisition
Workforce Improvement Act (Public Law 101-510) was enacted to improve
DoD acquisition by improving the acquisition workforce. The intent of the
Defense Acquisition Workforce Improvement Act is to ensure that DoD military
and civilian personnel engaged in the DoD acquisition process have the
opportunity to achieve the highest standards of professional excellence. The
Defense Acquisition Workforce Improvement Act requires the Secretary of
Defense to establish policies and procedures for the effective management,
including accession, education, training, and career development, of DoD
acquisition professionals.

                                     43
Fourth Estate. Using the Section 912(b) acquisition workforce definition,
the Fourth Estate consists of DoD Components, excluding the Military
Departments. The Fourth Estate primarily includes acquisition and technology
personnel from the Defense Logistics Agency; the Defense Contract Audit
Agency; the Defense Information Systems Agency; the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics; and the
Ballistic Missile Defense Organization.

Full-Time Equivalent. Full-time equivalent employment is the total number of
regular hours worked by employees divided by the number of compensable
hours applicable to each fiscal year. Annual leave, sick leave, compensatory
time off and other approved leave categories are considered hours worked for
purposes of defining full-time equivalent employment.
Market Research. Market research is collecting and analyzing information to
be used in developing plans to meet agency needs.

Matrix Support. Matrix support is Government technical and business
assistance to a program manager from outside the program management office.

Micro-Purchases. Micro-purchases are supplies or services where the total
cost does not exceed $2,500, except in construction where the limit is $2,000.
Executive Order 12931 of October 13, 1994, expanded the use of the
Government credit card and directed Federal agencies to take maximum
advantage of the micro-purchase authority provided in the Federal Acquisition
Streamlining Act of 1994 by delegating purchase authority to the offices using
the supplies or services purchased.

Other Transactions. Other transactions are instruments other than contracts,
grants, or cooperative agreements used to stimulate, support, or acquire
research or prototype projects. Other transactions were authorized to reduce
barriers to commercial firms in DoD contracting for research, to contribute to a
broadening of the technology and industrial base available to DoD, and to foster
new relationships and practices with commercial technology and industrial base
firms that support national security. Other transactions remove many of the
acquisition regulations normally established for contracts or grants, including
the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, and cost accounting principles.

In 1989, Congress enacted section 2371, title 10, United States Code, that
authorized the use of other transactions for basic, applied, and advanced
research projects. Other transactions are usually issued to a consortium
consisting of private companies, not-for-profit agencies, universities, and
Government organizations. Other transactions may be used when a standard
contract, grant, or cooperative agreement is not feasible or appropriate. The
National Defense Authorization Act of FY 1994, Section 845, augmented the
other transactions authority and allowed prototype projects directly relevant to
weapons or weapon systems to be issued.




                                    44
Procurement Action Lead Time. Procurement action lead time is the interval
in months between the initiation of procurement action and receipt into the
supply system of the production model, excluding prototypes, purchased as the
result of the procurement action. Procurement action lead time consists of
two elements, administrative lead time and production lead time.

Program Budget Decision. Program budget decisions are Secretary of Defense
decision documents that affirm or change dollar amounts or manpower
allowances in the Military Departments’ budget estimate submissions.

Section 912(a). Section 912(a) of the National Defense Authorization Act for
FY 1998 defined the term “Defense acquisition personnel” as the military and
civilian personnel, excluding civilian personnel employed at a maintenance
depot, who are assigned to or employed in DoD acquisition organizations as
specified in DoD Instruction 5000.58.

Section 912(b). Section 912(b) of the National Defense Authorization Act for
FY 1998 required DoD to report reductions in the DoD acquisition workforce,
define the term Defense acquisition workforce, and apply the term uniformly
throughout DoD. On December 18, 1997, the Secretary of Defense informed
Congress that beginning October 1, 1998, DoD would uniformly identify
members of the acquisition workforce using a methodology that is an update to
the 1986 President’s Blue Ribbon Commission on Defense Management
(Packard Commission) approach. The methodology uses occupational and
organizational data to identify the workforce. DoD is still refining the
Section 912(b) methodology as it proceeds towards full implementation. DoD
has ongoing efforts to restructure the acquisition workforce manpower planning,
programming, and budgeting to correspond with the Section 912(b)
methodology.

Warrant. A warrant is an official document designating an individual as a
contracting officer. The warrant usually states the limits of the contracting
officer’s authority.




                                    45
Appendix E. Acquisition Workforce
            Relationships as of November 1998




                      46
Appendix F. Section 912(b) Methodology or
            Refined Packard Commission
            Approach
    This appendix discusses the process for identifying the DoD acquisition
    workforce using the Section 912(b) methodology, also called the Refined
    Packard Commission approach. On May 13, 1999, the Under Secretary of
    Defense for Acquisition and Technology issued a memorandum, “Refined
    Packard Key Acquisition and Technology Workforce Identification Policy for
    the Fiscal Year 1999 (FY99).” The memorandum states that, on December 18,
    1997, in response to the requirement contained in Section 912(b) of the National
    Defense Authorization Act for FY 1998, the Secretary of Defense informed
    Congress that beginning October 1, 1998, members of the acquisition workforce
    would be uniformly identified. The identification will be based on an updated
    version of an approach developed by the 1986 President's Blue Ribbon
    Commission on Defense Management (Packard Commission). He also advised
    Congress that refinements would be made to the acquisition workforce
    identification model as it proceeds toward implementation.

    An Acquisition Workforce Identification Working Group (the Working Group)
    was formed to facilitate the process across DoD and to make refinements to the
    model so that the workforce determination would be as consistent and verifiable
    as possible. The Working Group agreed that two counts would be made to
    validate the identification methodology using a data baseline of March 31,1998.
    The Jefferson Solutions’ April 1999 Report, “Identification of the Department
    of Defense Key Acquisition and Technology Workforce,” describes the
    validation methodology and provides the data and analyses for both counts. The
    Report states that there has been considerable controversy concerning the size
    and composition of the DoD acquisition workforce. Various definitions have
    been used to identify this workforce, without consensus. Of the many attempts
    made to identify those carrying out the acquisition mission, each was subject to
    significant limitations.


Jefferson Solutions Methodology
    In April 1997 testimony to Congress, the Acting Under Secretary of Defense for
    Acquisition and Technology committed to developing a better means for
    identifying the DoD acquisition workforce. In May 1997, the Office of the
    Under Secretary of Defense for Acquisition and Technology contracted with
    Jefferson Solutions to review alternative ways of identifying this workforce.
    Jefferson Solutions recommended that the DoD acquisition workforce could best
    be identified using an updated and modified version of an approach developed
    by the 1986 President’s Blue Ribbon Commission on Defense Management
    (Packard Commission). The Jefferson Solutions’ methodology builds on the
    Packard Commission algorithm of using occupational and organizational data for
    identifying the workforce. The methodology is detailed in Jefferson Solutions’

                                       47
    September 1997 Report, which identified a total acquisition workforce of
    189,158 personnel, including clerical support. The September 1997 Report was
    based on March 31, 1997, civilian and military personnel data.

    In a December 18, 1997 letter, the Secretary of Defense forwarded Jefferson
    Solutions’ September 1997 Report to Congress, stating that beginning
    October 1, 1998, members of the acquisition workforce would be uniformly
    identified using the Jefferson Solutions’ model. In December 1997, the
    Working Group was formed to comply with the Secretary’s direction to refine
    the model.

Refinement Process and Associated Counts
    From December 1997 through March 1998, the Working Group made numerous
    adjustments to the model. The Working Group examined acquisition functions
    within an acquisition lifecycle framework to identify more precisely which
    occupations and organizations should be included in any workforce count. The
    Working Group determined that two counts should be conducted to validate the
    model and to take advantage of lessons learned from the first count. In a
    April 7, 1998, memorandum, the Under Secretary of Defense for Acquisition
    and Technology tasked DoD Components to conduct an initial count of their
    acquisition workforce using March 31, 1998, personnel data. This count
    afforded the Working Group an opportunity to refine both the occupational and
    organizational lists used in the workforce identification algorithm. The initial
    count, as well as all subsequent counts, reflects personnel data, actual civilian
    and military personnel on board, and not manpower data, as for example,
    authorized spaces or full time equivalent employees. Appendix I identifies the
    functions to identify the workforce from a life-cycle, cradle-to-grave
    perspective.

    The DoD Components conducted the initial count from mid-April through early
    June 1998, and the Working Group compiled and analyzed the data from
    mid-June through October 1998. The Working Group addressed such issues as
    whether or not to include the Defense Contract Audit Agency and the Army
    Corps of Engineers in the workforce and how to deal with science and
    technology personnel and clerical support. The DoD acquisition workforce for
    the initial count was 168,678 personnel as shown in Table F-1 by DoD
    Component.




                                       48
           Table F-1. Section 912(b) DoD Acquisition Workforce
                     Initial Count by DoD Component

            DoD Component                                          Personnel

       Department of the Army                                       43,273
       Department of the Navy                                       55,562
       Department of the Air Force                                  37,892
       Defense Agencies                                             31,951
         Total DoD acquisition workforce                           168,678


One result of the initial count review was to revise the algorithm to count the
Science and Technology component of the workforce in a separate category
(Category IIB). In addition, the Working Group agreed to change the name of
the DoD acquisition workforce to the DoD acquisition and technology
workforce to recognize the technical expertise required across DoD to perform
the acquisition mission.

The Working Group has made many useful refinements to the identification
model during the past year to make the workforce determination as accurate as
possible. It also incorporated into the model lessons learned from the initial
count. On November 20, 1998, the Under Secretary of Defense for Acquisition
and Technology issued a memorandum, tasking the DoD Components to
conduct a second count, again using the March 31, 1998, personnel data to
validate and baseline the Jefferson Solutions’ methodology. The DoD
Components are comprised of the Military Departments and the Fourth Estate.
The Fourth Estate consists primarily of acquisition and technology personnel
from the Defense Logistics Agency; the Defense Contract Audit Agency; the
Defense Information Systems Agency; the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; and the Ballistic Missile
Defense Office. The updated methodology represents the FY 1999 Refined
Packard algorithm.

The FY 1999 Refined Packard algorithm only counts the key acquisition and
technology workforce members, not clerical or support personnel. The
following describes its basic elements:

       •   The model includes three categories of occupations (Appendix G) and
           two groupings of DoD organizations (Appendix H).

       •   All occupations listed in Category I are counted across all DoD
           organizations.

       •   All occupations listed in Category IIA or IIB are counted whenever
           they are located in a listed acquisition-related (Group IIA) or science
           and technology-related (Group IIB) organization.

       •   All military officers located in Group IIA or IIB organizations are
           considered part of the workforce.


                                    49
      •   Category III is used to add any key acquisition and technology
          positions not captured above, or to delete any Category II positions
          that are not applicable. For example, all applicable military enlisted
          acquisition and technology positions are added to the workforce using
          this category.

      •   All previously identified Defense Acquisition Workforce
          Improvement Act positions not captured above are added to the
          workforce under Category III.

To conduct the second count, the Working Group devoted most of their time to
refining Army; Navy, including Marine Corps; Air Force; Defense Logistics
Agency; Defense Contract Audit Agency; and Ballistic Missile Defense Office
personnel numbers, which comprised approximately 99 percent of the total DoD
acquisition and technology workforce. The second count, as of March 1999,
resulted in a civilian and military acquisition and technology workforce of
149,439 as shown in Table F-2 by DoD Component, in Table F-3 by category,
and in Table F-4 by occupation.

          Table F-2. Section 912(b) DoD Acquisition Workforce
                    Second Count by DoD Component

            DoD Component                                       Personnel

      Department of the Army                                     42,365
      Department of the Navy                                     49,683
      Department of the Air Force                                33,421
      Fourth Estate                                              23,970
        Total DoD acquisition workforce                         149,439


          Table F-3. Section 912(b) DoD Acquisition Workforce
                       Second Count by Category

            Category                                            Personnel
      Category I (Civilians)                                     25,567
      Category IIA (Civilians)                                   85,504
      Category IIB (Civilians)                                    8,789
      Category III (Civilians)                                   13,201
        Total Civilians                                         133,061
        Total Military                                           16,378
      Total DoD acquisition workforce                           149,439




                                  50
       Table F-4. Section 912(b) DoD Acquisition Workforce Second Count
                  by Civilian Occupational and Military Group

                  Civilian Occupational Group                  Personnel

           Engineers                                            44,117
           Management                                           15,509
           Contracting                                          19,387
           Communications and Computers                          9,370
           Financial Management                                  3,618
           Business and Industry                                12,989
           Scientists                                            4,476
           Administration and Programs                           5,116
           Auditing                                              3,692
           Procurement Assistant                                 2,650
           Mathematics and Statistics                            2,400
           Purchasing                                            2,158
           Supply Program Management                             1,753
           Inventory Management                                    944
           Equipment Specialist                                    858
           General Supply                                          326
           Miscellaneous                                         3,698
             Civilian Total                                    133,061

                  Military Group1

           Military                                             16,378
             Total                                             149,439

In June 1999, the Working Group ran the algorithm again using September 30,
1998, personnel data to provide the FY 1998 end count as shown in Table F-5
by DoD Component and Table F-6 by occupation. The FY 1998 end count will
serve as the FY 1999 starting baseline and will be updated on a regular basis.
Table F-6 shows the DoD acquisition workforce under the Section 912(b)
definition by civilian occupational and military group.

                Table F-5. Section 912(b) DoD Acquisition Workforce
                          Third Count by DoD Component

                  DoD Component                                Personnel
           Department of the Army                               41,241
           Department of the Navy                               49,294
           Department of the Air Force                          31,794
           Fourth Estate                                        23,742
             Total DoD acquisition workforce                   146,071


1
    The Military Group is not broken out by occupation.



                                            51
          Table F-6. Section 912(b) DoD Acquisition Workforce by Third Count
                      by Civilian Occupational and Military Group

                      Civilian Occupational Group                        Personnel

               Engineers                                                  41,861
               Management                                                 15,541
               Contracting                                                18,777
               Communications and Computers                                9,240
               Financial Management                                        3,849
               Business and Industry                                      12,265
               Scientists                                                  4,480
               Administration and Programs                                 5,051
               Auditing                                                    3,584
               Mathematics and Statistics                                  2,618
               Purchasing                                                  1,988
               Supply Management                                           1,697
               Miscellaneous                                               8,667
                 Civilian Total                                          129,618

                      Military Group2

               Military                                                   16,453
                 Total                                                   146,071

Key Considerations
    Some of the key considerations associated with the algorithm are as follows:

               •    The algorithm counts people, not positions. These numbers are used
                    for personnel management, such as for fulfilling education, training,
                    and career development requirements for the acquisition and
                    technology workforce. These are not manpower numbers and are not
                    to be viewed as the full-time equivalents used for workforce
                    reductions. Moreover, while all of the personnel identified perform
                    acquisition, they do not all perform acquisition all of the time. For
                    example, logistics management personnel are included only if they
                    spend more than half of their time on acquisition matters. Therefore,
                    any reductions related to these numbers would likely affect other
                    functions in the DoD and not just the acquisition mission.

               •    The Military Departments and the Fourth Estate will have to update
                    their Category III information with FY 1999 data before the Defense
                    Manpower Data Center database for FY 1999 can be used as a
                    baseline.


    2
        The Military Group is not broken out by occupation.



                                                52
•   The numbers are only as good as the data in the Defense Manpower
    Data Center database. Components are responsible for keeping the
    numbers current for each quarter.

•   Past trends are hard to develop due to changes in unit identification
    codes, which represent key sorting parameters for the organizational
    component of the algorithm. These codes identify subcomponents of
    organizations and allow a more precise accounting of the specific
    activities that are performing acquisition or technology functions.

•   Differences in the size for the acquisition and technology workforces
    of the three Military Departments and the Fourth Estate occur as a
    result of various factors, such as overall funding levels, use of
    contracted support, significant organizational differences, and the
    extent of the organizations’ mission. All of these factors should be
    taken into account in any downsizing assessments.

•   Occupational series do not always reflect the actual function being
    performed by the individuals in them. For example, engineers are not
    all performing engineering functions. Many are in management
    positions or are providing technical insight into contractor activities
    for leading-edge technology procurements. However, those scientists
    and engineers in Group IIB science and technology organizations are
    more likely to be performing real science and engineering than other
    members of the workforce.

•   The combination of occupation and organization data offers a good
    approximation of the type of effort provided to carry out DoD
    acquisition and technology functions as well as an indicator of the
    likely training and career management requirements necessary to
    keep this workforce current.

•   Some areas will require further refinement such as fully accounting
    for Reserve and Guard personnel and possibly counting personnel in
    classified organizations.

•   Ninety-nine percent of the workforce comes from the Military
    Departments, the Defense Logistics Agency, the Defense Contract
    Audit Agency, and the Ballistic Missile Defense Organization.

•   A review of occupational series 340, program management, for
    possible shift to Category II will be conducted in the near future for
    implementation in the FY 2000 Refined Packard algorithm. The
    Army and the Air Force were in favor of this change after they
    conducted their final count, but the Navy and the Fourth Estate did
    not have time to review this change.
•   Category III allows the DoD Components to add any applicable key
    acquisition and technology workforce personnel not previously
    captured by the model, or to delete any Category II personnel not
    considered to be key acquisition and technology workforce

                             53
               personnel. Review of the second count data indicated that over
               90 percent of all Category III additions are Defense Acquisition
               Workforce Improvement Act personnel not captured elsewhere by the
               model. Furthermore, a very small percentage of all Category III
               actions are deletes. Additional analysis is planned with a view
               toward reducing the number of Category III additions and deletions.

           •   Finally, the count does not identify the contractor workforce used to
               support the DoD acquisition mission and, as such, does not provide a
               picture of all the resources available to carry out the DoD acquisition
               mission.

Conclusion
    The Jefferson Solutions’ April 1999 Report concluded that even given all of the
    qualifications provided, the Section 912(b) methodology or Refined Packard
    Commission approach provides DoD with a consistent and uniform approach for
    identifying those serving in the DoD acquisition and technology workforce that
    can be independently verified using the Defense Manpower Data Center
    database. The methodology also provides significantly greater clarity on the
    roles played by those serving in the workforce and offers the potential for a
    much more effective system for managing these DoD staff. The accuracy of the
    model depends on the data collected and these data are only as good as the DoD
    Components’ databases used in forming the model. If databases are frequently
    and carefully updated, then the model will be more useful. In addition, as the
    model proves itself, it should be used to satisfy a variety of DoD needs.

    In summary, when fully implemented, the model should provide DoD with an
    effective, independently verifiable, uniform, DoD-wide system for identifying,
    managing, and training the key acquisition and technology workforce.




                                        54
Appendix G. Acquisition Workforce Occupation
            Categories
   This following are the acquisition workforce occupations categories for
   identifying the DoD acquisition workforce using the Section 912(b)
   methodology or Refined Packard Commission approach.

                       Category I Occupations
                        (Counted across DoD)

              Series           Occupation
               246 -   Contractor Industrial Relations
               340 -   Program Management
              1102 -   Contracting
              1103 -   Industrial Property Management
              1105 -   Purchasing
              1150 -   Industrial Specialist

                       Category IIA Occupations
                         (Counted in Group IIA
                            organizations1 only)

              Series           Occupation

               150 -   Geography
               180 -   Psychologist
               301 -   Administration and Program Management
               334 -   Computer Specialist
               343 -   Management/Program Analyst
               346 -   Logistics Management
               391 -   Telecommunications Specialist
               392 -   Communications Specialist
               413 -   Physiologist
               501 -   Financial Administration
               505 -   Financial Management
               510 -   Accounting
               511 -   Auditing
               560 -   Budget Analysis
               801 -   General Engineering
               806 -   Materials Engineering
               810 -   Civil Engineering




   1
       Appendix H lists the Group IIA organizations.


                                               55
         Category IIA Occupations
               (Continued)

Series          Occupation

 818 -   Engineering Drafting
 819 -   Environmental Engineering
 830 -   Mechanical Engineering
 840 -   Nuclear Engineering
 850 -   Electrical Engineering
 854 -   Computer Engineering
 855 -   Electronics Engineering
 858 -   Biomedical Engineering
 861 -   Aerospace Engineering
 871 -   Naval Architecture
 873 -   Ship Surveying
 880 -   Mining Engineering
 881 -   Petroleum Engineering
 890 -   Agricultural Engineering
 892 -   Ceramic Engineering
 893 -   Chemical Engineering
 894 -   Welding Engineering
 896 -   Industrial Engineering
1021 -   Office Drafting
1101 -   General Business and Industry
1104 -   Property Disposal
1130 -   Public Utilities Specialist
1152 -   Production Control
1160 -   Financial Analysis
1301 -   General Physical Science
1310 -   Physics
1313 -   Geophysics
1315 -   Hydrology
1320 -   Chemistry
1321 -   Metallurgy
1330 -   Space Science
1350 -   Geology
1360 -   Oceanography
1361 -   Navigational Information
1370 -   Cartography
1372 -   Geodesy
1373 -   Land Surveying
1510 -   Actuary
1515 -   Operations Research
1520 -   Mathematics
1529 -   Mathematical Statistician
1530 -   Statistician
1550 -   Computer Science




                             56
                     Category IIA Occupations
                           (Continued)

            Series            Occupation

            1910 - Quality Assurance
            2003 - Supply Program Management
            2150 - Transportation Operations

                     Category IIB Occupations
                       (Counted in Group IIB
                       Science and Technology
                         organizations2 only)

Science and Engineering Occupations at Science and Technology Organizations3
            Series            Occupation

             150 -   Geography
             180 -   Psychologist
             401 -   General Biological Science
             403 -   Microbiology
             408 -   Ecology
             413 -   Physiologist
             414 -   Entomology
             430 -   Botany
             434 -   Plant Pathology
             435 -   Plant Physiology
             440 -   Genetics
             454 -   Range Conservation
             457 -   Soil Conservation
             460 -   Forestry
             470 -   Soil Science
             471 -   Agronomy
             480 -   General Fish and Wildlife Administration
             482 -   Fishery Biology
             486 -   Wildlife Biology
             487 -   Animal Science
             601 -   General Health Science
             602 -   Medical Officer
             610 -   Nurse
             630 -   Dietitian and Nutritionist
             644 -   Medical Technologist




2
    Appendix H lists the Group IIB Science and Technology organizations.
3
    This list may be revised as a result of future counts.


                                               57
         Category IIB Occupations
               (Continued)

Series         Occupation

 660 -   Pharmacist
 662 -   Optometrist
 665 -   Speech Pathology and Audiology
 690 -   Industrial Hygiene
 701 -   Veterinary Medical Science
 801 -   General Engineering
 803 -   Safety Engineering
 804 -   Fire Prevention Engineering
 806 -   Materials Engineering
 807 -   Landscape Architecture
 808 -   Architecture
 810 -   Civil Engineering
 818 -   Engineering Drafting
 819 -   Environmental Engineering
 830 -   Mechanical Engineering
 840 -   Nuclear Engineering
 850 -   Electrical Engineering
 854 -   Computer Engineering
 855 -   Electronics Engineering
 858 -   Biomedical Engineering
 861 -   Aerospace Engineering
 871 -   Naval Architecture
 890 -   Agricultural Engineering
 881 -   Petroleum Engineering
 892 -   Ceramic Engineering
 893 -   Chemical Engineering
 894 -   Welding Engineering
 896 -   Industrial Engineering
1301 -   General Physical Science
1306 -   Health Physics
1310 -   Physics
1313 -   Geophysics
1315 -   Hydrology
1320 -   Chemistry
1321 -   Metallurgy
1330 -   Space Science
1340 -   Meteorology
1350 -   Geology
1360 -   Oceanography
1370 -   Cartography
1372 -   Geodesy
1373 -   Land Surveying
1380 -   Forest Products Technology
1382 -   Food Technology



                            58
                 Category IIB Occupations
                       (Continued)

        Series            Occupation

        1384 -   Textile Technology
        1386 -   Photographic Technology
        1515 -   Operations Research
        1520 -   Mathematics
        1529 -   Mathematical Statistician
        1530 -   Statistician
        1550 -   Computer Science

                 Category IIB Occupations
                       (Continued)

Other Occupations at Science and Technology Organizations4
        Series            Occupation

         301 -   Administration and Program
         334 -   Computer Specialist
         343 -   Management/Program Analyst
         346 -   Logistics Management
         391 -   Telecommunications Specialist
         392 -   Communications Specialist
         501 -   Financial Administration
         505 -   Financial Management
         510 -   Accounting
         511 -   Auditing
         560 -   Budget Analysis
         873 -   Ship Surveying
        1021 -   Office Drafting
        1101 -   General Business and Industry
        1104 -   Property Disposal
        1130 -   Public Utilities Specialist
        1152 -   Production Control
        1160 -   Financial Analyst
        1361 -   Navigational Information
        1510 -   Actuary
        1910 -   Quality Assurance



4
 These occupations are based on other occupations that are part of the acquisition and technology
workforce which may or may not be present in science and technology organizations just as they
are in the Group IIA list. However, where appropriate, science and technology organizations are
to count these individuals and provide them in this secondary science and technology
occupational grouping as opposed to adding them to Category III.


                                          59
                Category IIB Occupations
                      (Continued)

       Series         Occupation

       2003 - Supply Program Management
       2150 - Transportation Operations

                Category III Occupations
                  (Counted across DoD)

This category is to be used for:

       •   Adding military officers and civilian personnel who are not covered
           by the previous categories (occupations or organizations) that are key
           acquisition and technology personnel.

       •   Deleting military officers and civilian personnel from the previous
           categories (occupations or organizations) that are not key acquisition
           and technology personnel.

       •   Adding military enlisted personnel who are key acquisition and
           technology personnel.

       •   Adding all Defense Acquisition Workforce Improvement Act military
           and civilian personnel not covered by the previous categories.




                                    60
Appendix H. Acquisition Workforce
            Organization Groups
    This following are the acquisition workforce organization groups for identifying
    the DoD acquisition workforce using the Section 912(b) methodology or Refined
    Packard Commission approach.

Group IIA Organizations
    Office of the Secretary of Defense

           •   Under Secretary of Defense for Acquisition, Technology, and
               Logistics
           •   Defense Logistics Agency
           •   U.S. Special Operations Command (Special Operations Acquisition
               Center only)
           •   Ballistic Missile Defense Office
           •   Defense Information Systems Agency
           •   Defense Contract Audit Agency
           •   TRICARE Support Office

    Department of the Army

           •   Army Acquisition Executive
           •   Army Materiel Command
           •   Assistant Secretary of the Army (Acquisition, Logistics, and
               Technology)
           •   Army Corps of Engineers
           •   Army Medical Research and Materiel Command
           •   Army Space and Missile Defense Command

    Department of the Navy
           •   Naval Air Systems Command
           •   Naval Supply Systems Command
           •   Naval Sea Systems Command
           •   Naval Facilities Engineering Command
           •   Navy Program Executive Officer/Direct Reporting Program Manager
               Organization
           •   Space and Naval Warfare Systems Command




                                       61
    Department of the Navy (Continued)

           •   Assistant Secretary of the Navy (Research, Development, and
               Acquisition)
           •   Marine Corps Systems Command

    Department of the Air Force

           •   Air Force Materiel Command (formed by combining the Air Force
               Systems Command and the Air Force Logistics Command)
           •   Assistant Secretary of the Air Force (Acquisition)
           •   Air Force Program Executive Organization

Group IIB Organizations
    Office of the Secretary of Defense

           •   Defense Advanced Research Projects Agency
           •   Defense Threat Reduction Agency (Defense Special Weapons
               Agency)
           •   Service Warfare Centers

    Department of the Army

           •   Army Research Institute
           •   Army Research Laboratory
           •   Army Research Office

    Department of the Navy

           •   Office of Naval Research
           •   Naval Research Laboratory

    Department of the Air Force

           •   Air Force Office of Scientific Research
           •   Air Force Research Laboratory




                                       62
Appendix I. Acquisition and Technology
            Workforce Functional Description
    The Jefferson Solutions’ April 1999 Report, “Identification of the Department
    of Defense Key Acquisition and Technology Workforce,” describes the
    acquisition and technology workforce functions. The report recommends the
    following functions to help identify the workforce. These recommended
    functions apply to all DoD organizations.

Functions
    Requirements Development, Systems Planning, Research, Development,
    Testing, Evaluation, and Science and Engineering. Work in these functions
    is primarily related to acquisition and technology programs, projects, or
    activities. The primary duties and functions of the scientists and engineers
    directly or indirectly support acquisition and technology or acquisition-related
    efforts, especially when found in Group II organizations. This function would
    also include services, engineering, and construction for facilities and
    installations. For example, civil engineers at the Naval Facilities Engineering
    Command and the Army Corps of Engineers would be included, except for
    deployable troops. However, construction related to civil works should not be
    considered a defense acquisition or technology function, except for contracting
    personnel in Category I occupations and engineers with warrants. Within the
    test function, personnel performing developmental test and evaluation are
    included in the workforce. However, operational testing is not considered as an
    acquisition and technology function with respect to the workforce count because
    in general, personnel performing operational testing are assigned to operational
    commands as their primary duties support operations, not acquisition and
    technology.

    Program Management. Work performed in program management is primarily
    related to oversight of programs or management of the DoD acquisition system.

    Information Technology. For the purpose of defining the workforce,
    information technology includes personnel responsible for the technology,
    acquisition, management, and oversight of equipment used in the automatic
    acquisition, storage, manipulation, management, movement, control, display,
    switching, interchange, transmission, or reception of data or information.

    Industrial and Contract Property Management. Work in this area is related
    to supporting contractual requirements involving the acquisition, control,
    management, use, and disposition of Government-owned property provided to
    contractors. Duties may include performance of pre-award surveys, property
    management system reviews, and plant clearance operations.




                                       63
Contracting and Procurement. Work in contracting and procurement involves
the procurement of supplies and services; selection of sources; negotiation,
administration, and award of contracts; lease of supplies and services; and
similar activities.

Production. Work in production involves acquisition-related manufacturing,
production, and quality assurance. Acquisition-related manufacturing and
production duties involve management of or monitoring the efforts of private
sector contractors. Quality assurance includes such duties as evaluating DoD
contractor compliance with the technical and quality requirements of acquisition
contracts, performing analyses of contractor data, and performing quality
engineering.

Contract Auditing. The basic nature of contract auditing makes this area an
acquisition function. This functional area is comprised of the contract auditing
occupation.

Business, Cost Estimating and Financial Management, and Management
and Administration. Work in this function is primarily related to personnel
performing work for the listed acquisition and technology functions when, and
only when, these type of duties and functions are found in Group II
organizations. This area includes, but is not limited to, occupations such as,
budget analysis, management analysis, program analysis, general business
administration and industry, and mathematics.

Logistics Planning and Management. Work in this area is related to
supporting acquisition programs, projects, or activities, either directly or
indirectly. The primary duties and functions of such occupations as logistics
management specialist and supply program manager found in this area, almost
always involve acquisition activities. Exceptions are those personnel that are
spending more than 50 percent of their time involved in supporting existing
hardware programs or functions that are primarily in a local support, training,
or operational logistical support role.




                                    64
Appendix J. Individual Contracting Action
            Report (DD Form 350) Categories
   With some exceptions, the Individual Contracting Action Report (DD
   Form 350) is prepared for contracting actions that:

          •   obligate or deobligate more than $25,000, including actions that DoD
              executed for purchase of land, or rental or lease of real property, or

          •   obligate or deobligate $25,000 or less and are in a designated
              industry group under the Small Business Competitiveness
              Demonstration Program or are under a very small business set-aside,
              except for:

                 -   actions of $500 or less,
                 -   foreign military sales,
                 -   orders or modifications under Federal schedules,
                 -   actions with government agencies,
                 -   actions with non-U.S. business firms, and
                 -   actions where the place of performance is other than the
                     United States and its outlying areas.

   The contracting actions recorded on the DD Form 350 are for research,
   development, test, and evaluation; other services and construction; and supplies
   and equipment. Tables J-1, J-2, and J-3, list those categories and the value of
   contracting actions for subcategories within those categories for FYs 1990 and
   1999 and associated percentage change.


       Table J-1. Research, Development, Test, and Evaluation Category

                                            Dollar Value of Contracting
                                               Actions (in thousands) Percentage
   Subcategory                                 FY 1990      FY 1999     Change

   Basic Research                               993,809     1,785,497         80
   Applied Research                           1,813,382     2,254,763         24
   Advanced Technology Development            6,462,145     4,732,184        (27)
   Demonstration and Validation               8,283,893     4,323,637        (48)
   Engineering and Manufacturing
     Development                              3,951,061 5,066,788             28
   Management Support                           814,621 1,008,743             24
   Operational System Development                     0    265,756            --
     Totals                                  22,318,911 19,437,368           (13)



                                      65
                Table J-2. Other Services and Construction

                                      Dollar Value of Contracting
                                         Actions (in thousands) Percentage
Subcategory                              FY 1990      FY 1999     Change

Special Studies and Analyses, not
   including Research and Development        188,737 1,078,118     471
Architect and Engineering Services         1,628,995 1,997,730      23
Automatic Data Processing and
   Telecommunication Services              1,501,762 4,772,300     218
Purchase of Structures and Facilities            135        962    613
Natural Resources and Conservation
   Services                                  213,669 1,399,678     555
Social Services                              469,490     47,287    (90)
Quality Control, Testing, and Inspection
   Services                                  411,672    504,108     22
Maintenance, Repair, and Rebuilding of
   Equipment                               6,182,103 5,847,410      (5)
Modification of Equipment                  1,218,210    960,018    (21)
Technical Representative Services            629,213    721,998     15
Operation of Government-Owned
   Facilities                              2,977,877 1,878,946     (37)
Installation of Equipment                    406,944    110,104    (73)
Salvage Services                             152,599    141,249     (7)
Medical Services                             454,241 3,430,938     655
Professional, Administrative, and
   Management Support Services             6,268,530 10,280,342     64
Utilities and Housekeeping Services        3,311,776 3,331,379       1
Photographic, Mapping, Printing, and
   Publication Services                      121,410    225,528     86
Educational and Training Services            603,505    711,092     18
Transportation, Travel, and Relocation
   Services                                2,601,268 2,655,087       2
Lease or Rental of Equipment                 388,057    238,670    (38)
Lease or Rental of Facilities                199,647    156,178    (22)
Construction of Structures and Facilities 3,472,688 6,162,572       77
Maintenance, Repair, or Alteration of
   Real Property                           3,037,504 5,393,574      78
       Totals                             36,440,032 52,045,268     43




                                 66
                    Table J-3. Supplies and Equipment

                                        Dollar Value of Contracting
                                           Actions (in thousands) Percentage
Subcategory                                FY 1990      FY 1999     Change

Weapons                                   1,320,657     964,338      (27)
Nuclear Ordnance                             29,296         671      (98)
Fire Control Equipment                    1,490,216     394,466      (74)
Ammunition and Explosives                 3,034,198   1,693,994      (44)
Guided Missiles                           7,329,454   3,956,772      (46)
Aircraft and Airframe Structural
   Components                            12,344,805 11,704,977        (5)
Aircraft Components and Accessories       2,518,911 1,906,531        (24)
Aircraft Launching, Landing, and
   Ground Handling Equipment                166,614     190,155       14
Space Vehicles                              804,154     230,897      (71)
Ships, Small Craft, Pontoons, and
   Floating Docks                         4,766,562   3,533,470      (26)
Ship and Marine Equipment                   224,498     347,377       55
Railway Equipment                             2,280         650      (71)
Ground Effect Vehicles, Motor
   Vehicles, Trailers, and Cycles         1,778,020   1,682,016       (5)
Tractors                                     20,773      26,811       29
Vehicular Equipment Components              770,316     510,103      (34)
Tires and Tubes                             136,084      90,076      (34)
Engines, Turbines, and Components         4,962,203   3,381,214      (32)
Engine Accessories                          427,482     387,886       (9)
Mechanical Power Transmission
   Equipment                                 93,811     117,065       25
Bearings                                     83,534     132,309       58
Woodworking Machinery and
   Equipment                                  1,329         940      (29)
Metalworking Machinery                      101,286      49,786      (51)
Service and Trade Equipment                  13,377      40,724      204
Special Industry Machinery                   65,097      94,296       45
Agricultural Machinery and Equipment          3,037       4,003       32
Construction, Mining, Excavating, and
   Highway Maintenance Equipment            120,551      96,314      (20)
Materials Handling Equipment                259,131     198,253      (23)
Rope, Cable, Chain, and Fittings             22,017      13,909      (37)
Refrigeration, Air Conditioning, and
   Air Circulating Equipment                 83,902      95,186       13
Fire Fighting, Rescue, and Safety
   Equipment                                241,217     112,860      (53)
Pumps and Compressors                       120,561     117,768       (2)




                                 67
              Table J-3. Supplies and Equipment (Continued)

                                       Dollar Value of Contracting
                                          Actions (in thousands) Percentage
Subcategory                               FY 1990      FY 1999     Change

Furnace, Steam Plant, and Drying
   Equipment and Nuclear Reactors           694,074     703,260       1
Plumbing, Heating, and Sanitation
   Equipment                                 16,785      21,052      25
Water Purification and Sewage
   Treatment Equipment                       29,093       9,803     (66)
Pipe, Tubing, Hose, and Fittings             64,693     130,903     102
Valves                                      110,844     125,483      13
Maintenance and Repair Shop
   Equipment                                535,797     297,415     (44)
Hand Tools                                   19,136      31,609      65
Measuring Tools                               7,622       4,239     (44)
Hardware and Abrasives                       96,697     101,623       5
Prefabricated Structures and Scaffolding     96,279      81,820     (15)
Lumber, Millwork, Plywood, and
   Veneer                                    28,809      19,854     (31)
Construction and Building Materials          49,778      59,978      20
Communication, Detection, and
   Coherent Radiation Equipment            9,284,660   3,830,883    (59)
Electrical and Electronic Equipment
   Components                              1,296,940   1,816,320     40
Fiber Optics Materials, Components,
   Assemblies, and Accessories               24,800      17,441     (30)
Electric Wire and Power Distribution
   Equipment                                668,024     507,101     (24)
Lighting Fixtures and Lamps                  62,796      27,314     (57)
Alarm, Signal, and Security Detection
   Systems                                   48,724      86,218      77
Medical, Dental, and Veterinary
   Equipment and Supplies                    547,214    887,043      62
Instruments and Laboratory Equipment       1,084,379    973,588     (10)
Photographic Equipment                        42,297     53,983      28
Chemicals and Chemical Products              115,757    228,636      98
Training Aids and Devices                    775,547    598,275     (23)
Automatic Data Processing Equipment,
   including Firmware, Software,
   Supplies, and Support Equipment         1,949,833   2,985,713     53
Furniture                                    220,459     371,463     68
Household and Commercial Furnishings
   and Appliances                            41,874      81,836      95
Food Preparation and Serving Equipment       51,355      29,275     (43)




                                  68
              Table J-3. Supplies and Equipment (Continued)

                                     Dollar Value of Contracting
                                        Actions (in thousands) Percentage
Subcategory                             FY 1990      FY 1999     Change

Office Machines, Text Processing Systems,
   and Visible Record Equipment              12,709    24,842      95
Office Supplies and Devices                  31,070    18,296     (41)
Books, Maps, and Other Publications         133,199    71,832     (46)
Musical Instruments, Phonographs, and
   Home-Type Radios                           1,820     3,143      73
Recreational and Athletic Equipment           9,065    27,973     209
Cleaning Equipment and Supplies              62,497     3,164     (95)
Brushes, Paints, Sealers, and Adhesives       7,750    28,844     272
Containers, Packaging, and Packing
   Supplies                                 123,154   121,949      (1)
Textiles, Leather, Furs, Apparel, and
   Shoe Findings, Tents, and Flags           66,705    89,431      34
Clothing, Individual Equipment, and
   Insignia                                 773,513   831,760       8
Toiletries                                   44,462     2,447     (94)
Agricultural Supplies                        12,723       946     (93)
Live Animals                                    878       333     (62)
Subsistence                               1,819,196 1,685,190      (7)
Fuels, Lubricants, Oils, and Waxes        5,163,591 2,627,759     (49)
Nonmetallic Fabricated Materials             40,648    11,419     (72)
Nonmetallic Crude Materials                     371        96     (74)
Metal Bars, Sheets, and Shapes               57,181    85,756      50
Ores, Minerals, and Their Primary
   Products                                 113,642     2,082     (98)
Miscellaneous                             2,225,337 1,759,203     (21)
   Totals                               71,999,150 53,554,410     (26)




                                69
Appendix K. Reform Initiatives
     In the past 5 years, DoD has introduced over 40 initiatives to its acquisition
     workforce to improve the way it does business and to enable the reduced
     acquisition workforce to accomplish its mission.

Federal Acquisition Streamlining Act of 1994
     Cost and Pricing Data. The Federal Acquisition Streamlining Act of 1994 (the
     Act) streamlines the acquisition process and minimizes Government-unique
     requirements. The Act increased the threshold for contractors to submit cost or
     pricing data from $100,000 to $500,000 and adds penalties for defective pricing.
     The Act also established reviewing the threshold for cost and pricing data based
     on inflation every fifth year. Further, the Act added a new exception to the
     requirement for contractors to submit cost or pricing data for commercial items,
     lowered the approval level for waivers, and prohibited the requirement for
     acquiring cost or pricing data when the exception applies.

     Defense Acquisition Pilot Programs. The Defense Acquisition Pilot Programs
     (the Pilot Programs) are an integral component of the DoD approach to reform
     the acquisition process. The Under Secretary of Defense for Acquisition,
     Technology, and Logistics directed that the five Pilot Programs demonstrate
     innovative approaches in the use of commercial practices and the acquisition of
     commercial products. To explore innovative approaches, the Federal
     Acquisition Streamlining Act of 1994 and the FY 1995 National Defense
     Authorization Act authorized regulatory and statutory relief for the Pilot
     Programs.

     Multiple Award Task and Delivery Orders. Multiple award contracts occur
     when two or more contracts are awarded from one solicitation. The Federal
     Acquisition Streamlining Act of 1994 (the Act) established a general preference
     for using multiple awards and required that the implementing Federal
     Acquisition Regulation “establish a preference for awarding, to maximum extent
     practicable, multiple task or delivery order contracts for the same or similar
     services or property.” The Act mandates use of multiple award contracts for
     advisory and assistance services contracts exceeding $10 million and 3 years in
     duration.

     Promoting and Streamlining the Use of the Government-Wide Purchase or
     Credit Card. The General Services Administration awarded the first
     Government-wide credit card contract in 1989. In 1993, the Vice President’s
     National Performance Review identified the credit card as a major acquisition
     reform and recommended that all Federal agencies increase use of the card to
     reduce the red tape normally associated with the Federal procurement process.
     The Federal Acquisition Streamlining Act of 1994 established $2,500 as the
     micro-purchase threshold and eliminated most of the procurement restrictions
     for purchases identified within that threshold. Executive Order 12931, “Federal
     Procurement Reform,” October 13, 1994, directed Federal agencies to expand

                                         70
     the use of credit cards and delegate micro-purchase authority to program
     officials. In 1995, the Federal Acquisition Regulation designated the credit card
     as the preferred method to pay for micro-purchases.

     Simplified Acquisition Threshold. Executive Order 12931 of October 13,
     1994, directed that the simplified acquisition procedures be established and
     used, to the maximum extent practicable, for procurements under the simplified
     acquisition threshold to reduce administrative burdens and more effectively
     support the accomplishment of agency missions. The Federal Acquisition
     Streamlining Act of 1994 increased the simplified acquisition threshold from
     $25,000 to $100,000 to streamline the process of making small purchases and to
     reduce the time needed to make such purchases. The simplified acquisition
     procedures were established in Part 13 of the Federal Acquisition Regulation for
     the acquisition of supplies and services, including construction and research and
     development, the aggregate amount of which does not exceed the simplified
     acquisition threshold.

Federal Acquisition Reform Act of 1995
     Protest Reform. An important issue to the Administration, including DoD, is
     to reduce the number of bid protests because the protests are highly disruptive to
     the procurement process. A GAO report on information technology
     procurements stated that protested procurements take approximately 30 to
     40 percent longer to award than contracts that are not protested. Almost
     40 percent of the Government’s information technology contracts over
     $25 million are protested. The Administration’s protest reform initiatives are
     intended to improve the efficiency and timeliness of the acquisition process by
     significantly reducing the number of protests filed, while continuing to
     safeguard the interests of those unfairly treated in the acquisition process.

Subdivision E of the Clinger-Cohen Act of 1996
     Electronic Commerce and Electronic Data Interchange. The Federal
     Acquisition Streamlining Act of 1994 required DoD to transform the acquisition
     system from a paperwork process to a process based on electronic data
     interchange. Electronic data interchange is a technique for electronically
     transferring and storing formatted information between computers. Electronic
     commerce and electronic data interchange is the interchange and processing of
     information via electronic techniques for accomplishing transactions based upon
     the application of commercial standards and practices.

     Modular Contracting. As described in the Clinger-Cohen Act, program
     managers will use modular contracting for major information technology
     acquisitions and will consider the use of modular contracting for other
     acquisition programs. Modular contracting is the use of one or more contracts
     to acquire information technology systems in successive, interoperable
     increments.


                                         71
DoD Reform Initiatives
    Advanced Concept Technology Demonstrations. Advanced Concept
    Technology Demonstrations (the Demonstrations) exploit mature and maturing
    technologies to solve important military problems. In early 1994, DoD initiated
    a new program designed help expedite the movement of maturing technologies
    from the developers to the users. The Demonstrations emphasize technology
    integration rather than technology development, with the goal to provide the
    warfighter a prototype capability and support to evaluate that capability. The
    warfighter evaluates the prototype capability in real military exercises and at a
    scale sufficient to assess military utility. The Demonstrations are designed to
    allow warfighters to gain an understanding of proposed new capabilities for
    which no warfighter experience base exists.

    Cost as an Independent Variable (CAIV). CAIV is a strategy that requires
    program managers to set aggressive, yet realistic cost objectives when defining
    operational requirements for acquiring Defense systems and managing
    achievement of these objectives. The cost objectives must balance mission
    needs with the projected out-year resources, taking into account existing
    technology, maturation of new technologies, and anticipated process
    improvements in both DoD and industry. As system performance and cost
    objectives are decided on the basis of cost-performance trade-offs, program
    managers are to use the requirements and acquisition processes to make cost
    more of a constraint, and less of a variable, while nonetheless obtaining the
    needed military capability of the system. Although much discussion of CAIV is
    centered on new systems, opportunity always exists for cost reduction in older
    systems. CAIV principles are applicable throughout a system’s life cycle. The
    key tenets of CAIV are:

           •   Requirements are stated in terms of capabilities and may be
               exchanged, substituted, or adjusted for the sake of another.

           •   Capabilities should be established at the system level and not at lower
               levels.

           •   Early and continuous customer and warfighter participation in setting
               and adjusting program goals throughout the program is imperative.

           •   Trade space (that is, cost gradient with respect to performance)
               around the cost objective is encouraged.

    Defense Acquisition Deskbook. The Under Secretary of Defense for
    Acquisition and Technology made the Defense Acquisition Deskbook available
    to the acquisition community in FY 1996. The Defense Acquisition Deskbook
    is an electronic knowledge presentation system providing the most current
    acquisition policy and guidance for all DoD Services and Agencies. The
    Deskbook’s extensive reference material includes information on the various
    DoD functions, disciplines, activities, and processes beginning with “user”
    requirements and flowing through concept development, program establishment,
    contracting, testing, production, sustainment, and ending with disposal.

                                        72
Earned Value. Earned value is a management technique that relates resource
planning to schedules and to technical, cost, and schedules requirements. In
1997, DoD accepted industry guidelines for earned value management systems
as a replacement for the Cost/Schedule Control Systems Criteria (the Criteria).
DoD had required its contractors to comply with the Criteria for nearly
30 years. In accepting the industry guidelines, DoD encouraged industry to
develop a widely accepted industry or international standard that would obviate
the need for DoD to maintain its own requirements. The change from the
Criteria to earned value management systems is a major change in responsibility
from government to industry and supports the “insight, not oversight”
philosophy underlying DoD acquisition reform initiatives.

Integrated Product Team. In a memorandum, “Use of Integrated Product
and Process Development and Integrated Product Teams in DoD Acquisition,”
May 10, 1995, the Secretary of Defense directed a fundamental change in the
way DoD acquires goods and services. This memorandum directed program
managers to establish and use integrated product teams to facilitate the
decision-making process. The integrated product teams are to function in a
spirit of teamwork with participants from all appropriate functional disciplines
empowered and authorized, to the maximum extent possible, to make
commitments for the organization or the functional area they represent.

Military Specification and Standard Reform. In the “Mandate for Change,”
the Secretary of Defense identified one of the roadblocks to change as the use of
military specifications and standards. His statement was based on a 1991 report
by the Center for Strategic International Studies. The study concluded that
military specifications resulted in higher prices for DoD purchases than for
commercial alternatives that could meet the same requirements. Based on the
study and recommendations from an internal DoD process action team, the
Secretary of Defense, on June 29, 1994, directed the Military Departments to
use performance and commercial specifications instead of military specifications
and standards in developing new weapon systems, unless no practical alternative
exists to meet the user’s needs.

Open Systems Initiative. The Secretary of Defense emphasized his
commitment to use performance and commercial specifications and standards in
a June 29, 1994, memorandum, “Specifications & Standards – A New Way of
Doing Business.” To further the goals set out in that memorandum, the
Secretary of Defense directed, on November 22, 1994, that program managers
use “open systems” specifications and standards, such as electrical, mechanical,
and thermal, for the acquisition of weapon systems electronics to the greatest
extent practical. Open system specifications and standards are consensus-based
public or nonproprietary specifications and standards for systems and interfaces
of hardware, software, tools, and architecture. These systems and subsystems
are to be designed, developed, and constructed as open systems during the
acquisition and modification process to reduce life-cycle cost and to facilitate
effective weapon system intra- and interoperability.

Single Process Initiative. In December 1995, the Secretary of Defense
introduced the single process initiative as a means for DoD to start eliminating
costly multiple processes within contractor facilities. He directed that the

                                    73
acquisition community use the integrated product team model to establish a
mechanism for making “block changes” to modify the specifications and
standards for all existing contracts on a facility-wide basis, rather than on a
contract by contract basis. The goal was to consolidate or eliminate multiple
management or manufacturing processes and rely on commercial processes as
much as possible.




                                    74
Appendix L. Effects of DoD Acquisition
            Workforce Reductions
   This appendix provides a detailed discussion of the primary effects of the
   acquisition workforce reductions and the primary improvements associated with
   the acquisition reform initiatives for the 14 DoD acquisition organizations
   visited. Unless otherwise noted, the organizations did not provide data to
   support their comments. See the specific page for the comments from the
   respective organization.

   Office of the Secretary of Defense                               Page
      Defense Logistics Agency                                        76
      Ballistic Missile Defense Organization                          81
   Department of the Army
      Army Materiel Command                                           83
      Army Space and Missile Defense Command                          90
      Army Acquisition Executive                                      94
   Department of the Navy
      Office of the Assistant Secretary of the Navy
         (Research, Development, Acquisition)                         98
      Naval Sea Systems Command                                       99
      Naval Supply Systems Command                                   101
      Office of Naval Research                                       106
      Space and Naval Warfare Systems Command                        108
      Marine Corps Systems Command                                   110
   Department of the Air Force
      Office of the Assistant Secretary of the
         Air Force (Acquisition)                                     111
      Air Force Materiel Command                                     112
      Air Force Program Executive Organization                       116




                                     75
Defense Logistics Agency
    The following discusses the current and potential future impacts on the Defense
    Logistics Agency (DLA) resulting from the reductions in its acquisition
    workforce and the primary improvements associated with the acquisition reform
    initiatives. Table L-1 designates a letter for each of the Agency organizations
    visited. Table L-2 shows the primary current effects of the DoD acquisition
    workforce reductions that the Agency organizations indicated that they
    experienced and correlates those effects with the Agency organizations visited.
    Table L-3 shows the primary improvements associated with the acquisition
    reform initiatives for the Agency organizations visited. Table L-4 shows the
    primary future effects of DoD acquisition workforce reductions that the Agency
    organizations believed they might experience and correlates those effects with
    the Agency organizations visited using the letter designations from Table L-1.
    Following the tables are more detailed discussions of the current and potential
    future impacts and the primary improvements associated with the acquisition
    reform initiatives.

           Table L-1. Letter Designation for Defense Logistics Agency
                              Organizations Visited
                                                                 Letter
       Defense Logistics Agency Organizations                  Designation

    Defense Logistics Agency Headquarters                                  A
    Defense Contract Management Command Headquarters                       B
    Defense Contract Management Command Philadelphia                       C
    Defense Supply Center Philadelphia                                     D

Current Impact
      Table L-2. Current Impact of the Acquisition Workforce Reductions for
                the Defense Logistics Agency Organizations Visited

            Current Impact of                                   Defense Logistics
       Acquisition Workforce Reductions                        Agency Organizations
    Insufficient staff to manage requirements                        A B C D
    Reduced scrutiny and timeliness in reviewing
       acquisition actions                                           A B C D
    Personnel retention difficulty                                     B C D
    Some skill imbalances                                            A B C D

    The primary current impacts of the acquisition workforce reductions for the
    Agency organizations visited as shown in Table L-1 are discussed below.

    Insufficient Staff to Manage Requirements. All four DLA organizations
    indicated that they have insufficient staff to manage requirements as result of
    acquisition workforce reductions. DCMC has attempted to accommodate all
    workforce reductions by implementing acquisition reform initiatives and by

                                        76
using assessment and risk management practices and other initiatives. However,
DCMC stated that an increased risk exists because of continued workforce
reductions. For example, many of its customers have expressed concern that
the risk is too high. A review of its operations recommended that DCMC
significantly increase its engineering and quality assurance presence in plants
producing space launch vehicles to reduce program and process risk. DCMC
addressed the reduced oversight of contractors as an area of concern in its
annual statement of assurance.

Reduced Scrutiny and Timeliness In Reviewing Acquisition Actions. All
four DLA organizations stated that they decreased oversight of contractors who
historically performed well, and increased oversight of contractors who
historically performed marginally. In this regard, DCMC commented that some
contractors stated that when DCMC stopped performing inspections of all
products, so did the contractors. As a result of the lack of inspections and
recent failures with hardware in the Space Program, DCMC is concerned that it
may have reduced its quality assurance program too much. Also, DLA stated
that customer complaints about the quality of material received has increased;
however, it has placed less emphasis on responding to the customer complaints
because of acquisition workforce reductions.

Personnel Retention Difficulty. Three of the four DLA organizations stated
that retention of personnel is difficult because employees, especially younger
individuals, do not see a future in the DoD acquisition workforce; therefore, it
is difficult to attract and retain employees. In this regard, DCMCP stated that
the lack of promotional opportunities had an adverse affect on morale that
resulted in some employees obtaining jobs with private industry. Further,
employees were working uncompensated overtime due to workforce reductions
and an increased workload.

Some Skill Imbalances. All four DLA organizations stated that at least
78 percent of their workforce was acquisition certified under the Defense
Acquisition Workforce Improvement Act; however, workforce skill imbalances
existed. Specifically, DCMC stated that it has a shortage of civilian engineers
among its activities near California’s Silicon Valley because Government
engineer salaries are not competitive with the private sector. The Defense
Supply Center Philadelphia (DSCP) stated that it needed fewer general facility,
equipment, and quality assurance specialists and no longer needed supply
catalogue specialists. Consequently, DSCP was retraining those personnel in
the overstaffed and unneeded billets.




                                   77
Primary Improvements Associated with Acquisition Reform
  Initiatives
       Table L-3. Primary Improvements Associated with Acquisition Reform
     Initiatives Identified by the Defense Logistics Agency Organizations Visited

                                                               Defense Logistics
       Improvement Description                                Agency Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                          A           D
    Improved efficiency and economy in contracting
      through the use of simplified acquisition threshold
      ($100,000 or less) and reengineered procedures
      (over $100,000)                                               A B C D

    The primary improvements associated with acquisition reform initiatives
    identified for the Agency organizations visited as shown in Table L-1 are
    discussed below.

    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. Two of the four DLA organizations stated that the implementation of
    the credit card program significantly improved the processing of transactions of
    $2,500 or less. The credit card program shifted the workload for the small
    dollar, less complex, procurement actions, from the acquisition workforce to the
    operational workforce. For example, DLA cardholders numbered
    3,529 through the end of FY 1999. However, DLA stated that many of its
    contractors did not want to be paid by credit card because of the fees that the
    credit card companies levied.

    Improved Efficiency and Economy In Contracting Through The Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). All four DLA organizations stated that they
    improved business practices and reduced the acquisition workforce as a result of
    using simplified acquisition procedures. For example, the Defense Contract
    Management Command (DCMC) stated that it was able to reduce quality
    assurance and technical billets as a result of using quantitative data analysis
    instead of strict product inspections. Also, DLA stated that it reduced its
    surcharge to users from 28.7 percent in FY 1996 to 19.8 percent in FY 1999 by
    implementing commercial buying practices.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that DLA organizations believed they might experience are listed in Table L-3.
    The table correlates those effects with DLA organizations visited using the letter
    designations from Table L-1.


                                        78
     Table L-4. Potential Future Impact of the Acquisition Workforce
     Reductions for the Defense Logistics Agency Organizations Visited

      Potential Future Impact of                            Defense Logistics
   Acquisition Workforce Reductions                        Agency Organizations

Impairment of ability to accomplish mission                        B C D
Impairment to workforce morale                                     B C D
Reduction in contract oversight                                  A B C
Increased program costs and contracting for support              A
Inability to hire and retain employees                             B C D

The primary potential future impacts of the acquisition workforce reductions for
the Agency organizations visited as shown in Table L-1 are discussed below.

Impairment of Ability to Accomplish Mission. Three of the four DLA
organizations stated that further reductions in their acquisition workforce would
adversely impact their ability to perform their mission. For example, DCMC
stated that it would focus on highest risk or statutorily required processes and
oversight, and would not be able to fully accomplish lower risk areas.

Impairment to Workforce Morale. Three of the four DLA organizations
stated that future workforce reductions may result in lower workforce morale.
For example, DCMC stated that the stress of maintaining DoD readiness,
sustaining a high operational tempo, and supporting contingency operations is
beginning to strain its already reduced workforce.

Reduction In Contract Oversight. Three of four DLA organizations stated
that they would reduce oversight of contracts with further reductions in the
acquisition workforce. For example, DCMC stated that it would continue to
assume greater risk in surveillance areas, such as quality assurance. While
some DCMC functions such as contract payment and closeout might be
adequately staffed, other contract management functions, such as negotiations,
property, termination for convenience, and product inspection, might be
inadequately staffed. Further, DCMC stated that some of its contractors were
concerned about the adequacy of future contract administration, such as
inspection of materials, undefinitized contractual actions, contract close outs,
and problem resolutions because of acquisition workforce reductions.

Increased Program Costs and Contracting for Support. One of the
four DLA organizations stated that its contractor support is often significantly
more costly than using the existing acquisition workforce because the contract
support requires expensive up-front training and government leadership.
Further, the organization stated that its contractor support personnel find other
employment shortly after the organization trains them because of the low
unemployment rate in the private sector.

Inability to Hire and Retain Employees. Three of four DLA organizations
stated that they will have difficulty attracting and retaining new employees. For
example, DSCP stated that it may be unable to hire sufficient employees to
replace retirement eligible employees. DSCP will attempt to fill the vacancies

                                    79
by various methods, such as recruiting through the “Outstanding Scholars”
program and using upward mobility job opportunity announcements. Further,
DSCP stated that the average age of their workforce is 47 years and that they
may lose core competencies, such as general business, industrial, production
control, and program management specialists. Data at DSCP indicated that
54 percent of its acquisition workforce is eligible to retire by the end of
FY 2004.




                                  80
Ballistic Missile Defense Organization
     The following discusses the current and potential future impacts on the Ballistic
     Missile Defense Organization (BMDO) resulting from the reductions in its
     acquisition workforce and the primary improvements associated with the
     acquisition reform initiatives.

Current Impact
     Personnel Retention Difficulty. BMDO stated that personnel retention and the
     increased workload of the acquisition workforce is a concern. BMDO stated
     that the reduced job stability and the uncertainty of future workforce reductions
     has contributed to the migration of the workforce to private industry or other
     segments of the Government. Further, BMDO stated that the increased
     workload and resulting overtime was having an adverse impact on the
     workforce. BMDO stated, “You can see it [the increased workload] in their
     faces along with the elements of stress.” BMDO stated that the increased
     workload is supported by an increase in overtime and compensatory time,
     however, much of the overtime is not reported, particularly at the supervisory
     and management levels.

     Some Skill Imbalances. BMDO stated that 72 percent of its acquisition
     workforce was acquisition certified under the Defense Acquisition Workforce
     Improvement Act by the end of FY 1999; however, skill imbalances existed.
     BMDO stated that most Navy personnel were not acquisition certified before
     assignment to BMDO. Further, BMDO stated that the remainder of its
     workforce was unable to obtain acquisition certification primarily because of an
     increase in workloads and the unavailability of classes at the Defense
     Acquisition University.

Primary Improvements Associated with Acquisition Reform
  Initiatives
     Improvement in Processing Transactions of $2,500 or Less by Using Credit
     Cards. BMDO stated that implementation of the credit card program
     significantly reduced the time between ordering an item and receiving that item.
     The credit card program shifted the workload from the acquisition workforce to
     the operational workforce for the small dollar, less complex, procurement
     actions, such as office supplies. BMDO stated that its cardholders increased
     from 3 in FY 1996 to 10 in FY 1999.

     Improved Efficiency and Economy In Contracting Through the Use of
     Simplified Acquisition Threshold ($100,000 or less) and Reengineered
     Procedures (over $100,000). BMDO stated that its procurement action lead
     time was significantly reduced by implementing a simplified process to



                                         81
    accelerate the source selection method. As a result, BMDO was able to reduce
    its procurement action lead time from 122 days in FY 1997 to 56 days in
    FY 1999.

Potential Future Impact
    Impairment of Ability to Accomplish Mission. BMDO that future reductions
    in the acquisition workforce would have an adverse impact on fielding ballistic
    missile defense systems. BMDO stated that, although Congress has allocated
    over $10 billion for the National Missile Defense System and allocated
    additional full-time equivalents to support this effort for Government oversight
    and management of this program, any further reductions would hamper this
    acquisition program. Additionally, BMDO stated that further reductions would
    cause a dwindling of potential qualified candidates to fill vacant acquisition
    positions and largely would impact program management, engineering, and
    contracting functions.

    Impairment to Workforce Morale. BMDO stated that continued actions to
    reduce the workforce would have a demoralizing impact on the present
    workforce. BMDO stated that some personnel have vocalized reluctance or
    apprehension to become members of the acquisition workforce if reductions
    continue. Additionally, BMDO stated that, based on feedback from “Town
    Hall” meetings, employees are concerned about the workforce reductions and
    many feel that they will continue to not have enough time to do a good job.
    BMDO also stated that the increased workload and resulting overtime may have
    an adverse impact on workforce morale.




                                       82
Army Materiel Command
    The following discusses the current and potential future impacts on the Army
    Materiel Command (AMC) resulting from the reductions in its acquisition
    workforce and the primary improvements associated with the acquisition reform
    initiatives. Table L-5 designates a letter for each of the AMC organizations
    visited. As of December 1999, AMC consisted of eight major subordinate
    commands, of which we visited the Aviation and Missile Command. Table L-6
    shows the primary current effects of the DoD acquisition workforce reductions
    that the AMC organizations indicated that they experienced and correlates those
    effects with the AMC organizations visited. Table L-7 shows the primary
    improvements associated with the acquisition reform initiatives for the AMC
    organizations visited. Table L-8 shows the primary future effects of DoD
    acquisition workforce reductions that the AMC organizations believed they
    might experience and correlates those effects with the AMC organizations
    visited using the letter designations from Table L-5. Following the tables are
    more detailed discussions of the current and potential future impacts and the
    primary improvements associated with the acquisition reform initiatives.

                    Table L-5. Letter Designation for Army Materiel
                            Command Organizations Visited
                                                                              Letter
        Army Materiel Command Organizations                                 Designation

    Army Materiel Command Headquarters                                             A
    Aviation and Missile Command
      Acquisition Center                                                          B
      Competition Management Office                                               C
      Integrated Materiel Management Center                                       D
      Research, Development, and Engineering Center1                              E
      Short Range Air Defense Project Office                                      F




    1
     On October 1, 1999, the Army formed the Research, Development, and Engineering Center at
    the Aviation and Missile Command by combining the Aviation Research, Development, and
    Engineering Center with the Missile Research, Development, and Engineering Center, both at
    the Aviation and Missile Command.


                                            83
Current Impact
     Table L-6. Current Impact of the Acquisition Workforce Reductions for
               the Army Materiel Command Organizations Visited

            Current Impact of                                   Army Materiel
       Acquisition Workforce Reductions                      Command Organizations

    Increased backlog in closing out completed contracts     A B               F
    Increased program costs resulting from contracting
       for technical support versus using in-house
       technical support                                     A          D E F
    Insufficient personnel to fill-in for employees on
       deployment                                                  D
    Insufficient staff to manage requirements                A B C D E F
    Reduced scrutiny and timeliness in reviewing
       acquisition actions                                       B C D E
    Personnel retention difficulty                           A       D E F
    Some skill imbalances                                    A       D E
    Lost opportunities to develop cost savings initiatives             E

    The primary current impacts of the acquisition workforce reductions for the
    AMC organizations visited, as shown in Table L-5, are discussed below.

    Increased Backlog in Closing Out Completed Contracts. Three of the
    six AMC organizations stated that contract close out is given low priority.
    According to the Acquisition Center, the value of missile contracts shipped
    complete but not closed increased from $14 billion to $17 billion between
    FYs 1995 and 1999, and the total value of aviation contracts shipped complete
    but not closed as of the end of FY 1999 was $13.8 billion.
    Increased Program Costs Resulting from Contracting for Technical Support
    Versus Using In-House Technical Support. Four of the six AMC
    organizations stated that staffing shortages caused the Army to contract for
    technical support at rates higher than for in-house matrix support. For example,
    the Research, Development, and Engineering Center (RDEC) and the Integrated
    Materiel Management Center (IMMC) stated that customers requested 141 and
    48 more staff years, respectively, of reimbursable support than those
    organizations could provide in FY 1999. When in-house matrix support is not
    available from the RDEC and IMMC, they must contract for the support.
    Contract labor rates are significantly higher per staff year than rates those
    organizations charged for the same service performed in-house. The RDEC
    stated that contract labor rates for various types of engineering support services
    cost an additional $20,000 to $180,000 per staff year and that it contracted for
    1,200 contract staff years in FY 1999. The IMMC stated it cost between
    $70,000 to $85,000 per staff year for in-house field service representative
    support compared to contracted field service support rates that ranged between
    $122,000 and $273,000 per staff year. The IMMC stated that it contracted for
    about 89 staff years of field service support in FY 1999.


                                        84
Insufficient Personnel to Fill-In for Employees on Deployment. One of the
six AMC organizations, the IMMC, stated that contingency deployments to
Southwest Asia and Western Europe have taken military reservists from the
IMMC for deployments of up to 6 months and that it cannot temporarily replace
the deployed personnel with experienced skilled replacements. As a result, the
IMMC has less staff and less flexibility to respond to requisition and
transportation requests during the contingencies. Further, the IMMC stated that
it lacked staffing during the contingencies to support normal operations and to
fully staff a 24-hour emergency operations center and logistics operations
center.

Insufficient Staff to Manage Requirements. All six AMC organizations stated
that staffing was not adequate to manage requirements. For example, the
IMMC stated that its staffing was reduced 46 percent from over 500 to under
300 billets in supply career fields from FY 1997 through FY 1999. From
FY 1989 through FY 1999, the number of item managers at the IMMC
decreased about 51 percent. During FY 1999, its transportation office staff was
at 65 percent of authorized strength, which was less than 50 percent of that
authorized in prior years. The IMMC stated that weapon system readiness rates
were maintained by concentrating on its critical mission to process requisitions
and new procurements. Consequently, the IMMC gave little attention to other
important supply functions such as:

       •   reviewing assets beyond requirements objectives for disposal action;

       •   reducing backlogs in processing Quality Deficiency Reports and
           Equipment Improvement Reports, estimated in August 1999 to be
           1,679 staff hours; and

       •   processing technical database changes, corrections, and updates to
           the logistics system to assure asset management requirements
           determination and maintenance actions are valid and effective to
           support user and field requirements.

For another example, the Acquisition Center stated that it had to eliminate its
dedicated pricing division, its aviation logistics production management group,
and many administrative personnel. The Acquisition Center stated that about
80 percent of the value of its contract awards in FY 1998 and FY 1999 were on
procurement actions exceeding $1 million, most of them sole source that
required intense evaluation, negotiation, and management. To compensate for
the reduction in staff, the Acquisition Center had to reassign the work of those
individuals to contract specialists. Consequently, the loss of expertise has
impacted its:

       •   efforts to develop price analyses in a timely manner;
       •   support of the source selection boards, multiple procurement actions,
           and contractor assessments; and

       •   ability to provide centralized pickup and storage of technical data and
           distribution of solicitations, technical data, and contracts.

                                    85
    Reduced Scrutiny and Timeliness in Reviewing Acquisition Actions. Four of
    the six AMC organizations stated that the level and extent of supervisory review
    had been reduced and supervisor to employee ratios had increased significantly.
    For example, the IMMC stated that its supervisor to employee ratio in some
    cases is as high as 1 to 70. Further, the RDEC stated that it must use
    contractors as decisionmaking lead system engineers at one of its directorates
    because it has too few high-grade Government lead engineers. The Acquisition
    Center stated that it reduced its oversight of the procurement function,
    increasing the risk that contracting actions were not properly executed.

    Personnel Retention Difficulty. Four of the six AMC organizations stated that
    retention is difficult because employees see advancement opportunities in project
    offices or private industry. The IMMC and the RDEC also stated that
    workforce reductions have hurt employee morale. For example, the IMMC
    stated that personnel cuts have constrained promotional opportunities, and have
    increased leave usage, complaints, and grievances.

    Some Skill Imbalances. Three of the six AMC organizations stated that they
    have lost smart-buyer expertise and are no more than one deep in many skills.
    For example, the RDEC stated that it did not have a sufficient number of
    engineers in software, information technology, simulation, system engineering,
    missile guidance and control, or aviation airworthiness.

    Lost Opportunities to Develop Cost Savings Initiatives. One of the six AMC
    organizations stated that workforce reductions have reduced its efforts in several
    high-payoff activities such as parts control and management, modeling and
    simulation, and value engineering. For example, the RDEC estimated that it
    lost an opportunity to achieve an estimated $20 million to $50 million in annual
    value-engineering savings because of cut backs to its value-engineering
    workshops from 10 or 12 per year to only one in FY 1999.

Primary Improvements Associated with Acquisition Reform
  Initiatives
      Table L-7. Primary Improvements Associated with Acquisition Reform
    Initiatives Identified by the Army Materiel Command Organizations Visited

                                                               Army Materiel
       Improvement Description                              Command Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                   A B C          E
    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                             A B                F

    The primary improvements associated with acquisition reform initiatives
    identified for the AMC organizations visited as shown in Table L-5 are
    discussed below.

                                        86
    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. Four of the six AMC organizations commented that credit card program
    implementation offset some of the impact of workforce reductions. Specifically,
    they indicated that the credit card program shifted the workload for small dollar
    value, less complex, procurement actions, from the Acquisition Center to card
    holders in the Aviation and Missile Command operating units and simplified
    ordering and expedited receipt of supplies. For example, the Research,
    Development, and Engineering Center’s initial statistics showed that the Center
    reduced its procurement cycle times from an average of 11 months to 6 weeks
    for its purchases.

    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). Three of the six AMC organizations stated that
    the simplified acquisition threshold and procedures have been beneficial. For
    example, the Acquisition Center commented that the simplified acquisition
    procedures have streamlined the purchase of test equipment and other support
    items and services for Redstone Arsenal tenant organizations.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that AMC organizations believed they might experience are listed in Table L-8.
    The table correlates those effects with the AMC organizations visited using the
    letter designations from Table L-5.

         Table L-8. Potential Future Impact of the Acquisition Workforce
         Reductions for the Army Materiel Command Organizations Visited

          Potential Future Impact of                             Army Materiel
       Acquisition Workforce Reductions                       Command Organizations
    Impairment of ability to accomplish mission                A B C D E F
    Increased administrative and procurement lead times        A B   D
    Impairment to workforce morale                             A B C D E F
    Increase in backlog of contracts not closed out            A B       F
    Reduction in contract oversight                            A B     E
    Increased program costs and contracting for support        A     D E F
    Reduction in ability to do market research                     C
    Inability to hire and retain employees                     A B   D E

    Discussion of the primary potential future impacts of the acquisition workforce
    reductions for the AMC organizations visited as shown in Table L-5 follow.

    Impairment of Ability to Accomplish Mission. All six AMC organizations
    stated that continued reductions in their staffs will make it increasingly difficult
    to accomplish their missions. For example, the IMMC believed that it cannot
    sustain additional reductions without hiring additional contractor support.
    Without additional contractor support, inventory requirements studies may be
    backlogged; technical processing time may be lengthened, which may decrease

                                         87
competition and increase contract costs; foreign military sales support may be
severely impacted; updates to field manuals may be delayed; and technology
insertion and modifications may be delayed.

Increased Administrative and Procurement Lead Times. Three of the
six AMC organizations stated that procurement cycle times have declined as a
result of the Army implementing contracting initiatives; however, they
anticipate that the procurement cycle times may increase as a result of further
acquisition workforce reductions without a corresponding reduction in the
workload. For example, AMC has reduced administrative and procurement
lead times for spare parts by using flexible long-term contracts, electronic
ordering by item managers, direct vendor delivery, and teaming with industry;
however, AMC believes that its contracting workload will stay constant or
increase in the future and that its contracting staff will take longer to award
contracts as the result of further workforce reductions.

Impairment to Workforce Morale. All six AMC organizations stated that
morale will suffer because of limited opportunities for career advancement.

Increase in Backlog of Contracts Not Closed Out. Three of the six AMC
organizations believed that the backlog of contracts not closed out will increase
as a result of workforce reductions. For example, the Acquisition Center stated
that its staff is to be reduced from 678 authorized positions in FY 1999 to 505 in
FY 2005, which will cause the backlog of delivery complete but not closed-out
contracts to increase. The Acquisition Center also stated that it had over
$100 billion in active and delivery complete contracts, as of August 1999, that
will have to be closed out in the future, and that it will continue to award about
$5 billion annually.

Reduction in Contract Oversight. Three of the six AMC organizations stated
that reductions in Government personnel have resulted in less oversight of
contracts. For example, the RDEC stated that it reduced the amount of time
spent reviewing prime contractor designs and relies more on the thoroughness of
contractor designs.

Increased Program Costs and Contracting for Support. Four of the
six AMC organizations stated that further reductions of authorized positions will
lessen their ability to adequately support their customers, even with a higher
level of contracting for support services. For example, the RDEC and the
IMMC stated that contracting for support services is not a good option because
it normally costs more than comparable in-house matrix support, and increases
program costs. Further, the RDEC stated that customers can pay an additional
$20,000 to $30,000 per contract work year for production engineering
journeyman level support and at least $50,000 per work year extra for a project
leader for production engineering. The RDEC also commented that planning,




                                    88
coordination, direction, and monitoring of technical management functions
cannot be typically delegated to contractor personnel because of the inherently
Government nature of these functions.

Reduction in Ability to Do Market Research. One of the six AMC
organizations stated that, if the organization incurs additional cuts, it will not be
able to do the market research needed to qualify more missile and aviation spare
parts vendors for business with the Aviation and Missile Command. As a
result, the organization believes that the vendor base for missile and aviation
spare parts will shrink and prices for those spare parts may increase.

Inability to Hire and Retain Employees. Four of the six AMC organizations
stated they are in danger of losing core competencies. In addition, three of the
AMC organizations stated that the average age of its workforce is over 44 years.
For example, the Acquisition Center stated that the average age of its
contracting personnel is 47 years and 50 percent of its employees are eligible to
retire within the next 3 years. Additionally, the Acquisition Center cannot hire
a sufficient number of interns to train to replace retirement eligible contracting
employees in the next 4 or 5 years.




                                     89
Army Space and Missile Defense Command
    The following discusses the current and potential future impacts on the Army
    Space and Missile Defense Command (SMDC) resulting from the reductions in
    its acquisition workforce and the primary improvements associated with the
    acquisition reform initiatives. Table L-9 designates a letter for each of the
    SMDC organizations visited. Table L-10 shows the primary current effects of
    the DoD acquisition workforce reductions that the SMDC organizations
    indicated that they experienced and correlates those effects with the SMDC
    organizations visited. Table L-11 shows the primary improvements associated
    with the acquisition reform initiatives for the SMDC organizations visited.
    Table L-12 shows the primary future effects of DoD acquisition workforce
    reductions that the SMDC organizations believed they might experience and
    correlates those effects with the SMDC organizations visited using the letter
    designations from Table L-9. Following the tables are more detailed discussions
    of the current and potential future impacts and the primary improvements
    associated with the acquisition reform initiatives.

           Table L-9. Letter Designation for Army Space and Missile
                    Defense Command Organizations Visited
                                                              Letter
    Army Space and Missile Defense Command Organizations    Designation

    Acquisition Center                                                   A
    Battle Laboratory                                                    B
    Contracting and Acquisition Management Office                        C
    Resource Management Office                                           D
    Strategic Planning and Analysis Office                               E

Current Impact
     Table L-10. Current Impact of the Acquisition Workforce Reductions for
       the Army Space and Missile Defense Command Organizations Visited

                                                             Army Space and
            Current Impact of                                 Missile Defense
       Acquisition Workforce Reductions                    Command Organizations
    Increased backlog in closing out completed contracts             C
    Insufficient staff to manage requirements                 A
    Reduced scrutiny and timeliness in reviewing
       acquisition actions                                           C D

    Discussion of the primary current impacts of the acquisition workforce
    reductions for the five SMDC organizations visited as shown in Table L-9
    follows.

    Increased Backlog in Closing Out Completed Contracts. One of the
    five SMDC organizations commented that the backlog of delivery complete but

                                       90
    not closed contracts has increased from 662 contracts as of September 1995, to
    795 contracts as of September 1999, because contracting personnel lack the time
    to close out contracts.

    Insufficient Staff to Manage Requirements. One of the five SMDC
    organizations commented that congressional reductions to funds for advisory and
    assistance services resulted in a reduction of 6 staff years of system engineering
    and technical assistance support in FY 1998 and 4 staff years in FY 1999. One
    of the project offices within the Acquisition Center stated that the reduction in
    the FY 1998 advisory and assistance services budget resulted in cancellation of
    several risk reduction activities planned for FY 1998 and prevented it from
    obtaining radar surveillance and other technical expertise.

    Reduced Scrutiny and Timeliness in Reviewing Acquisition Actions. Two of
    the five SMDC organizations commented that personnel reductions have caused
    them to scale back quality control functions in the award of contracts and the
    monitoring of contracts. For example, the Contracting and Acquisition
    Management Office stated that pre-and post-negotiation clearances and
    contracting officer approval levels were increased, and that the number of
    internal procurement management reviews were decreased from four to two per
    year.

Primary Improvements Associated with Acquisition Reform
  Initiatives
          Table L-11. Primary Improvements Associated with Acquisition
            Reform Initiatives Identified by the Army Space and Missile
                     Defense Command Organizations Visited

                                                             Army Space and
                                                              Missile Defense
       Improvement Description                             Command Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                             C D
    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                                       C

    The primary improvements associated with acquisition reform initiatives
    identified for the SMDC organizations visited as shown in Table L-9 are
    discussed below.

    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. Two of the five SMDC organizations stated that the Government credit
    card program has improved operations considerably.




                                        91
    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). One of the five SMDC organizations commented
    that a change to the simplified acquisition threshold and procedures, along with
    other initiatives, such as the use of other transaction authority and multiple task
    order contracts has streamlined the acquisition process and permitted the
    Contracting and Acquisition Management Office to process significantly more
    procurement actions in FY 1999 (2,802 actions) with a staff of 60 as compared
    to FY 1994 (2,182 actions) with a staff of 63.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that the five SMDC organizations believed they might experience are listed in
    Table L-12. The table correlates those effects with the SMDC organizations
    visited using the letter designations from Table L-9.

         Table L-12. Potential Future Impact of the Acquisition Workforce
          Reductions for the Army Space and Missile Defense Command
                               Organizations Visited

                                                               Army Space and
          Potential Future Impact of                            Missile Defense
       Acquisition Workforce Reductions                      Command Organizations

    Impairment of ability to accomplish mission                  A B
    Increased administrative and procurement lead times                C
    Impairment to workforce morale                                   B C
    Increase in backlog of contracts not closed out                    C
    Increased program costs and contracting for support                      D
    Discussion of the primary potential future impacts of the acquisition workforce
    reductions for the SMDC organizations visited as shown in Table L-9 follows.

    Impairment of Ability to Accomplish Mission. Two of the five SMDC
    organizations commented that future acquisition workforce reductions would
    impair their ability to accomplish their missions. For example, one of the
    project offices within the Acquisition Center commented that continued
    reductions in its advisory and assistance services may cause delays in
    completing or cancellation of planned acquisition tasks, such as modeling and
    simulation and system engineering.

    Increased Administrative and Procurement Lead Times. One of the
    five SMDC organizations commented that additional personnel reductions may
    increase administrative lead times in getting requirements on contract, will slow
    responses to contractor problems, and will permit less time for personnel to
    support requirements organizations needing assistance in preparing procurement
    packages.


                                        92
Impairment to Workforce Morale. Two of the five SMDC organizations
stated that the morale of their acquisition workforce could be hurt because of
limited opportunities for promotion and result in reduced productivity.

Increase in Backlog of Contracts Not Closed Out. One of the five SMDC
organizations commented that closing out contracts is a low priority. The
Contracting and Acquisition Management Office commented that its backlog of
delivery complete contracts has grown and that it awards about $1.2 billion a
year in new contracts.

Increased Program Costs and Contracting for Support. One of the
five SMDC organizations commented that the Program Budget Guidance
provides for a planned reduction of 82 civilian positions at SMDC between
FYs 1999 and 2003, and more reductions may require additional contracting for
support services.




                                    93
Army Acquisition Executive
    The following discusses the current and potential future impacts resulting from
    the reductions in their acquisition workforce and the primary improvements
    associated with the acquisition reform initiatives on the five Army Acquisition
    Executive organizations visited. Table L-13 designates a letter for each of the
    five Army Acquisition Executive organizations visited. Table L-14 shows the
    primary current effects of the DoD acquisition workforce reductions that the
    Army Acquisition Executive organizations indicated that they experienced and
    correlates those effects with the Army Acquisition Executive organizations
    visited. Table L-15 shows the primary improvements associated with the
    acquisition reform initiatives for the Army Acquisition Executive organizations
    visited. Table L-16 shows the primary future effects of DoD acquisition
    workforce reductions that the five Army Acquisition Executive organizations
    believed they might experience and correlates those effects with the Army
    Acquisition Executive organizations visited using the letter designations from
    Table L-13. Following the tables are more detailed discussions of the current
    and potential future impacts and the primary improvements associated with the
    acquisition reform initiatives.

         Table L-13. Letter Designation for Army Acquisition Executive
                              Organizations Visited
                                                               Letter
       Army Acquisition Executive Organizations              Designation

    Office of the Deputy Assistant Secretary for Plans,
       Programs, and Policy                                               A
    Program Executive Officer Aviation                                    B
    Improved Cargo Helicopter Project Office, Office of
       the Program Executive Officer Aviation                             C
    Program Executive Officer Tactical Missiles                           D
    Multiple Launch Rocket System Project Office, Office of
       Program Executive Officer Tactical Missiles                        E

Current Impact
     Table L-14. Current Impact of the Acquisition Workforce Reductions for
              the Army Acquisition Executive Organizations Visited

             Current Impact of                                Army Acquisition
       Acquisition Workforce Reductions                     Executive Organizations

    Increased backlog in closing out completed contracts              C
    Increased program costs resulting from contracting
       for technical support versus using in-house
       technical support                                           B C D E
    Some skill imbalances                                          B



                                       94
    Discussion of the primary current impacts of the acquisition workforce
    reductions for the five Army Acquisition Executive organizations visited as
    shown in Table L-13 follows.

    Increased Backlog in Closing Out Completed Contracts. One of the
    five Army Acquisition Executive organizations commented that, because of
    DCMC staff reductions, DCMC has experienced delays in closing out
    87 delivery complete Improved Cargo Helicopter Program contracts, in some
    cases in excess of 10 years after final delivery of goods or services. If
    additional funding is required to close out the old contracts, the Improved Cargo
    Helicopter Project Office will have to use its current year program funds, which
    will have a severe impact on its ability to execute its current acquisition
    program.
    Increased Program Costs Resulting from Contracting for Technical Support
    Versus Using In-House Technical Support. Four of the five Army
    Acquisition Executive organizations stated that the Integrated Materiel
    Management Center and the Research, Development, and Engineering Center,
    both at the Aviation and Missile Command, did not have enough core staff to
    provide Government matrix engineering and logistics management support to the
    Offices of the Program Executive Officers for Aviation and Tactical Missiles.
    Consequently, those Offices acquired engineering and logistics management
    support services from contractors at rates higher than Government in-house
    matrix support.

    Some Skill Imbalances. One of the five Army Acquisition Executive
    organizations commented that the Army has traditionally relied on voluntary
    separations through use of Voluntary Early Retirement Authority or Voluntary
    Separation Incentive Program to reduce its workforce, which has caused
    shortages in some core skills and surpluses in other skills in the acquisition
    workforce.

Primary Improvements Associated with Acquisition Reform
  Initiatives
         Table L-15. Primary Improvements Associated with Acquisition
         Reform Initiatives Identified by the Army Acquisition Executive
                              Organizations Visited
                                                         Army Acquisition
       Improvement Description                        Executive Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                         B C
    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                                       C




                                       95
    The primary improvements associated with acquisition reform initiatives
    identified for the Army Acquisition Executive organizations visited as shown in
    Table L-13 are discussed below.

    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. Two of the five Army Acquisition Executive organizations commented
    that the implementation of the credit card program offset some of the impact of
    workforce reductions. The Office of the Program Executive Officer Aviation
    stated that the credit card program has resulted in greater efficiency and
    responsiveness, eliminating much administrative time and effort. The Improved
    Cargo Helicopter Project Office stated that the use of Government-wide credit
    cards has been very effective.

    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). One of the five Army Acquisition Executive
    organizations commented that the simplified acquisition thresholds and
    procedures have reduced its contracting workload.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that the Army Acquisition Executive organizations believed they might
    experience are in Table L-16. The table correlates those effects with the Army
    Acquisition Executive organizations visited using the letter designations from
    Table L-13.

        Table L-16. Potential Future Impact of the Acquisition Workforce
       Reductions for the Army Acquisition Executive Organizations Visited

          Potential Future Impact of                          Army Acquisition
       Acquisition Workforce Reductions                     Executive Organizations

    Impairment of ability to accomplish mission                A     C   E
    Impairment to workforce morale                                 B C   E
    Increase in backlog of contracts not closed out                  C
    Reduction in contract oversight                                B   D E
    Increased program costs and contracting for support            B   D E
    Inability to hire and retain employees                     A

    Discussion of the primary potential future impacts of the acquisition workforce
    reductions for the Army Acquisition Executive organizations visited, as shown
    in Table L-13 follows.

    Impairment of Ability to Accomplish Mission. Three of the five Army
    Acquisition Executive organizations commented that any future cuts may impair
    their ability to manage their weapon system programs. For example, the
    Deputy Assistant Secretary for Plans, Programs, and Policy believes that the


                                       96
Army will not have the core competencies needed to manage its projected
weapon system requirements and related acquisition budgets because between
FYs1999 and 2005:

       •   planned reductions will reduce the Army acquisition workforce by
           17 percent and

       •   the Army’s projected budgets for research and development and
           procurement will increase by 35 percent.

Impairment to Workforce Morale. Three of the five Army Acquisition
Executive organizations commented that future acquisition workforce reductions
may result in lower morale.
Increase in Backlog of Contracts Not Closed Out. One of the five Army
Acquisition Executive organizations commented that the backlog of contracts not
closed out may continue to grow as a result of future workforce reductions.

Reduction in Contract Oversight. Three of the five Army Acquisition
Executive organizations stated that further acquisition workforce reductions may
result in less time to review prime and support contractor work products and to
monitor the performance of its contractors.

Increased Program Costs and Contracting for Support. Three of the
five Army Acquisition Executive organizations commented that Army
organizations may have to contract more for technical support as further cuts are
made in the core staffs of the program executive office and the Aviation and
Missile Command functional organizations.

Inability to hire and retain employees. One of the five Army Acquisition
Executive organizations commented that:

       •   the average age of the Army acquisition workforce2 is 49 years;

       •   60 percent of its acquisition workforce, which includes personnel
           under the Civil Service Retirement System and Federal Employees
           Retirement System, will be eligible to retire by FY 2005; and

       •   the annual number of interns joining its workforce will not be
           sufficient to replace the retirement eligible employees.




2
Army Acquisition Executive, Army Materiel Command, and Army Space and Missile Defense
Command personnel employed at those organizations, excluding Army depot personnel.


                                     97
Office of the Assistant Secretary of the Navy (Research,
  Development, Acquisition)
     The Office of the Assistant Secretary of the Navy (Research, Development, and
     Acquisition) did not provide comments on current or future impacts resulting
     from acquisition workforce reductions and the primary improvements associated
     with the acquisition reform initiatives. The Office of the Assistant Secretary
     recommended that the major commands could more easily provide examples and
     data to support actual and future impacts resulting from reductions to the Navy’s
     acquisition workforce and the primary improvements associated with the
     acquisition reform initiatives.




                                        98
Naval Sea Systems Command
    The following discusses the current and potential future impacts on the Naval
    Sea Systems Command (NAVSEA) resulting from the reductions in its
    acquisition workforce and the primary improvements associated with the
    acquisition reform initiatives.

Current Impact
    Insufficient Staff to Manage Requirements. NAVSEA stated that acquisition
    certification is a priority and an essential part of employee growth. However,
    NAVSEA stated that sending its personnel to training to obtain DoD acquisition
    certification under the Defense Acquisition Workforce Improvement Act was
    challenging at times because of reduced staffing.

    Personnel Retention Difficulty. NAVSEA stated that several of its best
    employees and interns have left the organization for positions in private industry
    and other government agencies because it had only a limited number of
    vacancies at the higher grade levels.

    Increase in Procurement Action Lead Time. The NAVSEA contracts division
    provided metrics showing a 63 percent increase (67 days) in the procurement
    action lead time for contracts from FY 1993 through FY 1999. From FY 1995
    through FY 1998, the NAVSEA contracts division staff decreased 10 percent
    and the number of contract actions greater than $25,000 increased 25 percent.

    Some Skill Imbalances. The Commander, NAVSEA, implemented the Core
    Equity3 Process in June 1998 to identify the changing focus of its organic
    capabilities. Management is using this process to identify core functions that
    must be maintained to meet mission needs and to achieve a unified corporate
    alignment within NAVSEA. The core equity concept dictates what positions
    continue or decrease.

Primary Improvements Associated with Acquisition Reform
  Initiatives
    Improvement in the processing of transactions of $2,500 or less using credit
    cards. The NAVSEA contracts division stated that the credit card program has
    had an negligible impact on their acquisition workforce. The number of credit
    card transactions has increased significantly, from less than 1,000 in FY 1996


    3
     Core equity is a critical capability and the quantity and means to sustain that capability required
    for the continuing performance of key functions to the Naval Sea Systems Command, Navy, and
    Joint Missions. Core equity includes skills, facilities, knowledge, and experience.



                                                99
    and FY 1997 to greater than 5,000 transactions in FY 1998 and FY 1999, and
    the value of those transactions ($2.6 million in FY 1999) amounts to about
    0.02 percent of the NAVSEA workload in dollars.

Potential Future Impact
    Inability to Hire and Retain Employees. The NAVSEA contracts division
    stated that it has experienced shortages in its intern program and that the
    shortages will probably continue in the future. The Navy implemented an intern
    program in early 1970 to train college graduates for future contracting positions.
    In 1992, the Defense Acquisition University took over training for DoD. The
    Navy typically hires an intern at the GS-7 grade level and when the employee
    has reached the GS-11 grade level, the employee has achieved a level II
    acquisition certification under the Defense Acquisition Workforce Improvement
    Act. The Navy centrally funds its intern program and bases the number of
    interns admitted into the program on projected need. Contracts personnel stated
    that NAVSEA has experienced higher turnover than programmed and that there
    are fewer interns in the program than needed to fill available vacancies.
    Additionally, because opportunities for advancement above the GS-13 level are
    so limited, interns are leaving before completing the program and graduates are
    taking positions with private industry and other government agencies. As a
    result, future vacancies will not get filled leading to shortages in the NAVSEA
    acquisition workforce.




                                       100
Naval Supply Systems Command
    The following discusses the current and potential future impacts on the Naval
    Supply Systems Command (NAVSUP) resulting from the reductions in its
    acquisition workforce and the primary improvements associated with the
    acquisition reform initiatives. Table L-17 designates a letter for each of the
    NAVSUP organizations visited. Table L-18 shows the primary current effects
    of the DoD acquisition workforce reductions that the NAVSUP organizations
    indicated that they experienced and correlates those effects with the NAVSUP
    organizations visited. Table L-19 shows the primary improvements associated
    with the acquisition reform initiatives for the NAVSUP organizations visited.
    Table L-20 shows the primary future effects of DoD acquisition workforce
    reductions that the NAVSUP organizations believed they might experience and
    correlates those effects with the NAVSUP organizations visited using the letter
    designations from Table L-17. Following the tables are detailed discussions of
    the current and potential future impacts and the primary improvements
    associated with the acquisition reform initiatives.

            Table L-17. Letter Designation for Naval Supply Systems
                         Command Organizations Visited
                                                                Letter
       Naval Supply Systems Command Organizations            Designation

    Naval Supply Systems Command Headquarters                             A
    Naval Inventory Control Point Mechanicsburg                           B
    Fleet Industrial Supply Center San Diego                              C

Current Impact
     Table L-18. Current Impact of the Acquisition Workforce Reductions for
            the Naval Supply Systems Command Organizations Visited

            Current Impact of                                 Naval Supply Systems
       Acquisition Workforce Reductions                      Command Organizations
    Increased program costs resulting from contracting
       for technical support versus using in-house
       technical support                                                  C
    Insufficient staff to manage requirements                         B
    Reduced scrutiny and timeliness in reviewing
       acquisition actions                                           B
    Personnel retention difficulty                                   B
    Some skill imbalances                                          A B C
    Lost opportunities to develop cost savings initiatives           B

    The primary current impacts of the acquisition workforce reductions for the
    NAVSUP organizations visited as shown in Table L-17 are discussed below.



                                        101
Increased Program Costs Resulting from Contracting for Technical Support
Versus Using In-House Technical Support. One of the three NAVSUP
organizations stated that it did not have enough core staff to compensate for the
reduction in acquisition workforce personnel. Specifically, the Fleet Industrial
Supply Center San Diego (the Center) contracted for 3.5 staff-years of support
to supplement its administrative and procurement clerk staff. By using
contractor support, the Center must spend more funds for that support than it
would for comparable Government personnel. The Center is also undergoing
several A-764 reviews, including reviews of its procurement clerical and
assistance personnel. Consequently, the Center may contract for even more of
its acquisition workload.

Insufficient Staff to Manage Requirements. One of the three NAVSUP
organizations stated that staffing was not adequate to manage requirements. The
Naval Inventory Control Point Mechanicsburg (the Control Point) stated that it
placed personnel in positions previously held by other personnel or assigned
additional duties because of the reductions-in-force. Consequently, the Control
Point stated that performance has declined as less experienced personnel are
reassigned to new positions where they may require several years of training
and experience before they can perform at the same level as the personnel who
previously held those positions.

Reduced Scrutiny and Timeliness in Reviewing Acquisition Actions. One of
the three NAVSUP organizations stated that personnel reductions resulted in the
reduction or elimination of select data integrity reviews. The Naval Inventory
Control Point Mechanicsburg (the Control Point) stated that it performed supply
and logistics validations on an exception basis only, increasing the risk of using
erroneous data to make supply and logistics decisions. For example, the
Control Point raised the threshold for performing contract termination reviews
from $10,000 to $25,000. The Control Point also stated that the personnel
reductions significantly impacted reviews of unliquidated obligations. As a
result, the Control Point was not reviewing a large percentage of the
unliquidated obligations or was giving the unliquidated obligations cursory
reviews. Therefore, the accuracy of the status of the Control Point’s ledger
documents may be questionable.

Personnel Retention Difficulty. One of the three NAVSUP organizations
stated that personnel retention is difficult. Specifically, the Naval Inventory
Control Point Mechanicsburg (the Control Point) reported that, in the past few
months, several excellent employees with less than 15 years of Federal service
voluntarily resigned to pursue private sector opportunities. In the meantime, its
workforce continues to age without a balancing influx of new personnel. In
addition, the Control Point has spent time and resources to train new employees
and lost them to competing industry, which represents an additional cost to the
Control Point.
4
 The Commercial Activities Program, commonly referred to as the “A-76 Program,” is a
resource management tool that allows Government managers to compare and make decisions
concerning the relative cost of performing commercial activity type work using Government
employees versus using contract services.



                                        102
    Some Skill Imbalances. All three NAVSUP organizations stated that skill
    imbalances exist. For example, NAVSUP identified skill imbalances.
    NAVSUP was addressing this issue through a strategic plan that includes a data
    call to define the workforce for the next generation. The plan addresses skill
    imbalances, staffing, and diversity issues that could impact NAVSUP in meeting
    its mission. At the Fleet Industrial Supply Center San Diego, the role of the
    contracting officials has changed more to that of a business manager. As a
    result, the contracting officers are in need of additional training in some areas,
    including market research.

    Lost Opportunities to Develop Cost Savings Initiatives. One of the
    three NAVSUP organizations stated that it had difficulty supporting new
    initiatives such as direct vendor deliveries and contractor logistics support
    because of reductions to the acquisition workforce. Further, the organization,
    the Naval Inventory Control Point Mechanicsburg, stopped performing various
    functions and outsourced some functions to the Defense Finance and Accounting
    Service and the Defense Information Systems Agency after the functions were
    regionalized, resulting in increased costs.

Primary Improvements Associated with Acquisition Reform
  Initiatives
          Table L-19. Primary Improvements Associated with Acquisition
            Reform Initiatives Identified by the Naval Supply Systems
                         Command Organizations Visited

                                                             Naval Supply Systems
       Improvement Description                              Command Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                          A B C
    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                                    A B C

    The primary improvements associated with acquisition reform initiatives
    identified for the NAVSUP organizations visited as shown in Table L-17 are
    discussed below.

    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. All three NAVSUP organizations commented that the implementation
    of the credit card program (the program) was successful. For example,
    NAVSUP Headquarters reported that its program shifted micro-purchase
    responsibility to the end user, freeing acquisition personnel to concentrate on
    more complex purchases. However, reconciling the credit card statements is an
    additional workload on the personnel using the credit cards. The program also
    eliminated some of the need for procurement assistance and allowed NAVSUP
    to meet existing mandatory reductions in the acquisition workforce by reducing
    their purchasing employees.

                                       103
    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). All three NAVSUP organizations stated that the
    simplified acquisition procedures have improved efficiency and economy in
    contracting. For example, NAVSUP Headquarters (the Headquarters) reported
    that the acquisition reform initiatives, including simplified acquisition
    procedures, resulted in a more efficient Headquarters workforce by streamlining
    its processing of requirements documents and by enabling it to obtain goods and
    services at a better price, more quickly, and without any degradation in quality.
    Another example, the Fleet Industrial Supply Center San Diego empowered its
    lower level employees to review contracts that were once reviewed by a contract
    review board because of the acquisition reform initiatives.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that the NAVSUP organizations believed they might experience are listed in
    Table L-20. The table correlates those effects with the three NAVSUP
    organizations visited using the letter designations from Table L-17.

        Table L-20. Potential Future Impact of the Acquisition Workforce
     Reductions for the Naval Supply Systems Command Organizations Visited

          Potential Future Impact of                         Naval Supply Systems
       Acquisition Workforce Reductions                     Command Organizations

    Impairment of ability to accomplish mission                        B C
    Increased administrative and procurement lead times                B C
    Impairment to workforce morale                                     B
    Increased program costs and contracting for support                  C
    Inability to hire and retain employees                           A B C
    Discussion of the primary potential future impacts of the acquisition workforce
    reductions for the three NAVSUP organizations visited as shown in Table L-17
    follows.

    Impairment of Ability to Accomplish Mission. Two of the three NAVSUP
    organizations stated that they have generally been able to cope with reductions
    without degradation to mission so far; however, they are concerned that further
    workforce reductions will generate significant impacts to the level of support
    provided to their customers. The Fleet Industrial Supply Center San Diego
    believed that customer satisfaction will decline and that contract close outs will
    become a lower priority as a result of future workforce reductions.

    Increased Administrative and Procurement Lead Times. Two of the
    three NAVSUP organizations stated that procurement lead times declined as a
    result of contracting initiatives; however, they anticipate that the procurement
    lead times may increase as a result of further acquisition workforce reductions
    without a corresponding reduction in the workload. In this regard, the Naval

                                        104
Inventory Control Point Mechanicsburg stated that acquisition and contract
management functions such as acquisition lead time and procurement acquisition
lead time may increase with further reductions in personnel.

Impairment to Workforce Morale. One of the three NAVSUP organizations
visited stated that downsizing has been exceptionally detrimental to morale and
productivity, especially when the budget reductions were made without specific
explanations or across the board. The Naval Inventory Control Point
Mechanicsburg (the Control Point) stated that personnel were very concerned
with future employment and careers and dwelled on this thought, causing a
considerable loss in morale and productivity. The Control Point also stated that
the negative consequences can be seen as some highly trained personnel
voluntarily leave the workforce because of fear of losing their job, causing a
loss of corporate knowledge.
Increased Program Costs and Contracting for Support. One of the
three NAVSUP organizations stated that additional reductions in the workforce
accompanied by A-76 studies could lead to more work being contracted to
support contractors. Specifically, the Fleet Industrial Supply Center San Diego
(the Center) has over 70 percent of its workforce undergoing A-76 reviews.
Although the Center’s acquisition workforce may not be affected because of the
inherently governmental nature of the contracting function, the procurement
clerical and assistance series workforce was being reviewed as part of the A-76
reviews and could be contracted to support contractors.

Inability to Hire and Retain Employees. All three NAVSUP organizations
stated that they had trouble retaining employees because of the large number of
personnel eligible for retirement. The average age of the Naval Inventory
Control Point Mechanicsburg (the Control Point) workforce is 47 years. By
FY 2005, over 30 percent of the Control Point employees will be eligible for
full retirement and nearly 78 percent for early retirement. A similar condition is
true at NAVSUP Headquarters. At the Fleet Industrial Supply Center San
Diego, the average age reported of the acquisition workforce was 48 years, with
19 percent eligible for retirement, and an additional 16 percent eligible for early
retirement in FY 2000. The Control Point is subject to another personnel
reduction and the potential of this event has had a definite negative impact on its
ability to retain quality personnel.




                                   105
Office of Naval Research
     The following discusses current and potential future impacts on the Office of
     Naval Research (ONR) resulting from the reductions in its acquisition workforce
     and the primary improvement associated with the acquisition reform initiatives.

Current Impact
     Increased Program Costs Resulting from Contracting Out for Technical
     Support Versus Using In-House Technical Support. ONR has contracted out
     several support functions. Unable to recruit, hire and retain qualified
     information technology staff within the authorized grade structure, ONR has
     contracted out the majority of its information technology program. Further,
     ONR outsourced its Acquisition Department’s contract file room support, Public
     Affairs Office support functions, and some employee development support
     functions within the Human Resources Office. ONR stated that those
     outsourced functions generally did not result in reduced costs; however, the
     quality of the support service improved. In addition, the ONR Comptroller
     Department used contractor support to conduct unmatched disbursements
     research. Using a mixture of in-house and contract resources, ONR has been
     able to reduce unmatched disbursements for commercial work from
     $183 million to $5 million.

     Insufficient Staff to Manage Requirements. ONR invested in extensive
     reengineering efforts and initiated a wide-reaching effort to automate the
     acquisition process in an effort to counteract anticipated downsizing. These
     reengineering efforts have streamlined both acquisition and financial
     management processes, have expanded its electronic data interchange and
     electronic funds transfer programs, and reduced procurement action lead time,
     without adversely impacting its support to science and technology customers.
     ONR stated that the most adverse impact of the acquisition workforce reductions
     has been to its field administration organizations where the workload has risen
     222 percent since FY 1990, while staffing at those organizations decreased by
     31 percent.

Primary Improvement Associated with Acquisition Reform
  Initiatives
     Improvement in the processing of transactions of $2,500 or less using credit
     cards. For ONR headquarters, the major impact derived from the credit card
     program has been increased flexibility and convenience when making small
     purchases and when paying for peripheral items such as subscriptions and
     training. ONR is also looking at other opportunities for card use, including
     printing and payment for patent fees.




                                       106
Potential Future Impact
    Impairment of Ability to Accomplish Mission. If confronted with additional
    workforce reductions, ONR stated that it would examine opportunities to shift
    non-ONR workload elsewhere. Current ONR policy is to only accept work
    from external organizations that can be leveraged to support ongoing science
    and technology efforts. Further, ONR stated that additional downsizing would
    force it to curtail or terminate services not specifically mandated by statute or
    higher authority that it provided to outside customers.

    Reduction in Contract Oversight. ONR stated that it conducted a review in
    FY 1998 of functions that might be reduced, eliminated, or shifted elsewhere as
    the result of future workforce reductions. ONR stated that the review showed
    that its service and oversight would decrease and that field administrative staff
    would not be able to conduct as many contractor purchasing system reviews5
    and reviews of contractor property control systems6 as mandated by the Federal
    Acquisition Regulation.




    5
     Federal Acquisition Regulation, subpart 44.3, defines the objective of a contractor purchasing
    system review as an evaluation of the efficiency and effectiveness that a contractor spends
    Government funds and complies with Government policy when subcontracting. The review also
    provides the basis for granting, withholding, or withdrawing approval of the contractor’s
    purchasing system.
    6
     Federal Acquisition Regulation, subpart 45.104, requires the contracting officer or the
    representative assigned the responsibility as property administrator to review contractors’
    property control systems to ensure compliance with the Government property clauses of the
    contract. Subpart 5.5 outlines the minimum requirements contractors must meet in establishing
    and maintaining control over Government property.



                                             107
Space and Naval Warfare Systems Command
    The following discusses the current and potential future impacts on the Space
    and Naval Warfare Systems Command (SPAWAR) resulting from the
    reductions in its acquisition workforce and the primary improvements associated
    with the acquisition reform initiatives.

Current Impact
    Increased Program Costs Resulting from Contracting for Technical Support
    Versus Using In-House Technical Support. SPAWAR stated it has had to use
    contractor support because of acquisition workforce reductions. However, the
    use of contractor support has not resulted in savings.

    Insufficient Staff to Manage Requirements. SPAWAR stated that workforce
    reductions have:

           •   increased employee workloads and negatively affected employee
               morale;

           •   resulted in program managers supervising multiple programs, thereby
               negatively impacting program management functions; and

           •   resulted in an inability of the Command to focus on future
               technologies and the integration of these technologies.

    Further, SPAWAR stated that constant travel back and forth to Washington,
    D.C., impacted its ability to manage requirements. As a result, SPAWAR was
    not as productive as it could be because at any given time about one-third of
    SPAWAR personnel was on some type of travel. For example, the SPAWAR
    Commander spent 42.4 percent of his time at SPAWAR and 34.5 percent of his
    time in Washington, D.C., for the period March 16, 1998, to October 23, 1998.

    Some Skill Imbalances. SPAWAR stated that it has a contractor performing a
    study to determine how SPAWAR should be structured and what kind of
    workforce it will need in the future. SPAWAR will use the report to manage its
    current workforce skill mixture and to make decisions on outsourcing to
    compensate for workforce skill imbalances. Further, SPAWAR stated that
    reductions in the workforce and increases in the workload have negatively
    impacted its ability to meet the training requirements for its acquisition
    personnel by negating the availability of personnel for training.

Primary Improvements Associated with Acquisition Reform
  Initiatives
    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. SPAWAR stated that implementation of the credit card program

                                      108
    significantly reduced the time between ordering an item and receiving that item
    for the user. The credit card program shifted the workload from the acquisition
    workforce to the operational workforce for the small dollar, less complex,
    procurement actions, such as office supplies.

    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). SPAWAR stated that its procurement
    administrative lead time was significantly reduced by implementing acquisition
    reform initiatives to accelerate the contracting process. SPAWAR used
    acquisition reform initiatives that included buying commercial items, as
    applicable; draft requests for proposals; and one-on-one meetings with industry.
    As a result, SPAWAR reduced its procurement action lead time for competitive
    procurements by 49 percent and for sole source procurements by 38 percent
    since FY 1996.

Potential Future Impact
    Impairment of Ability to Accomplish Mission. SPAWAR stated that future
    acquisition workforce reductions may make its programs unmanageable,
    preclude execution, and impair the proper performance of some essential
    functions because program offices are already minimally staffed.

    Increased Program Costs and Contracting for Support. SPAWAR stated
    that it planned to increase the outsourcing of work that is not inherently
    governmental. Specifically, SPAWAR stated that by outsourcing work, such as
    engineering, it can maintain a constant workload for its workforce as its
    workforce is reduced.

    More Streamlined and Efficient Contracting Processes. SPAWAR was in the
    process of consolidating over 50 support contracts. SPAWAR had several plans
    for reducing acquisition cycle times, including corporate contracting, a standard
    procurement system, paperless acquisition, a procurement performance
    management assessment program, and an expanded business opportunities web
    page. Streamlining the corporate contracting process should reduce the number
    of contracts, the duplication of contracts, administration and acquisition lead
    time, management oversight, operating costs, and stovepipe or stand-alone
    operations.




                                       109
Marine Corps Systems Command
    The following discusses the current and potential future impacts on the Marine
    Corps Systems Command (MCSC) resulting from the reductions in its
    acquisition workforce.

Current Impact
    Increased Program Costs Resulting From Contracting for Technical
    Support Versus Using In-House Technical Support. MCSC obtained
    contractor support because it lacked in-house technical support in logistics
    management, administration and program, computer specialists, and general
    engineer skill categories. MCSC stated that it could not claim any overall
    savings because the contractor cost to perform the work always exceeded the
    budget given to perform the work.

    Insufficient Staff to Manage Requirements. The MCSC Program Manager
    for Transportation and Engineering Systems stated that his personnel
    authorization had decreased by 40 percent since FY 1995. As a result, the
    Program Manager had to rely on a support contractor to complete acquisition
    documentation that would normally be completed by Government personnel.
    The support contractor also completed all presentation material and acquisition
    documentation to include analysis of alternatives and life-cycle cost estimates.
    MCSC stated that it employed contractor support to resolve unliquidated
    obligations because of acquisition workforce reductions.

Potential Future Impact
    Impairment of Ability to Accomplish Mission. The MCSC program
    managers stated that, if any additional workforce reductions occur, they would
    resort to greater use of contractors, restructure of programs to accommodate
    workforce levels, and request program cancellations to permit successful
    execution of a reduced number of programs.

    Increase in Procurement Action Lead Time. MCSC stated that if the
    workload did not decrease or continues to increase, as it has for the last two
    years, the lead time would lengthen to the point where it would neither be able
    to effectively award contracts within the time constraints imposed by the budget
    cycle nor be responsive to the requirements of the active forces.




                                       110
Office of the Assistant Secretary of the Air Force
  (Acquisition)
     The following discusses the current and potential future impacts on the Office of
     the Assistant Secretary of the Air Force (Acquisition) (the Office) resulting from
     the reductions in the Air Force acquisition workforce and the primary
     improvement associated with the acquisition reform initiatives.

Current Impact
     Some Skill Imbalances. The Office concluded that the Air Force had generally
     done a good job managing the acquisition workforce reductions. However, the
     attrition method that the Air Force used to meet the congressionally mandated
     acquisition workforce goals contributed to some mismatch between acquisition
     workforce’s skills and the skills that the Air Force needed its acquisition
     workforce to possess. The attrition method also distorted hiring patterns during
     the workforce downsizing that contributed to the creation of a workforce with
     high-average years of service and an increasing percentage of the workforce
     eligible for retirement. The Air Force was studying these trends; however,
     future acquisition workforce reductions may have to be accomplished with
     targeted reductions-in-force to prevent further workforce skill imbalances caused
     by attrition-based workforce reductions. The Office emphasized that the aging
     workforce may create a critical lack of skills and experience during the next
     5 years.

Primary Improvement Associated with Acquisition Reform
  Initiatives
     Improved Efficiency and Economy In Contracting Through the Use of
     Simplified Acquisition Threshold ($100,000 or less) and Reengineered
     Procedures (over $100,000). The Office stated that the simplified acquisition
     procedures had significantly reduced the time required for the program offices
     to accomplish source selections that met the Federal Acquisition Regulation
     criteria. The simplified acquisition procedures facilitated the Air Force’s
     adjustment to directed reductions in its acquisition workforce.

Potential Future Impact
     Inability to Hire and Retain Employees. The Air Force is studying the issue
     of a workforce with high average years of service and high retirement eligibility
     to identify adverse trends, such as an increase in workforce skill imbalances and
     the further reduction in opportunities to hire younger employees with needed
     skills.



                                        111
Air Force Materiel Command
    The following discusses the current and potential future impacts on the
    Air Force Materiel Command (AFMC) resulting from the reductions in its
    acquisition workforce and the primary improvements associated with the
    acquisition reform initiatives. Table L-21 designates a letter for each of the
    AFMC organizations visited. Table L-22 shows the primary current effects of
    the DoD acquisition workforce reductions that the AFMC organizations
    indicated that they experienced and correlates those effects with the AFMC
    organizations visited. Table L-23 shows the primary improvements associated
    with the acquisition reform initiatives for the AFMC organizations visited.
    Table L-24 shows the primary future effects of DoD acquisition workforce
    reductions that the AFMC organizations believed they might experience and
    correlates those effects with the AFMC organizations visited using the letter
    designations from Table L-16. Following the tables are more detailed
    discussions of the current and potential future impacts and the primary
    improvements associated with the acquisition reform initiatives.

              Table L-21. Letter Designation for Air Force Materiel
                          Command Organizations Visited
                                                                Letter
       Air Force Materiel Command Organizations               Designation

    Air Force Materiel Command Headquarters                              A
    Aeronautical Systems Center                                          B
    Oklahoma City Air Logistics Center                                   C
    Reconnaissance System Program Office                                 D
    Training Systems Product Group                                       E
    Subsystem Systems Program Office                                     F

Current Impact
     Table L-22. Current Impact of the Acquisition Workforce Reductions for
             the Air Force Materiel Command Organizations Visited

            Current Impact of                                Air Force Materiel
       Acquisition Workforce Reductions                    Command Organizations

    Increased program costs resulting from contracting
       for technical support versus using in-house
       technical support                                       B C
    Personnel retention difficulty                           A   C
    Some skill imbalances                                    A B               F

    Discussion of the primary current impacts of the acquisition workforce
    reductions for the AFMC organizations visited as shown in Table L-21 follows.



                                      112
Increased Program Costs Resulting from Contracting for Technical Support
versus Using In-House Technical Support. Two of the six AFMC
organizations stated that staffing shortages caused them to contract for
specialized workers. Generally, the AFMC organizations were satisfied with
the contract worker support they received. Opinions, as to the cost impact of
contractor provided workers, were varied. Contract workers were thought to be
more costly on a program basis but less costly when evaluated from an overall
Government career and retirement cost perspective. The AFMC organizations
did not provide any cost comparisons between in-house and contractor provided
workers. With some types of skills, such as cost analyst, the organizations
preferred Government estimators because of the specific program expertise they
gained over time, which was useful to the organization. However, the
organizations stated that they had no preference between using Government and
contractor workers for most other skills.
Personnel Retention Difficulty. Two of the six AFMC organizations indicated
that they experienced or will experience retention problems. The AFMC
Headquarters stated that retention of some military grades was becoming a
problem. For example, the AFMC Headquarters stated that it was having
problems filling mid-grade military officer positions because too few were
remaining in the military service. Another organization, the Oklahoma City Air
Logistics Center, stated that 38 members of its civilian management staff would
be eligible for retirement within the next 3 years and that the institutional
knowledge base would be degraded once those managers retired.

Some Skill Imbalances. Three of the six AFMC organizations stated that the
use of attrition to accomplish the acquisition workforce reductions contributed to
the demographic distortion of the workforce. The AFMC acquisition workforce
was skewed towards workers with high-average years of experience, many with
skills that were no longer needed for accomplishing the current acquisition
workload. The organizations stated that the current workforce was not balanced
correctly for the way that AFMC was organized to conduct business. The
organizations also stated that they needed workers with new skills, and that they
needed additional personnel management tools to shape the existing workforce
to achieve the necessary workforce balance and skill mix. For example, the
Aeronautical Systems Center stated that it did not have a sufficient number of
contract, cost analyst, and financial personnel to staff its integrated product
teams. In addition, it was no more than one deep in many skills needed on the
integrated product teams. Accordingly, it began using engineers as program
managers for managing some of their smaller development program
acquisitions. AFMC was conducting a study to identify the acquisition
workforce skill imbalances and the mix of skills needed for its centers to
manage acquisition efforts in the future.




                                   113
Primary Improvements Associated with Acquisition Reform
  Initiatives
         Table L-23. Primary Improvements Associated with Acquisition
         Reform Initiatives Identified by the Air Force Materiel Command
                               Organizations Visited
                                                           Air Force Materiel
       Improvement Description                           Command Organizations

    Improvement in processing transactions of
      $2,500 or less by using credit cards                    A B C              F
    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                                  B C            F

    The primary improvements associated with acquisition reform initiatives
    identified for the AFMC organizations visited as shown in Table L-21 are
    discussed below.

    Improvement in Processing Transactions of $2,500 or Less by Using Credit
    Cards. Four of the six AFMC organizations commented that the
    implementation of the credit card program was beneficial in that it offset some
    of the impact of acquisition workforce reductions and had other beneficial
    effects such as quicker response time in obtaining goods and services.
    Specifically, they indicated that the credit card program shifted the workload for
    small dollar value, less complex, procurement actions, from buyers to card
    holders in the AFMC operating units. One organization would like to see the
    purchase limits extended and further reductions in the paperwork associated with
    the program.

    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). Three of the six AFMC organizations stated that
    the simplified acquisition procedures have streamlined purchases because the
    procedures require fewer people to execute the acquisition and less data analysis
    is required before contact award. The organizations also commented that
    sometimes the data that was required to properly execute the simplified
    acquisition procedures was unavailable.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that the AFMC organizations believed they might experience are in Table L-24.
    The table correlates those effects with the AFMC organizations visited using the
    letter designations from Table L-21.



                                       114
   Table L-24. Potential Future Impact of the Acquisition Workforce
  Reductions for the Air Force Materiel Command Organizations Visited

      Potential Future Impact of                          Air Force Materiel
   Acquisition Workforce Reductions                     Command Organizations

Impairment of ability to accomplish mission                  B C   E
Impairment to workforce morale                               B C D E
Increased program costs and contracting for support              D E

Discussion of the primary potential future impacts of the acquisition workforce
reductions for the AFMC organizations visited as shown in Table L-21 follows.

Impairment of Ability to Accomplish Mission. Three of the six AFMC
organizations stated that an additional reduction in their staffs would make it
increasingly difficult to execute their programs. Specifically, the Aeronautical
Systems Center stated that staff reductions in the range of 20 to 25 percent
would threaten the execution of its programs, while smaller reductions could
result in program offices contracting for support to offset staff elimination to
meet workforce reduction goals. The Oklahoma City Air Logistics Center (the
Center) stated that additional workforce cuts above 5 percent would have a
negative impact on customer support and some customer driven projects would
have to be postponed or canceled. However, the Center predicted that it would
move towards the creation of an acquisition workforce that would be able to
execute the programs with fewer people and resources.

Impairment to Workforce Morale. Four of the six AFMC organizations
stated that morale will suffer because of limited opportunities for career
advancement, increased workload, and increased stress levels.

Increased Program Costs and Contracting for Support. Two of the
six AFMC organizations stated that further reduction of authorized positions
would result in more contracting for engineering and logistics operations to
offset losses in those job series.




                                   115
Air Force Program Executive Organization
    The following discusses the current and potential future impacts on the
    Air Force Program Executive Organization (the Program Executive) resulting
    from the reductions in its acquisition workforce and the primary improvements
    associated with the acquisition reform initiatives. Table L-25 designates a letter
    for each of the Program Executive organizations visited. Table L-26 shows the
    primary current effects of the DoD acquisition workforce reductions that the
    Program Executive organizations indicated that they experienced and correlates
    those effects with the Program Executive organizations visited. Table L-27
    shows the primary improvements associated with the acquisition reform
    initiatives for the Program Executive organizations visited. Table L-28 shows
    the primary future effects of DoD acquisition workforce reductions that the
    Program Executive organizations believed they might experience and correlates
    those effects with the Program Executive organizations visited using the letter
    designations from Table L-25. Following the tables are more detailed
    discussions of the current and potential future impacts and the primary
    improvements associated with the acquisition reform initiatives.

              Table L-25. Letter Designation for Air Force Program
                         Executive Organizations Visited
                                                                 Letter
       Air Force Program Executive Organizations              Designation

    Air Force Program Executive Office for Fighters and Bombers            A
    Air Force Program Executive Office for Weapons                         B
    B-1 Bomber System Program Office                                       C
    F-16 System Program Office                                             D
    Joint Air-to-Surface Standoff Missile System Program Office            E

Current Impact
     Table L-26. Current Impact of the Acquisition Workforce Reductions for
              the Air Force Program Executive Organizations Visited

            Current Impact of                                  Air Force Program
       Acquisition Workforce Reductions                      Executive Organizations

    Insufficient staff to manage requirements                      B      D E

    The primary current impact of the acquisition workforce reductions for the
    Air Force Program Executive organizations visited as shown in Table L-25 are
    discussed below.

    Insufficient Staff to Manage Requirements. Three of the five Program
    Executive organizations had insufficient staff to manage requirements.
    Two organizations stated that manpower downsizing has, together with
    acquisition reform, caused the acquisition workforce to stop doing some things

                                       116
    that were little value added. For example, the F-16 System Program Office
    stated that it needed to increase its staff by about 40 percent to be fully staffed.
    The F-16 System Program Office staff was working additional hours without
    compensation to maintain and manage the operations and functions of the
    Program Office. The F-16 System Program Office stated that, without
    compensating the workforce for the overtime, the F-16 Program risks slower
    response time to taskings, delays in processing contracts, and reduced ability to
    act proactively.

Primary Improvements Associated with Acquisition Reform
  Initiatives
          Table L-27. Primary Improvement Associated with Acquisition
         Reform Initiatives Identified by the Air Force Program Executive
                               Organizations Visited
                                                           Air Force Program
       Improvement Description                           Executive Organizations

    Improved efficiency and economy in contracting
      through the use of simplified acquisition
      threshold ($100,000 or less) and reengineered
      procedures (over $100,000)                                     B C        E

    The primary improvement associated with acquisition reform initiatives
    identified for the Air Force Program Executive organizations visited as shown in
    Table L-25 is discussed below.

    Improved Efficiency and Economy In Contracting Through the Use of
    Simplified Acquisition Threshold ($100,000 or less) and Reengineered
    Procedures (over $100,000). Three of the five Program Executive
    organizations stated that the simplified acquisition procedures were a helpful
    initiative during the workforce downsizing. For example, the Joint
    Air-to-Surface Standoff Missile System Program Office (the System Program
    Office) stated that commercial buying practices had a significant impact on the
    way it did business by providing a commercial business framework that required
    fewer workers to conduct required acquisition activities. The System Program
    Office also stated that it eliminated duplicating contractor efforts in the areas of
    configuration control, overseeing the contractors’ design processes, and doing
    process evaluations. The System Program Office’s overall manpower
    reductions were beneficial in that they caused the acquisition workforce to
    become more efficient without sacrificing product quality or adding risk.

Potential Future Impact
    The primary potential future effects of DoD acquisition workforce reductions
    that the Program Executive organizations believed they might experience are
    listed in Table L-28. The table correlates those effects with the Air Force
    Program Executive organizations letter designations from Table L-25.

                                        117
   Table L-28. Potential Future Impact of the Acquisition Workforce
  Reductions for the Air Force Program Executive Organizations Visited

      Potential Future Impact of                          Air Force Program
   Acquisition Workforce Reductions                     Executive Organizations

Impairment to workforce morale                            A     C D
Increased program costs and contracting for support               D
Inability to hire and retain employees                        B   D E

The primary potential future impacts of the acquisition workforce reductions for
the Air Force Program Executive organizations as shown in Table L-25 are
discussed below.

Impairment to Workforce Morale. Three of the five Program Executive
organizations stated that morale may suffer because of limited opportunities for
career advancement, increased workload, and increased stress levels.

Increased Program Costs and Contracting for Support. One of the
five Program Executive organizations stated that further reductions of authorized
positions may result in increased cost of its weapon system.

Inability to Hire and Retain Employees. Three of the five Program Executive
organizations stated that the inability to hire and retain young employees is an
immediate problem that will only get worse in the future. The problem is not
due to reductions made to the acquisition workforce, but due to the attrition and
associated hiring freezes used to manage the workforce reductions. For
example, the Air Force Program Executive Office for Weapons stated that it has
seen more people leaving government service, especially military, for higher
paying and more stable civilian jobs with more opportunities.




                                   118
Appendix M. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Commander, Army Materiel Command
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Commander, Army Space and Missile Defense Command
Army Corps of Engineers
Army Acquisition Executive
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Commander, Naval Air Systems Command
Commander, Naval Sea Systems Command
Auditor General, Department of the Navy
Commander, Marine Corps Systems Command
Commander, Naval Facilities Engineering Command
Commander, Naval Supply Systems Command
Commander, Space and Naval Warfare Systems Command
Chief of Naval Research
Director, Navy Strategic Systems Program Office

Department of the Air Force
Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander In Chief, Special Operations Command
  Special Operations Command Acquisition Executive

                                         119
Other Defense Organizations
Director, Ballistic Missile Defense Organization
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
   Commander, Defense Contract Management Command
      Commander, Defense Contract Management Command East
      Commander, Defense Contract Management Command West
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         120
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics Comments




                      121
               ___________________________________________________________________


Final Report
 Reference




Deleted




Page 18




Page 19




                                           122
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Patricia A. Brannin
     John E. Meling
     Jack D. Snider
     John J. Dzik
     Neal J. Gause
     Susan J. Lippolis
     Louis F. Schleuger
     William F. Bazemore
     Sean A. Davis
     Helen Bae
     Frank Downey
     Kevin B. Palmer
     Kimberly L. Prioleau
     Lusk F. Penn
     Lam Ba Nguyen
     Krista S. Gordon
     Michelle A. Gauci
     Cynthia B. Stull
